 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2012 AND 2011
      Federal Aviation Administration

       Report Number: QC-2013-013
      Date Issued: November 14, 2012
           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                               Date:    November 14, 2012
           Audited Financial Statements for Fiscal Years
           2012 and 2011, Federal Aviation Administration
           Report Number: QC-2013-013

  From:    Calvin L. Scovel III                                              Reply to
                                                                             Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           I respectfully submit our report on the quality control review (QCR) of the Federal
           Aviation Administration’s (FAA) audited financial statements for fiscal
           years 2012 and 2011.

           The audit of FAA’s financial statements, as of and for the year ended
           September 30, 2012, was completed by KPMG LLP (see Attachment) under
           contract to the Office of Inspector General. The contract required the audit to be
           performed in accordance with generally accepted Government auditing standards
           and Office of Management and Budget Bulletin 07-04, “Audit Requirements for
           Federal Financial Statements,” as amended.

           KPMG LLP concluded that the consolidated financial statements present fairly, in
           all material respects, FAA’s financial position as of September 30, 2012, and its
           net costs, changes in net position, and budgetary resources for the year then ended,
           in conformity with U.S. generally accepted accounting principles.
           Clifton Gunderson LLP, under contract to the Office of Inspector General, audited
           FAA’s fiscal year 2011 consolidated financial statements, and expressed an
           unqualified opinion on those statements. 1




           1
               Quality Control Review of Audited Financial Statements for Fiscal Years 2011 and 2010, Federal
               Aviation Administration, Report Number QC-2012-008, November 14, 2011. OIG reports and testimony
               can be found on our Web site at: www.oig.dot.gov.
                                                                                   2


KPMG LLP’s Fiscal Year 2012 Audit Report

KPMG LLP reported the following two significant deficiencies in internal control
over financial reporting:

   1. Insufficient Validation of Grant Accrual Estimates – FAA has not been
      validating the accuracy of its Airport Improvement Program grant accrual
      estimates by comparing them to actual data. In addition, FAA does not have
      a process to collect the grantee data it needs to refine or develop future
      grant accrual estimation methodologies. As a result, there is a risk that these
      estimates will result in material misstatements in FAA’s financial
      statements.
   2. Improvements Needed in the Financial Statement Review Process –
      FAA’s interim financial statements and notes contained material
      misstatements as a result of inadequately designed controls over the review
      process. Without the proper controls, there is a risk that material
      misstatements may occur and remain undetected.

We performed a QCR of KPMG LLP’s report and related documentation. Our
QCR, as differentiated from an audit performed in accordance with generally
accepted Government auditing standards, was not intended for us to express, and
we do not express, an opinion on FAA’s financial statements or conclusions about
the effectiveness of internal controls or compliance with laws and regulations.
KPMG LLP is responsible for its report dated November 9, 2012, and the
conclusions expressed in that report. However, our QCR disclosed no instances in
which KPMG LLP did not comply, in all material respects, with generally
accepted Government auditing standards.

KPMG LLP made five recommendations to strengthen FAA’s financial,
accounting, and system controls. FAA officials concurred with KPMG LLP’s
findings on the significant deficiencies. FAA also committed to submitting to
OIG, by December 31, 2012, a detailed action plan to address the findings
contained in the audit report. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the findings are subject to follow up.

We appreciate the cooperation and assistance of FAA representatives, the Office
of Financial Management, and KPMG LLP. If we can answer any questions,
please call me at 202-366-1959, or Lou E. Dixon, Principal Assistant Inspector
General for Auditing and Evaluation, at 202-366-1427.

Attachment

                                          #
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Acting Administrator, Federal Aviation Administration
Inspector General, U.S. Department of Transportation:

We have audited the accompanying consolidated balance sheet of the U.S. Department of Transportation
(DOT), Federal Aviation Administration (FAA) as of September 30, 2012, and the related consolidated
statements of net cost, and changes in net position, and the combined statement of budgetary resources
(hereinafter referred to as “consolidated financial statements”) for the year then ended. The objective of our
audit was to express an opinion on the fair presentation of these consolidated financial statements. In
connection with our fiscal year 2012 audit, we also considered the FAA’s internal control over financial
reporting and tested the FAA’s compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on these consolidated financial
statements. The consolidated financial statements of the FAA as of September 30, 2011, and for the year
ended were audited by other auditors. Those auditors expressed an unqualified opinion on the fiscal year
2011 consolidated financial statements in their report dated November 9, 2011.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that the FAA’s
consolidated financial statements as of and for the year ended September 30, 2012 are presented fairly, in
all material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, the FAA changed its presentation for
reporting the Combined Statement of Budgetary Resources in fiscal year 2012, based on new requirements
under Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements.

As discussed in our opinion on the consolidated financial statements, the consolidated financial statements
reflect actual excise tax revenues deposited in the Airport and Airway Trust Fund through June 30, 2012,
and excise tax receipts estimated by the Department of Treasury’s Office of Tax Analysis for the quarter
ended September 30, 2012.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be significant deficiencies, as defined in the Internal Control over Financial Reporting
section of this report, as follows:

Significant Deficiencies

1. Insufficient Validation of Grant Accrual Estimates

2. Improvements Needed in the Financial Statement Review Process

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control over Financial Reporting section of this report.

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Federal Aviation Administration
November 9, 2012
Page 2 of 5




The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended.

The following sections discuss our opinion on the FAA’s consolidated financial statements; our
consideration of the FAA’s internal control over financial reporting; our tests of the FAA’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements; and management’s
and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheet of the Federal Aviation Administration as
of September 30, 2012, and the related consolidated statements of net cost, and changes in net position, and
the combined statement of budgetary resources for the year then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the Federal Aviation Administration as of September 30, 2012, and its net
costs, changes in net position, and budgetary resources for the year then ended, in conformity with U.S.
generally accepted accounting principles. The consolidated financial statements of the FAA as of
September 30, 2011, and for the year then ended were audited by other auditors. Those auditors expressed
an unqualified opinion on the fiscal year 2011 consolidated financial statements in their report dated
November 9, 2011.

As discussed in Note 1.Y to the consolidated financial statements, the FAA changed its presentation for
reporting the Combined Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, certain
balances on the FAA’s Combined Statement of Budgetary Resources for fiscal year 2011 have been
reclassified to conform to the current year presentation.

As discussed in Notes 1 and 12, the consolidated financial statements reflect actual excise tax revenues
deposited in the Airport and Airway Trust Fund through June 30, 2012, and excise tax receipts estimated
by the Department of Treasury’s Office of Tax Analysis for the quarter ended September 30, 2012.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship Information
sections be presented to supplement the basic financial statements. Such information, although not a part of
the basic financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our inquiries,
the basic financial statements, and other knowledge we obtained during our audit of the basic financial
statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.
Federal Aviation Administration
November 9, 2012
Page 3 of 5




Our audit was conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section on pages 121 through 140 is
presented for the purposes of additional analysis and is not a required part of the basic financial statements.
Such information has not been subjected to the auditing procedures applied in the audit of the basic
financial statements, and accordingly, we do not express an opinion or provide any assurance on it.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in the Exhibit that we consider to be significant
deficiencies in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

We noted certain additional matters that we have reported to management of the FAA in a separate letter
dated November 9, 2012.

Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the FAA’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

                                                 *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control over financial reporting; and complying with laws,
regulations, contracts, and grant agreements applicable to the FAA.
Federal Aviation Administration
November 9, 2012
Page 4 of 5




Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 consolidated
financial statements of the FAA based on our audit. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audit to obtain reasonable assurance about whether the consolidated financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the FAA’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audit provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the FAA’s internal control over
financial reporting by obtaining an understanding of the FAA’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the FAA’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the FAA’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the FAA’s fiscal year 2012 consolidated financial
statements are free of material misstatement, we performed tests of the FAA’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the FAA. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________

FAA’s written response to the findings identified in our audit and presented herein was not subjected to the
auditing procedures applied in the audit of FAA’s consolidated financial statements, and, accordingly, we
express no opinion on it.
Federal Aviation Administration
November 9, 2012
Page 5 of 5




This report is intended solely for the information and use of the DOT and FAA’s management, the DOT’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress,
and is not intended to be and should not be used by anyone other than these specified parties.




November 9, 2012
Federal Aviation Administration
Independent Auditors’ Report
Internal Control over Financial Reporting                                     EXHIBIT
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

A. Insufficient Validation of Grant Accrual Estimates

Criteria

Federal Accounting Standards Advisory Board (FASAB) Technical Release 12: Accrual Estimate for
Grant Programs states agencies must accumulate sufficient relevant and reliable data on which to base
accrual estimates. Each agency should prepare grant accrual estimates based upon the best available data at
the time the estimates are made. As part of the agencies’ internal control procedures to ensure that grant
accrual estimates for the basic financial statements were reasonable, agencies should validate grant accrual
estimates by comparing the estimates with subsequent grantee reporting. Reports submitted by grantees
should be reviewed to ensure their reasonableness. Agencies should have policies and procedures in place
to review and verify the grantee expenditures (or expenses) reported.

The FAA’s Program Guidance Letter (PGL) 10-01 states that, “We are issuing this Program Guidance
Letter to comply with the Office of Management and Budget (OMB) directive for all federal agencies to
begin using the new Federal Financial Report (FFR) form number SF 425 no later than October 2009…”

OMB Circular No. A-133 Compliance Supplement 2012 (the Supplement), Part 3 – Compliance
Requirements, states that, “The standard financial reporting forms are … Federal Financial Report (FFR)
(SF-425/SF-425A (OMB No. 0348-0061)). Recipients use the FFR as a standardized format to report
expenditures under Federal awards, as well as, when applicable, cash status (Lines 10.a, 10.b, and 10c).
References to this report include its applicability as both an expenditure and a cash status report unless
otherwise indicated.”

Further, the Supplement, Part 4 - Department of Transportation (DOT), CFDA 20.106, Airport
Improvement Program, III. Compliance Requirements, Section L. Reporting, indicates that the SF 425 is
applicable to the FAA.

Background

In fiscal year (FY) 2012, the FAA Airport Improvement Program (AIP) awarded $3.2 billion in
discretionary and block grants to various state and local governments and airport authorities for the
planning and development of over 3,000 public-use airports that are included in the National Plan of
Integrated Airport Systems. Recipients of these grants are required to request payment from FAA for
expenses incurred via an Outlay Report and Request for Reimbursement for Construction Programs (SF-
271). In addition, recipients are required to report expense information to FAA on a quarterly basis via the
Federal Financial Report (SF-425).

At the end of each fiscal year, FAA is required to estimate an accrual for AIP grant expenses incurred by
grantees but not paid to grantees. The methodology used by FAA to calculate the AIP grant accrual is
based on a survey performed in FY 2008. In FY 2008, FAA selected a statistical sample of disbursements
to grantees and asked the grantee to confirm the specific fiscal year in which the work associated with the
selected disbursement sample was performed. FAA used the results of this analysis to develop an
estimation methodology for the AIP grant accrual.
Federal Aviation Administration
Independent Auditors’ Report
Internal Control over Financial Reporting                                     EXHIBIT
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

Condition

FAA has not validated the accuracy of its AIP grant accrual by comparing the estimate to subsequent
grantee reporting, as required by U.S. generally accepted accounting principles, since the FAA conducted
its survey in FY 2008. Since that time, FAA personnel have performed analytical procedures over annual
grant disbursement data from the FAA’s Delphi general ledger, and used trend analyses of annual AIP
grant accrual estimates to corroborate the methodology developed in FY 2008.

In addition, we also noted that FAA does not have a process in place to accumulate sufficient relevant and
reliable data from grantees that can be used as a basis for preparing future grant accrual estimates.
Specifically, as part of our audit procedures over grant controls for the period of October 1, 2011 through
July 31, 2012, we noted the following exceptions:

    1. The SF-425 was not provided for 28 of 50 grant disbursements, as required by OMB Circular
       A-133 Compliance Supplement 2012 and FAA’s Program Guidance Letter 10-01. FAA
       management did provide the SF-271 or other comparable reports to support the sample item.
       However, the SF-271 does not include all information required by the SF-425. Further, there was
       no evidence of review (e.g., signature) by FAA personnel on the SF-425 or on the SF-271 for 39 of
       50 grant disbursements.

    2. The SF-425 forms that were submitted by FAA’s grantees were not completed in accordance with
       OMB requirements, and did not contain information that was necessary for validation of a grant
       accrual estimate.

Cause

The exceptions above occurred because FAA does not have policies and procedures in place to ensure that
quarterly reports are submitted in a timely manner, nor does FAA require its grant recipients to complete
all information requested on the SF-425 form. In addition, evidence of FAA personnel’s review of
information reported by grant recipients on SF-271s and SF-425s is not required under current policies and
procedures.

Effect

Application of a grant accrual methodology without review of subsequent grantee reporting may result in
improperly accruing expenses and accounts payable, and may result in a material misstatement on the
associated liability and expense reported on the Consolidated Balance Sheet and Statement of Net Cost.

In addition, without adequate grantee monitoring controls, grantees may misreport (intentionally or
unintentionally) or fail to report grant expenditure details.

Recommendations

We recommend that FAA perform the following:

    1. Enhance FAA’s policies and procedures to include a requirement that information contained in the
       quarterly SF-425 reports be submitted by sponsors in accordance with the requirements of CFR
       Title 2, and reviewed by project manners in a timely manner to determine if the information
Federal Aviation Administration
Independent Auditors’ Report
Internal Control over Financial Reporting                                     EXHIBIT
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

           reported is complete and accurate. If management determines that information required by the SF-
           425 reports is not relevant to the AIP grant program, a waiver from OMB should be obtained.

    2. Develop and implement policies and procedures that specify the minimum grant monitoring
       documentation and oversight requirements, specifically as it relates to information reported by the
       grantees on the SF-425 and SF-271 reports, or electronically via FAA’s iSupplier application, and
       training on the updated policies and procedures.

    3. Develop a process to accumulate sufficient relevant and reliable data from grantees to use in
       estimating its annual AIP grant accrual.

    4. Design and implement policies and procedures, at an appropriate level of precision, to periodically
       validate the assumptions of the AIP grant accrual methodology through review of subsequent
       grantee disbursements, and to revise its methodology, if needed, based on the outcome of the
       validation process.

B. Improvements Needed in the Financial Statement Review Process

Criteria

FAA's Financial Manual specifies that the review of the financial statements, footnotes, and disclosures be
conducted on a quarterly basis, and that the financial statements comply with OMB Circular A-136,
Financial Reporting Requirements, and U.S. generally accepted accounting principles.

Background

Financial reporting in the federal environment is a complicated and evolving process. In addition, the
complex and varied operations of the FAA makes consolidated reporting, under standards issued by the
FASAB and OMB, a challenge for the FAA.

Condition

During our fiscal year 2012 audit, we noted several areas for improvement in the FAA’s consolidated
financial statement preparation and review. Specifically, through our review of the FAA’s interim
consolidated financial statements as of and for the period ended June 30, 2012, we noted several material
misclassifications in the financial statements and notes to the financial statements. The misclassifications
occurred within the Consolidated Statement of Net Cost, and within the following notes disclosures:

    •      Fund Balance with Treasury;
    •      Employee Related and Other Liabilities;
    •      Earmarked Funds; and
    •      Imputed Financing Sources.
Cause

Existing controls related in the FAA’s review of the financial statements and notes are not adequately
designed, at the appropriate level of precision, to prevent a misstatement in the financial statements or
notes.
Federal Aviation Administration
Independent Auditors’ Report
Internal Control over Financial Reporting                                     EXHIBIT
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

Effect

FAA corrected the misclassifications noted above prior to issuing the September 30, 2012, financial
statements and notes. However, had these misclassifications not been detected, the financial statements and
notes would have been materially misstated as of September 30, 2012.

Recommendation

We recommend that FAA develop and implement formal policies and procedures that require an
assessment of the accuracy and presentation of financial information in FAA’s financial statements and
notes, including a review of historical account mapping.
        Department of Transportation
       Federal Aviation Administration
MANAGEMENT’S RESPONSE TO THE FY 2012
   INDEPENDENT AUDITORS’ REPORT
              November 9, 2012
                                           FISCAL YEAR 2012

                   PERFORMANCE &
             ACCOUNTABILITY REPORT
              The FAA. Evolving Technology. Advancing Aviation.

HQ-13-0069
         OUR MISSION                                               OUR VALUES
To provide the safest, most efficient                           Safety is our Passion.
  aerospace system in the world.                         We work so all air and space travelers
                                                           arrive safely at their destinations.

          OUR VISION                      Excellence is our Promise.              People are our Strength.
  We strive to reach the next level      We seek results that embody             Our success depends on the
 of safety, efficiency, environmental    professionalism, transparency,       respect, diversity, collaboration, and
responsibility, and global leadership.         and accountability.               commitment of our workforce.
We are accountable to the American
     public and our stakeholders.        Integrity is our Touchstone.            Innovation is our Signature.
                                         We perform our duties honestly,         We foster creativity and vision
                                         with moral soundness, and with           to provide solutions beyond
                                            the highest level of ethics.              today’s boundaries.
                             FISCAL YEAR 2012

            PERFORMANCE &
            ACCOUNTABILITY
                   REPORT




The FAA. Evolving Technology. Advancing Aviation.
ii




     THE FAA AT A GLANCE                                                         1
                                                                                         FOREWORD
     ESTABLISHED                               1958                                    The Federal Aviation Administration (FAA) is part of the
                                                                                         U.S. Department of Transportation (DOT). By directives,
     HEADQUARTERS                              800 Independence Avenue, SW              the Office of Management and Budget (OMB), which
                                                   Washington, DC 20591                  implements the Chief Financial Officers Act of 1990
                                                   www.faa.gov                           (CFO Act), requires us to prepare financial statements
                                                                                         separate from those of the DOT. We consolidate key
     FY 2012 BUDGET                            $16.1 billion                            FAA data and information and provide this to the DOT to
     (enacted)                                                                           incorporate into their corresponding reports. Although we
                                                                                         are not required to prepare a separate Annual Financial
     TOTAL EMPLOYEES                           47,031 employees                         Report or Performance and Accountability Report
                                                                                         (PAR), we recognize that we can better demonstrate our
                                               6,133 employees                          accountability by presenting performance, management,
     HEADQUARTERS
                                                                                         and financial information using the same statutory and

                                               36,246 employees
                                                                                         guidance framework as that used by the DOT. Thus,
     REGIONAL AND
     FIELD OFFICES                                                                       since fiscal year (FY) 2002, we have elected to produce
                                                                                         our own PAR.

     TECHNICAL CENTER                          1,131 employees
                                                                                         Last year, we were proud to receive our eighth
     ATLANTIC CITY, NJ
                                                                                         prestigious Certificate of Excellence in Accountability
                                                                                         Reporting (CEAR) Award for the PAR from the
     AERONAUTICAL                              3,521 employees
                                                                                         Association of Government Accountants. This award is
     CENTER
                                                                                         indicative of the progress we have made in reporting
     OKLAHOMA CITY, OK
                                                                                         financial and program performance and in candidly
                                                                                         assessing our results. We also received a CEAR “Best in
     FY 2012 PASSENGERS                        735.5 million (estimate)
                                                                                         Class” award for the FY 2011 Summary of Performance
     ON U.S. CARRIERS
                                                                                         and Financial Information, which summarizes the
                                                                                         information in the PAR into condensed form.
     FY 2012 TOWER                             53.8 million arrivals and
     OPERATIONS AND                                departures (estimate)                 We will continue to raise the bar with our performance
     OVERFLIGHTS                                                                         and financial accountability and do our part to help the
                                                                                         DOT and the Federal Government excel in providing
     1	 U.S. Department of Transportation, Federal Aviation Administration,              high-quality services and products to the taxpayers we
        Administrator’s Fact Book, June 2012, by Deputy Assistant Administrator for      serve.
        Financial Services (Washington, D.C., 2012).




                                          This report and reports from prior years are available on the FAA website at
                                                                     www.faa.gov/about/plans_reports
                                                                                                                                                                                                                                                                  1




TABLE OF CONTENTS
    Mission, Vision, and Values Statements  .  .  .  .  .  .  .  .  .  .  .  .  . inside front cover
   The FAA at a Glance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ii
    Foreword .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ii

A MESSAGE FROM THE ADMINISTRATOR  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
MANAGEMENT’S DISCUSSION & ANALYSIS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
    History of Aviation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
    Our Organization .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
   The Year in Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
    Major Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
         NextGen  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
         Other Major Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
    Performance Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
    Alignment of FAA Costs and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
    Financial Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
    Management Controls Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34
    Financial Management Systems Strategy and Actions .  .  .  .  .  .  .  .  .  .  .  .  .  . 38

PERFORMANCE RESULTS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
    Performance Measures Overview .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
         Next Level of Safety  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
         Workplace of Choice .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50
         Delivering Aviation Access Through Innovation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53
         Sustaining Our Future .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
         Improved Global Performance through Collaboration  .  .  .  .  .  .  .  .  .  .  .  .  . 61
    Quality Assurance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64

FINANCIAL RESULTS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 66
    A Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67
    Office of the Inspector General (OIG) Quality Control Review  .  .  .  .  .  .  .  . 69
    Independent Auditors’ Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 71
    Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83
    Notes to the Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87
    Required Supplementary Stewardship Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 113
    Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 117

OTHER ACCOMPANYING INFORMATION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 120
    Summary of Inspector General’s Top
      Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .121
    Summary of Financial Statement Audit and                                                                                                                           SIDEBARS
      Management Assurances .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 132                                       NextGen Transforms the Flying Experience .  .  . 12
    Summary of Improper Payments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 133                                             The FAA Goes Paperless in the
    Administrative Services Franchise Fund  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 135                                                    Classroom and the Cockpit .  .  .  .  .  .  .  .  .  .  .  .  . 17
    Schedule of Spending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 140                           News from Commercial Space .  .  .  .  .  .  .  .  .  .  .  . 19
                                                                                                                                                                        Aviation Fire Safety  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
GLOSSARY OF ACRONYMS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 141
                                                                                                                                                                        U.S. Aviation Greenhouse Gas Emissions
WE WELCOME YOUR COMMENTS  .  .  .  .  .  .  .  .  .  .  .  .  .  . inside back cover                                                                                      Reduction Plan .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22
                                                                                                                                                                        The FAA Takes Flight with Destination 2025 .  . 25




                                            FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
2




                             A MESSAGE FROM
                           THE ADMINISTRATOR
      MICHAEL P. HUERTA
    ACTING ADMINISTRATOR
                                                                                                                                               3




I am pleased to submit the Federal Aviation Administration’s Fiscal Year 2012 Performance and Accountability Report.
In this report, we candidly discuss the challenges we face and convey our FY 2012 major accomplishments and




                                                                                                                                  A MESSAGE FROM THE ADMINISTRATOR
performance results. At the Federal Aviation Administration, operating the largest and safest aviation system in the
world is our number one priority and our mission.

Congress passed the FAA Modernization and Reform Act of 2012 (H.R. 658) and the President signed it into law on
February 14, 2012. This reauthorizing legislation has major significance for both FAA employees and the critical work that
we do. After 23 short-term extensions, this four-year, $63 billion act provides the stability and predictability needed to
ensure that we can plan and execute critical aviation safety programs, the Next Generation Air Transportation System
(NextGen), infrastructure investments, and research and development initiatives.

We moved forward with three primary areas of focus throughout 2012.
nnMake   the safest aviation system in the world even safer…and smarter.
 Accelerate
nn            the benefits of NextGen right now.
nnEmpower    the FAA’s workforce of 47,000 to work even more efficiently and innovatively.

Aviation Safety
More than 2.5 billion people have flown on U.S. commercial aircraft in the last three-and-a-half years and we have not had
a commercial fatal accident in that time. Our safety record is a testament to the strong working relationship between the
Federal Aviation Administration and all of our stakeholders. The vigilance of the FAA safety workforce remains resolute,
while we continue to press for and deliver the technology that will advance aviation growth in the future.

Without question, we have made significant strides in accomplishing safety objectives. In January 2012, the FAA
published a final rule on pilot fatigue. This new rule guarantees commercial passenger pilots the opportunity for proper
rest before they fly. The rule draws upon the latest fatigue science research to set requirements for pilot flight time, “duty
period,” and rest. The rule is based on the time of day that pilots begin their first flight, the number of flight segments in
their schedule, and the number of time zones they cross. Moreover, flight duty periods under the new rule include flight-
related activities that are part of the workday, such as time spent training in an aircraft simulator or standing by on-call at
an airport. The final rule on pilot fatigue is explained in greater detail on page 18.

We are advancing the science of aviation safety itself with a decided shift from forensic to predictive analysis. Aviation
safety has evolved to the point where there is no longer a “common cause” for airplane accidents. The FAA is turning
to predictive systems that anticipate potential causes of accidents. These systems use electronic data from aircraft
operations and performance and input from professionals in the system, and then identify the trends that emerge. As
catastrophic events become more and more rare, this new approach focuses on risk, system design, and human factors.
In essence, the goal is to identify and mitigate risks before accidents occur.

NextGen Now
The development and launch of the Next Generation Air Transportation System is under way. For the passenger, the
pilot and the taxpaying public, “NextGen” means enhanced safety, less environmental impact, and more predictable
schedules. We’re already seeing these benefits in metropolitan areas around the country.

As part of the Greener Skies initiative, explained further on page 12, we are partnering with Alaska Airlines, the Port of
Seattle, and the Boeing Company to create new NextGen approaches into the Seattle Tacoma Airport (SeaTac). These




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
4




                                     new flight tracks are shorter, more fuel efficient, and more environmentally friendly. As a result, we reached a milestone
                                     this summer. For the first time, Alaska Airlines has flown customers into SeaTac using these new NextGen approaches.
A MESSAGE FROM THE ADMINISTRATOR




                                    These procedures will help properly equipped aircraft flying into SeaTac to significantly cut total fuel consumption and
                                    reduce carbon emissions while doing so. NextGen is a better way of doing business, and not just from a financial
                                    perspective. The benefits to the environment are well worth the investment.

                                    To manage the NextGen effort, we have launched a new Program Management Organization within the Air Traffic
                                    Organization, specifically focused on implementing major technology programs. This new organization strengthens and
                                    improves the coordination among NextGen initiatives, taking them from the drawing board to live operation.

                                    NextGen is not the only arena for new technology requiring a special focus. The FAA also created an Unmanned Aircraft
                                    Systems (UAS) Integration Office in 2012. This new office is the focal point for all of the agency’s efforts dealing with
                                    unmanned aircraft.

                                    There is much more to NextGen. For more information, click on http://www.faa.gov/nextgen/. Additionally, NextGen
                                    accomplishments and highlights appear on pages 12–13 and 15–17 of this report.

                                    Enhanced Organizational Efficiency
                                    In addition to being stewards of the national airspace system, the FAA also is responsible for more than 3,000 facilities,
                                    47,000 employees and an annual budget that exceeds $16 billion. In a day and age when resources are growing
                                    increasingly tighter, all levels of the agency must work smarter and more efficiently wherever possible.

                                    To address this challenge, we have taken direct steps to change the way we do business and improve the efficiency of our
                                    internal workflow. In FY 2012, the FAA reorganized offices and established a shared services organization to consolidate
                                    and provide a more centralized focus for finance, acquisition, information services, and regional operations support.

                                    The shared services effort eliminates duplicate staffs. The shared services organization also institutes an effort to
                                    reduce and eliminate information technology costs, including the move to state-of-the-art “cloud computing” for the
                                    administrative systems used by FAA employees.


                                     FAA Strategic Goal Areas—FY 2012 Performance Highlights
                                    Next Level of Safety
                                    In 2012, we met our target to reduce commercial aviation fatalities. Reducing general aviation fatalities is a far more
                                    daunting task. Approximately 80 percent of general aviation fatal accidents are directly related to human factors. Most
                                    general aviation fatalities occurred in the area of experimental aircraft. Experimental aircraft are mostly amateur-built.
                                    These aircraft accounted for approximately 27.8 percent of general aviation fatal accidents in FY 2012 while only
                                    contributing to slightly under 4 percent of general aviation hours. A summary of our safety performance results is
                                    presented in the Management’s Discussion & Analysis on page 26.

                                    In FY 2012, we maintained our outstanding commercial space safety record, licensing our 208th commercial space
                                    launch without any fatalities, serious injuries, or significant property damage. In May 2012, the Dragon capsule, built by




                                   PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                          5




SpaceX (Space Exploration Technologies), successfully flew a demonstration mission showing that it had the capacity to
deliver critical supplies to the International Space Station and return safely to earth. More information about commercial




                                                                                                                             A MESSAGE FROM THE ADMINISTRATOR
space is presented on page 19 of the Management’s Discussion & Analysis. Detailed information about each of our
safety performance metrics begins on page 42 of the Performance Results Section.

Workplace of Choice
The technology of tomorrow must be used by employees who operate in the workforce of tomorrow. Creating an
environment marked by innovation and excellence is one of the key challenges we face in building a workforce capable
of making the transition to NextGen. A successful transition requires a systematic approach to getting the right number
of people with the right skills, experience, and competencies in the right jobs at the right time.

One of our strategic objectives is for the FAA to be widely recognized as a Federal employer of choice. We will create
a workplace of choice marked by integrity, fairness, diversity, accountability, safety, and innovation. Building stronger
leadership within the agency helps us to achieve strategic goals and manage people and resources more effectively. A
summary of our workplace of choice performance results is presented on page 26 of the Management’s Discussion &
Analysis. Detailed information about each of these performance metrics begins on page 50 of the Performance Section.

Delivering Aviation Access Through Innovation
Aviation access is about ensuring that airport and airspace services and capacity are better able to meet the needs
of the flying public. NextGen technologies and operational improvements such as ERAM already are helping to meet
these needs. We have given top priority to ERAM, a modern automated system that is replacing a 40-year old computer
system serving 20 air route traffic control centers. The new system will serve as a platform for adding other new
NextGen tools and technologies, ever increasing the safety and efficiency of flight for the public.

A summary of our Aviation Access performance results is presented on page 27 of the Management’s Discussion
& Analysis. Detailed information about each of these performance metrics begins on page 53 of the Performance
Section.

Sustaining Our Future
Noise pollution and fuel emissions pose the most significant environmental challenges to increasing aviation capacity,
efficiency, and sustainability. The FAA met its noise and fuel emission targets for the year. We were able to cut the
number of people exposed to significant aircraft noise to below 319,901. We also aimed to improve aviation fuel
efficiency by 14 percent over a 2000 baseline. We exceeded this target with an improvement of 14.76 percent.

A summary of these performance results is presented on page 27 of the Management’s Discussion & Analysis.
Detailed information about each of these metrics begins on page 57 of the Performance Section.

Improved Global Performance Through Collaboration
The FAA continues to work with governments and industries around the globe to ensure that NextGen concepts,
systems, and procedures integrate with those under development internationally. The agency has established itself as a




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
6




                                    collaborative leader in a seamless global aviation system. Our goal is to enhance the safety, efficiency, and sustainability
                                    of aviation around the world.
A MESSAGE FROM THE ADMINISTRATOR




                                    Accountability
                                    We are proud to have received an unqualified opinion with no material weakness from our auditors on our FY 2012
                                    financial statements. We issued an unqualified statement of assurance, shown under “Management Assurances” on
                                    page 37, and can state that the financial and performance data are reliable and complete.

                                    We are committed to ensuring transparency and accountability to the public while achieving our mission. Working in a
                                    difficult budgetary environment means that we will continue to emphasize the need to refine and adjust our priorities
                                    as we move forward. We will select and deliver the technologies and programs that will help us achieve the greatest
                                    improvements in safety. We will continue to be careful stewards of the tax dollars we receive. The results in this report
                                    are a clear indication that we take this responsibility very seriously.

                                    This FY 2012 Performance and Accountability Report provides a detailed accounting of our performance and financial
                                    management to both the flying public and the aviation industry and can be found at http://www.faa.gov/about/plans_
                                    reports/. A Summary of Performance and Financial Information also makes the information available in condensed form.
                                    This Summary is published in January (also at http://www.faa.gov/about/plans_reports/). Our new strategic plan—
                                    Destination 2025—focuses our performance on the top agency targets that position us to meet the future successfully.
                                    For more information, see the Destination 2025 sidebar on page 25 and the plan itself at www.faa.gov/about/
                                    plans_reports/media/Destination2025.pdf.

                                    Conclusion
                                    The decisions that we make and the new innovations and process improvements that we deliver over the next several
                                    years will determine the course of aviation in this country—and around the world—for decades to come. The FAA’s capable
                                    and dedicated staff and I look forward to working collaboratively with the President, the Congress, industry partners, and
                                    stakeholders to reach our goals and ensure that the United States continues to set the world standard for safety.




                                    Michael P. Huerta
                                    Acting Administrator
                                    November 9, 2012




                                   PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           7




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
8




           MANAGEMENT’S
    DISCUSSION & ANALYSIS
                                                                                                                                                       9




HISTORY OF AVIATION




                                                                                                                                          MANAGEMENT’S DISCUSSION & ANALYSIS
Orville Wright made the first sustained,
powered flight on December 17, 1903, in a
plane he and his brother Wilbur built. This
12-second flight led to the development of
the first practical airplane in 1905. The early
twentieth century witnessed countless
aviation developments as new planes
and technologies entered service. During
World War I, the airplane also proved its
effectiveness as a military tool and, with
the advent of early airmail service, showed
great promise for commercial applications.

The first lighted airway was a 72-mile
strip between Dayton and Columbus,
OH, constructed by the Army in 1921,                Wilbur Wright examining canoe attachment to aeroplane before 1st flight over water.
                                                    (Photo provided by Library of Congress Prints and Photographs Division.)
using rotating beacons, field floodlights,
and flashing markers. As air travel
increased, some airport operators, hoping                            that, even though U.S. air traffic had more than doubled
to improve safety, began providing an early form of air              since the end of World War II, little had been done to
traffic control. Early controllers stood on the field and            mitigate the risk of midair collisions.
waved flags to communicate with pilots. Development
of radio navigation in the 1920s was conducted by the                Accidents like these spurred passage of the Federal
Post Office Department, the Navy, the Army, and the                  Aviation Act of 1958, which transferred Civil Aeronautics
Bureau of Standards, using radio transmitters on the                 Administration functions to a new independent body, the
ground and aircraft receivers with directional antennas on           Federal Aviation Agency. On April 1, 1967, the Federal
board, and in the air. Based on ideas from the Bureau of             Aviation Agency became one of several organizations
Standards, the Army, and other sources, a radio system               within the U.S. Department of Transportation (DOT) and
was developed during the course of the 1920s that would              became the Federal Aviation Administration (FAA).
guide an aircraft along a chosen course and require only
simple airborne equipment. With the placement of radio               Today, the FAA’s air traffic control system is one piece of
beacons along the airways, air commerce in the United                the National Airspace System (NAS). The NAS consists
States grew, even during the Great Depression of the                 of a complex network of systems and aircraft, combined
1930s.                                                               with the people who certify, operate, and maintain
                                                                     these systems. The network includes more than 19,000
On June 30, 1956, a Trans World Airlines Super                       airports, 550 air traffic control facilities, and approximately
Constellation and a United Air Lines DC-7 collided in                65,000 other facilities, including radar, communications
Arizona, over the Grand Canyon, killing all 128 people               nodes, ground-based navigation aids, computer displays,
on board the two airplanes. The collision occurred                   and radios, that operate unceasingly to provide safe and
while the aircraft were flying under visual flight rules in          efficient flight services for users. More than 47,000 FAA
uncongested airspace. The accident dramatized the fact               personnel and 617,000 pilots manage more than 229,500




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
10



                                      aircraft within the NAS. American air traffic controllers          passengers. Under agreement with the International Civil
                                      can be responsible for up to 2,880 flights at any given            Aviation Organization (ICAO), not only does the NAS span
                                      moment, half of the world’s air traffic.                           the country, it extends into the Atlantic, Pacific, and Arctic
                                                                                                         oceans. It also interfaces with neighboring countries’ air
                                      The NAS operates non-stop, 24 hours a day, every day of            traffic control systems for international flights.
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      the year, providing safe air transportation for millions of




                                                                         1                                                                         2




                                                                                            3                                                      4

                                                                                                        (1) An early passenger service flight movement board is shown in
                                                                                                           this undated photo taken at the Wake Island Airfield, Wake Island,
                                                                                                           UM.
                                                                                                        (2) Photo from 1937, general view of interior of air traffic control
                                                                                                           tower, Cleveland Municipal Airport, Cleveland, OH.
                                                                                                        (3) In 1941, flight data were kept on white slips of cardboard. The
                                                                                                           Washington D.C. municipal airport had just received a new
                                                                                                           electrical control board to replace this one.
                                                                                                        (4) Photo from 1943 of the U.S. Weather Bureau station flight
                                                                                                           advisory weather services at the National Airport in Washington,
                                                                                                           D.C. Here, pilots in flight were warned of adverse weather
                                                                                                           conditions that may have affected the safe operation of aircraft.
                                                                                                        (5) Undated photo of air traffic control and landing system room 25 -
                                                                                                           Selfridge Field, Building No. 1050, Mount Clemens, MI.
                                                                                                           (All photos on this page provided by the Library of Congress Prints
                                                                                                    5      and Photographs Division, Washington, D.C. 20540 USA)




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                              11




OUR ORGANIZATION
We fulfill our mission through four Lines of Business that        Information Services
work collaboratively to create, operate, and maintain the         Region and Center Operations




                                                                                                                              MANAGEMENT’S DISCUSSION & ANALYSIS
National Airspace System (NAS).
                                                                     Aeronautical Center. The Mike Monroney
nnAir Traffic Organization (ATO). Moves air traffic safely             Aeronautical Center in Oklahoma City, OK,
  and efficiently. The customers of the world’s largest                provides logistics, enterprise business services,
  air navigation service provider are commercial, private,             software design, training, course design, and
  and military aviation. Approximately 35,000 ATO                      acquisition services.
  employees provide services to these customers.
                                                                       The Aeronautical Center also trains the air traffic
nnAirports    (ARP). Provides leadership in planning                   control workforce and the technician workforce,
  and developing a safe, secure, and efficient airport                 as well as provides technological training, national
  system; manages the Airport Improvement Program                      partnerships, logistics support, simulation, and
  (AIP), which provides grants to state and local                      medical research—all to move the NextGen
  governments and administers the Passenger Facility                   transformation forward.
  Charge program; enhances environmental quality and
  sustainability related to airport development; develops      nnNextGen    (ANG). The FAA created a new NextGen
  standards for the design and construction of airport           office separate from the ATO, reporting to the Deputy
  facilities; establishes regulations for the safe operation     Administrator. The NextGen Office provides leadership
  of commercial service airports; and inspects airports          in planning and developing the Next Generation Air
  for compliance.                                                Transportation System (NextGen).The NextGen Office
nnAviation Safety (AVS). Oversees the safety of aircraft         also coordinates NextGen initiatives, programs and
  and the credentials and competency of pilots and               policy development across the various FAA Lines of
  mechanics; develops mandatory safety rules; and sets           Business and Staff Offices.
  the standards that have helped make this one of the             Technical Center. The William J. Hughes Technical
  safest periods in aviation history.                               Center, located in Atlantic City, NJ, supports the
nnCommercial     Space Transportation (AST). Oversees               NextGen office and serves as the national scientific
  the safety of commercial space transportation                     test base for the FAA. The Technical Center focuses
  activities; regulates the U.S. commercial space                   on research and development, including long-range
  transportation industry, including human space                    development of innovative aviation systems and
  flight; and encourages, facilitates, and promotes U.S.            concepts; development of new air traffic control
  commercial space transportation.                                  equipment and software; and modification of
                                                                    existing systems and procedures. The Technical
The FAA also created two new key Staff Offices this year            Center also verifies and validates air traffic control,
to further the agency’s mission:                                    communications, navigation, airports, aircraft safety,
                                                                    and security systems.
nnFinance  and Management (AFN). Consolidates
  support services and provides a more centralized             Go to www.faa.gov/about/office_org for more details
  focus for finance, acquisition, information services,        about our organization.
  and region and center operations. The resulting
  streamlining of agency functions enables us to be
  more responsible stewards of FAA resources. AFN is
  comprised of the following offices:
   Financial Services
   Acquisitions and Business Services




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
       12



                                                                                                                   TRANSFORMS THE
                                                                                                                   FLYING EXPERIENCE
MANAGEMENT’S DISCUSSION & ANALYSIS




                                        IN FEBRUARY 2012, the agency’s first long-term Congressional                              the first in a series of switchovers
                                                                                                                                  that is expected to make ERAM
                                        authorization to become law in nearly a decade began providing the
                                                                                                                                  fully operational nationwide over the
                                        FAA with the greater financial guidance and stability essential to                        next two years. Preliminary ERAM
                                        planning for the Next Generation Air Transportation System (NextGen).                     operating capability already exists in
                                                                                                                                  Albuquerque, Denver, Minneapolis,
                                        This planning is necessary because the flight technology used today
                                                                                                                                  Chicago, Los Angeles, Oakland, and
                                        has evolved about as much as it can. NextGen technologies and                             Houston.
                                        procedures are essential to upgrading and reinvigorating an aging air                   nnIn  June 2012, Alaska Airlines flight
                                        transportation system.                                                                    505 from Los Angeles landed at
                                                                                                                                  Seattle-Tacoma International Airport.
                                        Both operators and the flying public will reap very substantial benefits from the         Flight 505 was the first passenger
                                        transition from ground-based navigational aids (NAVAIDS) and radar to satellite-          flight in the Greener Skies Over
                                        based navigation and surveillance: improved safety, fewer delays, capacity better         Seattle initiative, a collaborative
                                        matched to public demand, fuel savings, and better environmental performance              project between the FAA, the airlines,
                                        (lower carbon and exhaust emissions, development of alternative fuels, and less           the Port of Seattle, and Boeing
                                        noise).                                                                                   Corporation that will leave Seattle’s
                                                                                                                                  skies quieter and greener. Alaska
                                        Satellite-based navigation signals improve upon NAVAIDS and radar by delivering
                                                                                                                                  Airlines estimates the Greener Skies
                                        unprecedented levels of traffic awareness to both controllers and pilots with
                                                                                                                                  procedures will cut fuel consumption
                                        properly equipped airplanes. NextGen communication technologies will also
                                                                                                                                  by 2.1 million gallons annually and
                                        reduce misunderstandings between controllers and flight crews by replacing
                                                                                                                                  reduce carbon emissions by 22,000
                                        many voice transmissions with digital instructions.
                                                                                                                                  metric tons, the equivalent of taking
                                                                                                                                  4,100 cars off the road every year. In
                                        NEXTGEN ACHIEVEMENTS NOW                                                                  addition, they will reduce overflight
                                                                                                                                  noise exposure for an estimated
                                        The FAA’s investment in the future is paying off now.
                                                                                                                                  750,000 people living within the
                                        nnIn a major milestone, two types            nnFurther  work on new fuels is being
                                                                                                                                  affected flight corridor.
                                          of alternative jet fuel have been            conducted by the FAA’s William J.
                                                                                                                                 Two
                                                                                                                                nn     new NextGen optimized
                                          approved for commercial use under            Hughes Technical Center (Atlantic
                                                                                                                                  profile descent procedures were
                                          the Commercial Aviation Alternative          City, NJ), which is putting regular
                                                                                                                                  introduced at Ronald Reagan
                                          Fuels Initiative (CAAFI). ASTM               fuel in one engine of a Piper Navajo
                                                                                                                                  Washington National Airport on July
                                          International, formerly known as             and alternative fuel in the other
                                                                                                                                  26, 2012. These procedures provide
                                          the American Society for Testing             engine, to test which performs
                                                                                                                                  more predictable and shorter flight
                                          and Materials, a globally recognized         better and by how much.
                                                                                                                                  paths into the airport and reduce
                                          leader in the development and              nnIn April 2012, the Houston Center
                                                                                                                                  carbon emissions. They also save
                                          delivery of international voluntary          became the first Air Route
                                                                                                                                  1,000-1,500 pounds of fuel per
                                          consensus standards, announced               Traffic Control Center (ARTCC)
                                                                                                                                  procedure flown. The procedures
                                          approval of a 50 percent blend level         in the Nation to integrate ADS-B
                                                                                                                                  were named FRDMM (‘freedom’)
                                          of alternative jet fuel mixed with           technology (the satellite-based
                                                                                                                                  and TRUPS (‘troops’) to honor the
                                          petroleum jet fuel. The alternative          successor to radar) into En Route
                                                                                                                                  events of September 11, 2001.
                                          fuel is made from biomass, coal, or          Automation Modernization (ERAM),
                                          natural gas. In addition, a bio-derived,     NextGen’s modernized en route            A NextGen Technologies Interactive
                                          oil-based fuel known as HEFA fuel,           automation system.                       Map (www.faa.gov/nextgen/
                                          also used at a 50 percent blend level
                                                                                     nnInJune 2012, ERAM permanently            flashmap) shows where NextGen
                                          with petroleum jet fuel, has been
                                                                                       replaced the old airport computer        systems and procedures have already
                                          approved.
                                                                                       systems in Seattle and Salt Lake City,   been implemented.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                           13




                                                             SPREADING THE WORD ABOUT




                                                                                                                           MANAGEMENT’S DISCUSSION & ANALYSIS
                                                             NEXTGEN
                                                             In 2009, civil aviation constituted more than five percent
                                                             of the Nation’s gross domestic product and generated
                                                             more than 10 million jobs. NextGen is indispensable to
                                                             the aviation industry’s continued role as an engine of U.S.
                                                             economic growth. Key to advancing NextGen is explaining
                                                             and publicizing its benefits more widely.
                                                             nnIn March 2012, the FAA launched web-based NextGen
                                                               Performance Snapshots (Web-NPS), a reporting tool
                                                               that offers aviation stakeholders and FAA staff colorful
                                                               graphics and comparative charts demonstrating the
                                                               ongoing transformation of the NAS. The focus is
                                                               on locations (airports and metroplexes) where the
NEXTGEN ACHIEVEMENTS COMING SOON                               transformation can be most immediately appreciated.
                                                               The tool can be viewed at www.faa.gov/nextgen/
 An
nn    Automated Terminal Proximity Alert tool being rolled
                                                               snapshots.
  out at Minneapolis-St. Paul International Airport will
                                                              The
                                                             nn    FAA is working with airline executives to identify—
  help controllers keep track of spacing between aircraft
                                                               and track—the benefits of NextGen for commercial
  lined up for final approach.
                                                               aviation. The results will, in turn, be shared with the
nnFull
     ERAM deployment is planned for all 20 ARTCCs by
                                                               public.
  August 2014.
                                                              This
                                                             nn     fall the U.S. Travel Association will work with
 The
nn    deployment of initial ADS-B ground stations is
                                                               the FAA on a NextGen outreach initiative, placing
  scheduled for completion by early 2014.
                                                               videos and other materials publicizing the benefits of
 The
nn     United States and Mexico will expand ADS-B              NextGen on the tourism websites of five cities, as well
  coverage over the Gulf of Mexico by 2016, adding             as distributing materials to travel organizers planning
  ADS-B radio stations (in addition to 21 radio stations       meetings in those cities.
  already in the Gulf). The new stations will make
  possible a five nautical mile separation between
  aircraft, where 100 nautical miles had been required.
  The FAA estimates that the expansion will result in
  seamless surveillance of the Gulf area and bring nearly
  $70 million in fuel savings due to more efficient use
  of the airspace over the Gulf of Mexico and along the
  U.S.-Mexican border.
 As
nn    the standards for ADS-B mature, pilots will be
  able to see other aircraft 50-60 miles away, adding
  an even greater measure of safety, so that they too,
  like controllers, will be more fully aware of what is
  happening in the airspace around them.




                     FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
14




                                          THE YEAR IN HIGHLIGHTS

                                          The FAA Serves the Flying Public by Operating       The FAA Provides:
MANAGEMENT’S DISCUSSION & ANALYSIS




                                          a System that:
                                                                                               ;;
                                                                                                A workforce of more than 47,000
                                            ;;
                                             Operates 24 hours a day, 7 days a week, 365          professionals to operate and maintain the
                                               days a year.                                       most complex air traffic control system in the
                                                                                                  world.
                                            ;;
                                             Provides more than 65,000 facilities and
                                                                                               ;;
                                                                                                An array of services and programs within an
                                               pieces of equipment.
                                                                                                  annual budget of approximately $16.1 billion.

                                            ;;
                                             Maintains FAA-operated or -contracted             ;;
                                                                                                More than 15,000 controllers who manage
                                               towers at more than 500 airports.                  and ensure ever-increasing levels of safety in
                                                                                                  the busiest air traffic system in the world.
                                            ;;
                                             Inspects and certifies approximately 229,500
                                               aircraft and 617,000 pilots.                    ;;
                                                                                                More than 6,000 technicians who maintain
                                                                                                  the equipment in the NAS to extremely high
                                            ;;
                                             Facilitates almost 5,750 takeoffs and landings       levels of operability.
                                               per hour.
                                                                                               ;;
                                                                                                Research to improve aviation safety and
                                                                                                  efficiency.
                                            ;;
                                             Transports more than 735.5 million
                                               passengers annually.                            ;;
                                                                                                Grants to improve 3,333 eligible public-use
                                                                                                  airports in the United States.
                                            ;;
                                             Safely guides approximately 70,000 flights
                                               through the world’s preeminent aerospace        ;;
                                                                                                Protection of the public, property, and the
                                                                                                  national security and foreign policy interests
                                               system every day.
                                                                                                  of the United States during commercial
                                            ;;
                                             Generates more than 10 million jobs, with
                                               earnings of $394 billion.

                                            ;;
                                             Contributes $1.3 trillion annually to the
                                               national economy and constitutes 5.2 percent
                                               of the gross domestic product.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                15




MAJOR ACCOMPLISHMENTS
Our number one accomplishment in FY 2012 was operating         The application of PBN also facilitates en route cruising
the National Airspace System (NAS) in a way that allowed       at high altitudes (Q-routes) and at lower altitudes around




                                                                                                                                MANAGEMENT’S DISCUSSION & ANALYSIS
us to achieve one of the safest years in aviation history.     terminal areas (T-routes). These procedures could reduce
We have not had a commercial aviation fatality in more         delays during inclement weather.
than three and a half years. We safely guide about 70,000
flights through our national airspace on any given day, and    This year, the FAA produced 721 PBN routes and
we expect air travel to continue to increase over the next     procedures, meeting our FY 2012 goal. Of that total,
20 years. In addition, we also had major accomplishments       we published 20 Area Navigation (RNAV) routes and
in FY 2012 in the areas of NextGen, Safety Enhancement         118 RNAV arrival and departure procedures. We also
Measures, Commercial Space Travel, and Alternative Fuel        published 47 Required Navigation Performance (RNP)
Sources. News about these accomplishments follow the           approach procedures and 536 RNAV Global Positioning
discussion here of NextGen.                                    System approach procedures. Production of additional
                                                               RNP procedures will focus on those with the most
                                                               significant benefits.
NEXTGEN
The Next Generation Air Transportation System (NextGen)        Optimized Profile Descents (OPDs)
is the FAA’s plan to modernize the NAS through 2025.           During the past five years, we have completed fifty-five
                                                               Standard Terminal Arrival Routes (STAR) with Optimized
NextGen is beginning to deliver more on-time and fuel-
                                                               Profile Descent (OPD) capability. These OPDs allow
efficient flights and continue to ensure that we operate
                                                               aircraft to make managed descents at reduced engine
the safest air transportation system in the world. It is a
                                                               power, thus saving fuel. Traditional arrival procedures
better way of doing business—for the FAA, the airlines,
                                                               have multiple segments of level flight during descent
the airports, and, most important, the traveling public.
                                                               and each step-down requires a change in power settings,
These improvements are vital to increasing the 10 million
                                                               like walking down the stairs. It is the aviation equivalent
jobs that civil aviation contributes to the workforce and
                                                               of stop-and-go driving along the highway. The OPD
the $1.3 trillion that the sector overall contributes to the
                                                               procedures enable arrival aircraft to descend from cruise
U.S. economy.
                                                               altitude to final approach at or near idle power with few,
With NextGen, we are moving from radar-based to                if any, level-offs; it is metaphorically like sliding down the
satellite-based navigation, from radios to data messages,      bannister. Aircraft use less fuel and reduce emissions and
and from airways that zig-zag across the country to more       noise.
direct routes. New flight tracks will relieve bottlenecks,
improve safety and efficiency, and foster the flow of          Automatic Dependent Surveillance-
commerce. And it is not just in the United States; the         Broadcast (ADS-B)
whole world is gradually adopting NextGen technology
                                                               ADS-B is one of the most important underlying
and procedures.
                                                               technologies in the FAA’s plan to transform air traffic
                                                               control from the current radar-based system to a satellite-
Performance-Based Navigation (PBN)                             based system. ADS-B brings the precision and reliability
In order to achieve NextGen goals, the FAA is                  of satellite-based surveillance to the Nation’s skies. It
implementing an array of new technologies and                  gives pilots greater awareness of the location of other
processes collectively called Performance-Based                aircraft, which is especially valuable on long flights, such
Navigation (PBN). New PBN routes and procedures                as those over the Pacific Ocean, where there is no radar.
leverage emerging technologies and aircraft navigation         That means that pilots have more time to change altitude
capabilities to help reduce fuel use, miles flown,             to avoid collision, as well as turbulence. Also, they can
emissions, and the noise produced while aircraft change        ask to change to an altitude at which their jet engines will
altitude during the arrival and departure phases of flight.    burn fuel more efficiently.




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
16



                                      ADS-B uses GPS signals, along with aircraft avionics           extensively as a weather offload route during Severe
                                      (electronics designed for use in aerospace vehicles),          Weather Avoidance Plan (SWAP) operations.
                                      to transmit the aircraft’s location to ground receivers.
                                      The ground receivers then transmit that information to         The addition of ADS-B surveillance will allow deviations
                                      controller screens and cockpit displays on aircraft equipped   east around weather impacting specific routes that are
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      with ADS-B avionics. This technology allows pilots to          normally closed to aircraft when long-range radars are not
                                      see what controllers see: other aircraft in the sky around     in service. This would provide surveillance redundancy
                                      them. Pilots are also able to see—and avoid—bad weather        and continuity of operations along the route for rule-
                                      and dangerous terrain, and receive flight information,         compliant ADS-B equipped aircraft in the event of loss
                                      such as temporary flight restrictions. The improvement in      of radar. In addition, airlines can use this route to avoid
                                      situational awareness for pilots greatly increases safety.     departure delays for flights scheduled along the East
                                                                                                     Coast mainland routes.
                                      The improved accuracy and reliability of satellite signals
                                      over radar means that controllers will be able to safely       Working under an agreement with the FAA, JetBlue is
                                      reduce the mandatory separation between aircraft. This will    preparing to equip up to 35 aircraft with ADS-B avionics,
                                      increase capacity in the Nation’s skies.                       enabling the planes to fly in the relatively uncongested
                                                                                                     highways in the skies off the East Coast that are beyond
                                      ADS-B also provides greater coverage, since ADS-B ground       the range of radar.
                                      stations are much easier to put in place than radar. Remote
                                      areas without radar coverage, such as the Gulf of Mexico       For airplanes equipped with NextGen ADS-B avionics,
                                      and parts of Alaska, are now covered by ADS-B.                 access to the East Coast offshore routes will mean more
                                                                                                     precise, satellite-based flights from Boston and New York to
                                      ADS-B will reduce the risk of runway incursions. Pilots        Florida and the Caribbean. The advanced technologies and
                                      and controllers will be able to see the precise location of    procedures will be demonstrated in the East Coast offshore
                                      aircraft and properly equipped ground vehicles moving on       routes as a prelude to nationwide implementation.
                                      the ground—even at night or during heavy rainfall.

                                      The year 2012 was a busy one for our continued
                                                                                                     Houston Metroplex
                                      deployment of the ADS-B ground-based infrastructure.           A metroplex is a major metropolitan area with multiple
                                      More than 400 ground stations were operational by              airports, where heavy air traffic and environmental
                                      the end of 2012, providing satellite-based surveillance        constraints combine to hinder efficient movement. In
                                      coverage of the East, West, and Gulf coasts and most of        January of this year, the Houston Metroplex initiative was
                                      the area near the U.S. border with Canada. We expect the       launched. It is well into the design phase on a number
                                      total complement of approximately 700 radio stations to        of strategies to streamline airspace and help reduce
                                      be in place and operational by early 2014.                     complexity for air traffic controllers and flight crews.

                                                                                                     The strategies for the Houston Metroplex include:
                                      East Coast Routes Project                                      nnCreating  OPD procedures for arrival at George Bush
                                      The use of ADS-B East Coast off shore routes relieves            Intercontinental and William P. Hobby airports. OPDs
                                      congestion by enabling equipped flights to depart New            allow pilots to nearly idle their engines while the
                                      York City area airports en route to Florida and Caribbean        aircraft descends at a constant rate. Current airspace
                                      destinations during severe weather or high volume                procedures require planes to level off at certain points
                                      conditions.                                                      in a step-like descent pattern, necessary to allow for
                                                                                                       coordination between air traffic controllers. OPDs
                                      For example, Route M201, off the coast of Jacksonville,
                                                                                                       reduce fuel consumption and carbon emissions.
                                      Florida, is currently the only radar route from the East
                                                                                                     nnCreating  more efficient routes between Houston and
                                      Coast and New York airports to Miami and the Caribbean.
                                      It is used primarily as relief from delay-constrained routes     the Dallas/Fort Worth Metroplex areas, thus shaving
                                      along the eastern seaboard between the northeastern              miles off each flight through this busy corridor.
                                      United States and southern Florida. It is also used




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                   17



nnDeveloping efficient alternative routes that can be used          The Houston Metroplex was selected by the Obama
  when bad weather unexpectedly affects normal arrival              Administration as one of 14 high-priority infrastructure
  and departure paths.                                              projects that are ideal for expedited completion. Rather
nnEstablishing departure and arrival routes that align              than taking three years to complete, this project will
  airplanes on preferred paths, which will also reduce the          be completed in two years, through environmental




                                                                                                                                   MANAGEMENT’S DISCUSSION & ANALYSIS
  number of miles flown.                                            streamlining and concurrent reviews.

nnUtilizing side-by-side arrival routes into George Bush            The FAA estimates that as a result of the Houston
  Intercontinental Houston Airport, resulting in more               Metroplex airspace initiative, airplanes that use the
  efficient use of airspace and more direct routing.                airports will fly 648,000 fewer nautical miles annually.
nnDeveloping   satellite-based departure procedures that            This and other NextGen procedures will save up to three
  will allow planes to climb without leveling off, which            million gallons of fuel and reduce carbon emissions by as
  will bring them to a cruising altitude sooner.                    much as 31,000 metric tons each year.




   THE FAA GOES PAPERLESS IN THE CLASSROOM AND THE COCKPIT
   The Mike Monroney Aeronautical              that they must bring with them into      their demonstration that the device
   Center (Oklahoma City, OK) has              the cockpit. This does not apply to      and its software applications are safe
   begun to use tablet computers in its        passengers.                              and effective for the proposed use
   classrooms. The contemporary idea                                                    and that they have developed specific
                                               Forty pounds of paper—including the
   of going paperless in the classroom                                                  procedures for dealing with system
                                               aircraft’s operating manual, safety
   was suggested by an FAA employee.                                                    or software crashes and other issues.
                                               checklists, logbooks for entering
   Used in new En Route Automation                                                      FAA guidance instructs air carriers and
                                               airplane performance data, navigation
   Modernization (ERAM) training for air                                                pilots that using tablets for activities
                                               charts, weather information, and
   traffic controllers headed for high-                                                 not related to flight duties is a safety
                                               airport diagrams—can now be
   density facilities or into the field, the                                            risk, and regulations prohibit such
                                               replaced by a tablet. For pilots, it’s
   tablets have resulted in formidable                                                  distractions.
                                               about safety as much as convenience.
   savings on printed training manuals.
                                               It’s sometimes faster to find            Tablets save money too. Applications
   This delicate blending of new               information on a computer when a         are usually free, with subscriptions to
   technology and the traditional hands-       critical decision must be made.          the data costing $75 to $100 a year.
   on approach to flight is also evident in                                             By contrast, subscriptions to paper
                                               The FAA regulates airlines’ use of
   the FAA’s approval of tablet computers                                               maps and charts cost nearly $1,500
                                               such devices. Permission to use tablet
   to make more accessible to pilots                                                    a year.
                                               computers for various functions is
   the massive amounts of information
                                               given to carriers one by one, based on




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
18



                                      OTHER MAJOR ACCOMPLISHMENTS

                                      Final Rule On Pilot Fatigue
                                      In FY 2012, the FAA issued a sweeping final rule that
                                      overhauls commercial passenger airline pilot scheduling
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      to ensure that pilots have a longer opportunity for rest
                                      before they enter the cockpit. The DOT identified the
                                      issue of pilot fatigue as a top priority during a 2009 airline
                                      safety Call to Action, following the crash of Colgan Air
                                      flight 3407. The FAA launched an aggressive effort to take
                                      advantage of the latest research on fatigue to create a
                                      new pilot flight, duty, and rest proposal, which the agency
                                      issued in FY 2011.

                                      Key components of this final rule for commercial
                                      passenger flights include:                                         flight—to 8 or 9 hours, depending on the start time of
                                       nnVarying   flight and duty requirements based on                 the pilot’s entire flight duty period.
                                         what time the pilot’s day begins. The new rule                nnMinimum     10-hour rest period. The rule sets a
                                         incorporates the latest fatigue science to set different        minimum 10-hour rest period prior to the flight duty
                                         requirements for pilot flight time, duty period, and rest,      period, an increase of two hours over the old rules.
                                         based on the time of day pilots begin their first flight,       The new rule also mandates that a pilot must have an
                                         the number of flight segments in their schedule, and            opportunity for 8 hours of uninterrupted sleep within
                                         the number of time zones they cross. The previous               the 10-hour rest period.
                                         rules included different rest requirements for domestic,      nnCumulative     flight duty and flight time limits. The
                                         international, and unscheduled flights, whereas the             new rule addresses potential cumulative fatigue by
                                         current rule is uniform in that respect.                        placing weekly and 28-day limits on the amount of
                                       nnFlight  duty period. The allowable length of a flight           time a pilot may be assigned any type of flight duty.
                                         duty period depends on when the pilot’s day begins              The rule also places 28-day and annual limits on actual
                                         and the number of flight segments he or she is                  flight time. It also requires that pilots have at least 30
                                         expected to fly. It ranges from 9 to 14 hours for single        consecutive hours free from duty on a weekly basis, a
                                         crew operations. The duty period begins when a flight           25 percent increase over the old rules.
                                         crew member is required to report for duty, with the          nnFitness   for duty. The FAA expects pilots and airlines
                                         intention of conducting a flight, and ends when the             to take joint responsibility when considering whether
                                         aircraft is parked after the last flight. It includes the       a pilot is fit for duty. Consideration takes into account
                                         period of time before a flight or between flights that          fatigue resulting from pre-duty activities, such as
                                         a pilot is working without an intervening rest period.          commuting. At the beginning of each flight segment, a
                                         Flight duty also includes “deadhead” transportation             pilot is required to affirmatively state his or her fitness
                                         time (the time that it takes pilots to be transported           for duty. If a pilot reports that he or she is fatigued and
                                         free of charge, but not working, to the location where          unfit for duty, the airline must remove that pilot from
                                         their actual flight duties begin), the time spent by pilots     duty immediately.
                                         training in an aircraft or flight simulator, and the time
                                                                                                       nnFatigue Risk Management System. An airline may
                                         spent on airport standby or reserve duty—if these
                                                                                                         develop an alternative way of mitigating fatigue, based
                                         tasks occur before a flight, or between flights without
                                                                                                         on science and using data that must be validated by
                                         an intervening rest period.
                                                                                                         the FAA and continuously monitored.
                                       nnFlight   time limits of 8 or 9 hours. The FAA limits
                                         flight time—defined as the time when the plane is
                                         moving under its own power before, during, or after




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                           19



Commercial Space Transportation                                                           missions to the space station. Commercial providers of
Agreement with NASA                                                                       space transportation will be required to obtain a license
This year, the FAA and NASA signed a historic agreement                                   from the FAA for public safety. Crew safety and mission
to coordinate standards for commercial space travel of                                    assurance will be NASA’s responsibility. This approach
Government and non-Government astronauts to and from                                      allows both agencies to incorporate experience and




                                                                                                                                                           MANAGEMENT’S DISCUSSION & ANALYSIS
low-Earth orbit and the International Space Station (ISS).                                lessons learned as progress is made.
The two agencies will collaborate to expand efforts that
                                                                                          NASA’s Commercial Crew Program aims to facilitate
provide a stable framework for the U.S. space industry,
                                                                                          development of a U.S. commercial crew space
eliminate conflicting requirements and multiple sets of
                                                                                          transportation capability with the goal of achieving safe,
standards, and advance both public and crew safety.
                                                                                          reliable, and cost-effective access to and from low-Earth
The Memorandum of Understanding (MOU) signed                                              orbit and the ISS. The policy established in the MOU
by the two agencies establishes policy for operational                                    clarifies for potential commercial providers the regulatory
                                                                                          environment for operational missions to the orbiting



                        NEWS FROM COMMERCIAL SPACE
                        Commercial Space Transportation             the FAA’s Office of Commercial Space       On the Horizon
                        Payload                                                                                Also on the commercial space horizon
                                                                    Transportation (AST).
                        In May 2012, the Dragon capsule,                                                       are suborbital reusable vehicles (SRVs),
                        built by SpaceX (Space Exploration          To meet NASA’s human transportation        rockets designed to travel into space
                        Technologies), successfully flew a          requirements, NASA is funding three        without achieving orbit. The FAA will
                        “demonstration” mission showing that        companies’ development of vehicles         license, regulate, and inspect these
                        it had the capacity to deliver critical     designed to provide astronaut flights      vehicles. Initial operations may begin
                        supplies to the International Space         to the ISS. This capability may emerge     as early as 2013 or 2014, and market
                        Station (ISS) and return safely to earth.   by 2017, if not sooner. Until then, NASA   research suggests that potential
                        Having completed this milestone,            will pay the Russian space program to      customers may be willing to spend
                        Dragon will add a new dimension to          provide this service, at a cost of more    from $300 million to more than $1.6
                        commercial space flight this October by     than $60 million per person per trip,      billion for SRV flight services, over
                        making the first of what will be several    approximately twice a year.                an initial 10-year period of industry
                        unmanned cargo flights to the ISS.                                                     operations. Future markets for SRVs
                                                                    For U.S. commercial transportation
                        One of the most significant impacts         providers, NASA will initially be          may include not only commercial
                        of the Space Shuttle retirement             the primary customer, but non-             human space flight but also such
                        last year was the temporary loss            NASA customers may also emerge,            activities as aerospace technology
                        of American capability to transport         increasing market size and leading         testing, basic and applied research,
                        astronauts and cargo to and from the        to cost reduction. As commercial           satellite deployment, media and public
                        ISS. Dragon flights will address the        providers make Earth-to-orbit              relations, and educational opportunities.
                        cargo aspect of U.S. transportation         transportation more affordable, NASA
                        needs. These missions are regulated,        will have more resources available for
                        inspected for safety, and licensed by       missions deeper into space.
SpaceX Dragon Capsule




                                       FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
20



                                      laboratory. It also ensures that the two agencies will have            In addition, the agreement addresses proper protocols
                                      compatible processes for ensuring public safety.                       for implementation, financial obligations, liability,
                                                                                                             free exchange of data and information, and other
                                      The FAA is responsible for regulating and licensing                    administrative obligations between the FAA and NASA.
                                      all U.S. private companies and individuals involved in                 To view the agreement, visit http://www.faa.gov/about/
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      commercial space transportation. To date, AST has                      office_org/headquarters_offices/ast/media/NASA-
                                      licensed 208 successful launches, including two non-                   FAA_MOU-signed.pdf.
                                      orbital commercial human space flights in 2004 and the
                                      recent first launch to the ISS and back by an unmanned                 You can read more about AST on the FAA website
                                      commercial spacecraft.                                                 at http://www.faa.gov/about/office_org/
                                                                                                             headquarters_offices/ast/.



                                         AVIATION FIRE SAFETY
                                         The William J. Hughes Technical Center       on lithium battery transport and issued     territories) to provide aviation services
                                         in Atlantic City, NJ, the FAA’s national     a Multiple Operator Message. In             and related technical assistance.
                                         scientific test base, is the world           February 2012, the United Nation’s
                                                                                                                                  The partnership was established to
                                         leader in civil aircraft fire research and   International Civil Aviation Organization
                                                                                                                                  ensure that Pacific region aircraft
                                         testing. This includes both in-flight        (ICAO) proposed standards requiring
                                                                                                                                  rescue firefighters are properly
                                         fire prevention and post-crash fire          packages containing more than eight
                                                                                                                                  trained in live fire safety techniques
                                         survivability. The FAA has set a number      lithium cells to be declared hazardous
                                                                                                                                  and emergency situations. These
                                         of fire standards that are followed by       material. If approved, the standards
                                                                                                                                  workshops are especially vital in
                                         the entire aviation industry, including:     will go into effect on January 1, 2013.
                                                                                                                                  an area as widely dispersed as
                                          nnSeat cushion fire-blocking layers         The FAA’s Western-Pacific Region            Micronesia, where help is far away.
                                          nnLow-heat and smoke-release                Provides Firefighter Training in            In September 2012, a full-scale
                                            interiors                                 Micronesia                                  emergency exercise was conducted
                                                                                      The FAA partners with the Pacific           that included more than 300
                                          nnHeat-resistant evacuation slides
                                                                                      Region Aircraft Rescue Firefighter          participants.
                                          nnMore stringent cargo compartment          Training Center (PRATC) in Saipan (the
                                            fire protection requirements              Northern Mariana Islands) and United        The FAA will continue to work with
                                                                                      Airlines to provide critical firefighter    Micronesia’s officials to plan and
                                         Lithium Cargo Fires
                                                                                      workshops to Micronesia. Micronesia         create future opportunities to develop
                                         The shipment of lithium batteries
                                                                                      is an area of the western Pacific           firefighters to their full potential.
                                         in passenger and freight aircraft is
                                         thought to pose an extremely serious         Ocean, north of Australia, that consists
                                         threat of cargo compartment fires. In        of thousands of small
                                         two recent fatal freighter fires, a large    islands, including
                                         number of lithium batteries were in the      the Federated States
                                         cargo hold. These batteries, which can       of Micronesia, and
                                         spontaneously combust, are used in           the Republics of
                                         mobile phones, hearing aids, tablets,        Palau and Marshall
                                         and laptop computers.                        Islands. The FAA is
                                                                                      involved because the
                                         The Tech Center’s Fire Safety Branch         United States has a
                                         has conducted numerous tests on              compact with the three
                                         lithium batteries. Boeing agreed with        international countries
                                         FAA warnings and recommendations             (formerly trust


                                                                                                                  The Pacific Aircraft Rescue Firefighter Training Center
                                                                                                                  in Saipan, Commonwealth of the Northern Marianas,
                                                                                                                  conducts FAA-sponsored training at the simulator for airport
                                                                                                                  firefighters from Micronesia.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                  21



The FAA’s Aerospace Forecast for Fiscal Years 2012-2032         for reducing the risk of damage to aircraft in the event
is also on the website at http://www.faa.gov/about/             the aircraft undershoots, overshoots, or veers off the
office_org/headquarters_offices/apl/aviation_forecasts/         runway. People and structures are not permitted in the
aerospace_forecasts/2012-2032/.                                 RSA. Today, a standard RSA can be as large as 500 feet
                                                                wide, extending 1,000 feet beyond each runway end.




                                                                                                                                  MANAGEMENT’S DISCUSSION & ANALYSIS
                                                                The FAA increased these dimensions more than 20
Laser Pointers Website and Investigations
                                                                years ago to accommodate larger and faster aircraft and
Pointing a laser in the direction of an aircraft is dangerous
                                                                to address higher safety expectations of aviation users.
for both pilots and passengers. In many cases, pilots
                                                                Many runways do not meet current standards because
have reported temporary blindness or had to take evasive
                                                                they were designed and constructed to meet an earlier
measures to avoid the intense laser light. In a continuing
                                                                standard.
effort to combat this growing problem, this fiscal year we
created a new website to make it easier for pilots and the      In 2005, we prepared a long-term plan to improve runway
public to report laser incidents and obtain information on      safety areas for commercial runways by 2015. This RSA
the subject.                                                    plan allows us to track the progress of improvements
                                                                and direct Federal funds toward making all feasible
The website http://www.faa.gov/go/laserinfo includes
                                                                improvements. In FY 2012, we continued with these
links for reporting laser incidents and accessing laser
                                                                improvements. Of the approximately 1,000 RSAs at these
statistics, FAA press releases, and agency research on
                                                                airports, an estimated 65 percent have been improved
the dangers that lasers can pose to pilots, as well as
                                                                to full standards, and an estimated 90 percent have
downloadable videos.
                                                                been improved to the extent possible (not including the
In addition, the FAA directed its investigators and staff       relocation of FAA-owned navigational equipment).
to pursue stiffer penalties for individuals who purposely
point laser devices at aircraft.                                Alternative Fuel Sources
                                                                This fiscal year, we awarded contracts to eight companies
The number of reported laser incidents nationwide
                                                                to develop alternative, environmentally-friendly, sustainable
rose from 2,836 in 2010 to 3,592 in 2011. Laser incident
                                                                sources for commercial jet fuel. The contracts address
reports have increased steadily since we created a formal
                                                                a recommendation issued by the Future of Aviation
reporting system in 2005 to collect information from pilots.
                                                                Advisory Committee, commissioned by the Secretary
The FAA supports the U.S. Department of Justice in              of Transportation last year. Comprised of experts from
its efforts to seek stern punishment for anyone who             industry, academia, labor and Government, the committee
intentionally points a laser device into the cockpit of an      specifically recommended that the DOT exercise strong
aircraft. Our agency has initiated enforcement action           national leadership in promoting and displaying U.S.
against 28 people since May 2011, and in June of 2012           aviation as a first user of sustainable alternative fuels.
we directed FAA investigators and attorneys to pursue
                                                                Accordingly, the eight companies selected for the
the stiffest possible sanctions for deliberate violations.
                                                                contracts will help the FAA develop and approve
The FAA has also opened investigations in dozens of
                                                                alternative, sustainably-sourced, “drop-in” jet fuels that
additional cases and since February 2012 has maintained
                                                                can be used without changing aircraft engine systems
an average of 44 active cases per month.
                                                                or airport fueling infrastructure. As part of that work, the
The maximum penalty for one laser strike is $11,000.            companies will develop these biofuels from sources such
We have proposed civil penalties against individuals for        as alcohols, sugars, biomass, and organic materials known
multiple laser incidents, with $30,800 being the highest        as pyrolysis oils. In addition, the contracts call for research
penalty proposed to date.                                       into alternative jet fuel quality control, examination of how
                                                                jet biofuels affect engine durability, and guidance to jet
                                                                biofuel users about factors that affect sustainability.
Runway Safety Areas
A Runway Safety Area (RSA) is a defined surface
surrounding the runway that is prepared or suitable




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
22




                                         U.S. AVIATION GREENHOUSE GAS EMISSIONS REDUCTION PLAN
                                         In June 2012, the United States             To achieve these goals, the Action           facilitating the development and
                                         submitted its Aviation Greenhouse           Plan identifies U.S. plans and efforts       deployment of sustainable alterna-
MANAGEMENT’S DISCUSSION & ANALYSIS




                                         Gas Emissions Reduction Plan (Action        in the following areas: aircraft and         tive aviation fuels. Future efforts
                                         Plan) to the International Civil Aviation   engine technology improvements;              are aimed at identifying new
                                         Organization (ICAO). The FAA led a          operational improvements;                    alternative fuels pathways as well
                                         multiagency effort to prepare and           development of aviation alternative          as commercialization of fuels with
                                         submit the Action Plan, fulfilling          fuels; policies, standards                   up to 80 percent lower lifecycle
                                         a voluntary commitment by ICAO              and measures; and scientific                 greenhouse gas emissions.
                                         member States to submit plans to            understanding and modeling/analysis.       nnVarious policies, standards, and
                                         ICAO regarding action to address                                                         measures are being pursued or
                                                                                      nnAircraft and engine technology
                                         climate change and reduce greenhouse                                                     considered that will supplement,
                                                                                        improvements are being developed
                                         gas emissions from aviation.                                                             and in some cases support, efforts
                                                                                        across various agencies with
                                         The United States is committed                 complementary commercialization           on technology, operations and
                                         to addressing the climate change               targets and timeframes. The               fuels in order to achieve the carbon
                                         impacts of commercial aviation and             FAA’s Continuous Lower Energy,            neutral growth goal.
                                         is pursuing a multi-pronged approach           Emissions and Noise (CLEEN)             nnOngoing scientific understanding
                                         to achieve greenhouse gas emissions            Program is one of these efforts—          and modeling/analysis continue
                                         reductions. The Action Plan identifies         CLEEN provides a 50 percent cost          to help the U.S. Government
                                         the plans, programs and initiatives            share with industry to bring new          better understand and quantify
                                         in place across the U.S. Government            technologies to market over the           the impacts of aviation on climate,
                                         to achieve meaningful emissions                course of the next several years.         including the interdependencies
                                         reductions from aviation.                    nnOperational improvements are              and tradeoffs with other
                                                                                        largely being implemented via             environmental impacts. Taken
                                         U.S. Approach
                                                                                        the FAA’s overhaul of the National        together, these complementary
                                         The FAA submitted the Action Plan
                                                                                        Airspace System through the Next-         efforts will allow the U.S.
                                         to ICAO in June 2012 and the plan
                                                                                        Gen program to improve efficiency         Government to meet both its
                                         reflects efforts to reduce greenhouse
                                                                                        and reduce aircraft fuel burn.            domestic targets and continue
                                         gas emissions across a number
                                                                                                                                  to demonstrate leadership in
                                         of agencies and in collaboration             nnAlternative fuels development and
                                                                                                                                  addressing the climate change
                                         with key stakeholders. The United              deployment have seen significant
                                                                                                                                  impacts of commercial aviation at
                                         States has an overarching goal of              steps forward during the last five
                                                                                                                                  the international level.
                                         achieving carbon-neutral growth for            years, with the U.S. Government
                                         U.S. commercial aviation by 2020,
                                         using 2005 emissions as a baseline,
                                         which is more ambitious than the
                                         global aspirational goal of two
                                         percent improvement in annual fuel
                                         efficiency agreed at ICAO in 2010. The
                                         United States is also committed to a
                                         domestic target to use 1 billion gallons
                                         of alternative fuels annually by 2018.




                                                                                       Close-up view of Boeing’s Adaptive Trailing Edge (ATE) technology developed under
                                                                                       the FAA’s Continuous Lower Energy, Emissions and Noise (CLEEN) program. (Image
                                                                                       courtesy of Boeing.)




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                 23




PERFORMANCE HIGHLIGHTS
Although we take pride in our accomplishments to date            a program or activity stands presently, where it is going
on various fronts, we remain vigilant in scrutinizing our        (i.e., reasonable expectations for progress), and what else




                                                                                                                                 MANAGEMENT’S DISCUSSION & ANALYSIS
performance.                                                     (i.e., alternative approaches) the FAA could implement to
                                                                 achieve its stated objectives. One of the basic objectives
At the FAA, we are charged with promoting the safety and         of the formulation process is to ensure that decision
efficiency of the Nation’s aviation system. We maintain          makers have the information they need to decide how to
the system’s integrity and reliability through our broad         best allocate resources to meet needs and achieve goals.
authority to enforce safety regulations and conduct
oversight of the civil aviation industry. Our strategic plans,   Our complete FY 2012 Congressional Justification and
annual business plans, human capital plans, program              Budget in Brief are available at www.faa.gov/about/
evaluations, annual PARs, and our constant reevaluation          budget. Destination 2025 and FY 2012 business plans for
of our efforts create a recurring cycle of planning, program     all FAA organizations are available at http://www.faa.gov/
execution, measurement, verification, and reporting.             about/plans_reports/.
We have created a strong link between resources and
performance that focuses us on accomplishing defined
                                                                 Monitor Work
priorities in the context of their costs.
                                                                 This third step occurs during the various performance
                                                                 management activities in which our executives
MANAGING PERFORMANCE                                             and employees participate each month. In FY 2011,
We manage organizational performance through a four-             we formed the Strategy, Budget and Performance
step process that is based on best practices borrowed            Committee. The Performance Subcommittee from
from several private and public sector organizations.            this group meets monthly to review goals and related
nnSet   Goals                                                    performance targets so as to identify areas needing
                                                                 management’s attention. These sessions also result in
nnPlan, Work,   and Budget
                                                                 decisions about resource allocation to support priorities.
nnMonitor Work
                                                                 Managers and employees review monthly status reports
nnAssess   Results                                               at the initiative and activity levels and make adjustments
                                                                 as needed.
Each year we improve on this strategy through changes
and technology enhancements that support the process.
                                                                 Assess Results
                                                                 This is the last, but also a critically important step in the
Set Goals
                                                                 performance management process. Using performance
The first step in the performance management process
                                                                 information, the agency looks for ways to learn from past
includes consulting with management, employees, and
                                                                 performance and improve outcomes.
stakeholders to identify areas for improvement. These
areas include near-term priorities and long-standing             Performance measures and targets support our
management challenges. Goals, performance measures,              mission to provide the American public with a safe and
targets, and initiatives are laid out in our new strategic       efficient global aviation system. The table on page 25
plan, Destination 2025.                                          summarizes how well we are doing year-to-year in
                                                                 achieving our performance goals. As the table indicates,
Plan, Work, and Budget                                           we have expanded our strategic focus over the past
                                                                 seven years. As our strategic management processes
The second step in overseeing our performance focuses
                                                                 continue to mature and the focus becomes sharper, the
on the critical activities and resources required to
                                                                 number and mix of performance targets will shift. This
achieve our goals. Budget formulation involves a series
                                                                 plan is reviewed on a yearly basis to ensure that we are
of activities that the FAA conducts to determine: where
                                                                 on track to meet future challenges.




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
24



                                      PERFORMANCE GOALS
                                      In our first annual PAR in FY 2002, we listed 10
                                      performance goals in the strategic areas of safety,
                                      system efficiency, and organizational excellence. From
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      2003 through 2011, we published several strategic plans,
                                      formerly known as Flight Plans. Beginning in FY 2012, we
                                      developed a new strategic plan, Destination 2025. Like all
                                      of our former Flight Plans, it provides the framework to
                                      match resources with initiatives for long-term change.

                                      As we moved from our Flight Plans to Destination 2025,
                                      we restructured our strategic goals and the performance        have the FY 2012 results for the two workplace of choice
                                      measures supporting these goals. For FY 2012, we are           performance measures until early FY 2013. For a more
                                      reporting on 14 performance measures in the PAR rather         detailed discussion of all workplace measures and
                                      than the 29 measures we tracked in FY 2011. However,           performance results for FY 2012, as well as next steps,
                                      we continue to track 16 additional measures internally.        see page 50.
                                      We report the status on all measures in our monthly
                                      performance meetings and in our monthly performance            Delivering Aviation Access through Innovation. Our
                                      scorecards reviewed by the FAA Administrator.                  goal is to enhance the experience of the traveling public
                                                                                                     and other users by providing improved access to and
                                                                                                     increased capacity of the Nation’s aviation system. We
                                      Strategic Goals
                                                                                                     will ensure that airport and airspace capacity are matched
                                      Our Destination 2025 strategic goals are                       to public needs and are more efficient, predictable, and
                                       nnNext   Level of Safety                                      cost-effective.
                                       nnWorkplace     of Choice
                                                                                                     Improved access and increased capacity are the
                                       nnDelivering   Aviation Access through Innovation             backbone of air travel. In FY 2012, we met three of
                                       nnSustaining   Our Future                                     three aviation access measures. For a more complete
                                       nnImproved     Global Performance through Collaboration       discussion of these measures and performance results
                                                                                                     for FY 2012, as well as next steps, see page 53.
                                      Next Level of Safety. Achieving the lowest possible
                                      accident rate and always striving to improve safety            Sustaining Our Future. Our goal is to develop
                                      ensures the highest possible level of safety for our public.   and operate an aviation system that is a model of
                                                                                                     sustainability: reducing aviation’s environmental and
                                      In FY 2012, we met five of six safety goals, missing our       energy impacts, yet not constraining growth. In FY 2012,
                                      target for General Aviation Fatal Accident Rate. For a         we met two of our two environmental goals. For a
                                      more complete discussion of all safety measures and            complete discussion of all sustainability measures and
                                      performance results for FY 2012, as well as next steps,        performance results for FY 2012, as well as next steps,
                                      see page 42.                                                   see page 57.

                                      Workplace of Choice. We aim to create a workplace              Improved Global Performance through Collaboration.
                                      of choice marked by integrity, fairness, diversity,            Our goal is to achieve enhanced safety, efficiency, and
                                      accountability, safety, and innovation. Our workforce will     sustainability of aviation worldwide. We aim to provide
                                      have the skills, abilities, and support systems needed to      leadership in collaborative standard setting and help with
                                      achieve and sustain NextGen.                                   the creation of a seamless global aviation system. In
                                                                                                     FY 2012, we met our one global performance goal. For a
                                      We operate the largest and safest aerospace system
                                                                                                     complete discussion of this global performance measure
                                      in the world. To do this efficiently, we must continually
                                                                                                     and performance result for FY 2012, as well as next
                                      provide stronger leadership, a better-trained and safer
                                                                                                     steps, see page 61.
                                      workforce, and improved decisionmaking. We will not




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                 25



PERFORMANCE AT A GLANCE
The following tables summarize our performance on all 14 of our FY 2012 Destination 2025 performance measures. The
measures are listed by the strategic goal and objectives in our strategic plan. The Performance Results section, beginning on
page 40, contains full discussions of the FAA’s FY 2012 performance and results for each of these measures.




                                                                                                                                 MANAGEMENT’S DISCUSSION & ANALYSIS
 YEAR TO YEAR PERFORMANCE GOALS ACHIEVED
                                                    FY 2006    FY 2007    FY 2008    FY 2009    FY 2010     FY 2011    FY 2012

 Number of Performance Targets Met                  27 of 30   24 of 30   26 of 29   28 of 31   28 of 31   27 of 29   11 of 14

 Percentage of Performance Targets Met                90%        80%        90%        90%        90%        93%        92%

The results of 2 of 14 FY 2012 targets are not yet available as of the date of publication. Therefore, only targets with
known results are reported herewith. The percentage is computed based on only the 12 targets for which results
are available at this date. To view the full array of performance data please visit: http://www.dot.gov/budget/
dot-budget-and-performance. For archived performance information visit: http://www.dot.gov/mission/budget/
dot-annual-budget-and-performance-archive.


  THE FAA TAKES FLIGHT WITH DESTINATION 2025
  Destination 2025 envisions the             nnNextGen capabilities are fully         challenging place to work.”
  ideal future that the FAA strives            implemented and utilized, based
                                                                                      Another major challenge mentioned
  toward—a transformation of the               on U.S. aviation needs.
                                                                                      in the document is working with
  Nation’s aviation system in which air      nnThe United States works                domestic and international partners to
  traffic will move even more safely,          internationally to improve             encourage “open reporting of safety
  swiftly, efficiently, and seamlessly         and harmonize global aviation          concerns” in order to address hazards
  around the globe than it does now. It        performance through interoperable      before they become accidents.
  updates the prior agency blueprint,          standards, procedures, and
  the 2009-2013 Flight Plan. The new           technologies.                          As a result of fulfilling 2025 goals,
  document reflects NextGen goals                                                     it is predicted that “Costs will be
                                             nnEnvironmental sustainability is
  and benchmarks, since NextGen                                                       contained for both operators and
                                               advanced by accelerating NextGen
  is recognized as the future of the                                                  passengers.” The document provides
                                               innovations that reduce noise, fuel
  agency and the industry. (See                                                       metrics for 2018 as a midpoint for
                                               burn, and carbon emissions, even
  NextGen spread on pages 12–13)                                                      evaluating progress toward 2025.
                                               with continued growth in aviation.
  Highlighted goals from Destination                                                  Destination 2025 is the product of
                                            Destination 2025 sets the blueprint
  2025 include the following:                                                         extensive outreach to employees,
                                            for transforming not only the aviation
   nnNo accident-related fatalities occur                                             aviation stakeholders, and the
                                            system, but also the FAA itself. It
     on commercial service aircraft in                                                public, with more than 450 people
                                            acknowledges the need to streamline
     the United States.                                                               commenting through a Web-based
                                            operations by working in a more
   nnEmployees rate the FAA in the top                                                discussion tool.
                                            cross-organizational and cross-
     25 percent of places to work in the    functional manner and the challenge       www.faa.gov/about/plans_reports/
     Federal Government.                    of “providing an attractive and           media/Destination2025.pdf




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
26




                                       STRATEGIC GOAL:         NEXT LEVEL OF SAFETY
                                                                                                                                              FY 2012    FY 2012      FY 2012     FY 2013
                                       Performance Measure                                                                                     Target    Results      Status       Target

                                       STRATEGIC OBJECTIVE: NO ACCIDENT-RELATED FATALITIES OCCUR ON COMMERCIAL SERVICE AIRCRAFT
MANAGEMENT’S DISCUSSION & ANALYSIS




                                                                       IN THE U.S.
                                       Commercial Air Carrier Fatality Rate                                                                     7.6           0.01      ✓            7.4
                                        In FY 2012, the commercial air carrier fatality rate will not exceed 7.6 fatalities per 100 million
                                        people on board.
                                        Agency Priority Goal

                                       STRATEGIC OBJECTIVE: AVIATION RISK IS REDUCED THROUGH ALL PHASES OF FLIGHT (GATE-TO-GATE)
                                       Serious Runway Incursions Rate                                                                          0.395         0.3562     ✓          0.395
                                        Reduce Category A & B (most serious) runway incursions to a rate of no more than .395 per
                                        million operations.

                                       System Risk Event Rate                                                                                   20           8.952      ✓            20
                                        Limit the rate of the most serious losses of standard separation to 20 or fewer for every
                                        thousand (.02) losses of standard separation within the National Airspace System

                                       Information Security                                                                                      0             0        ✓                0
                                         Ensure no cyber security event significantly degrades or disables a mission-critical FAA system.

                                       STRATEGIC OBJECTIVE: THERE IS A REDUCTION IN THE GENERAL AVIATION FATAL ACCIDENT RATE
                                       General Aviation Fatal Accident Rate                                                                    1.07          1.103      ✘           1.06
                                        Reduce the general aviation fatal accident rate to no more than 1.07 fatal accidents per
                                        100,000 flight hours.
                                        Agency Priority Goal

                                       STRATEGIC OBJECTIVE: THERE ARE NO FATALITIES RESULTING FROM COMMERCIAL SPACE LAUNCHES
                                       Commercial Space Launch Accidents                                                                         0             0        ✓                0
                                        No fatalities, serious injuries, or significant property damage to the uninvolved public during
                                        licensed or permitted space launch and reentry activities.



                                       STRATEGIC GOAL:         WORKPLACE OF CHOICE
                                                                                                                                              FY 2012    FY 2012      FY 2012     FY 2013
                                       Performance Measure                                                                                     Target    Results      Status       Target

                                       STRATEGIC OBJECTIVE: THE FAA IS WIDELY RECOGNIZED AS AN EMPLOYER OF CHOICE
                                       FAA Ratings                                                                                             75%           TBD       TBD          75%
                                        75th percentile rank in the Best Places to Work (BPTW) Index for Federal Agencies
                                        Subcomponents.

                                       Outside Ratings                                                                                          90%          TBD       TBD          90%
                                        Achieve a 90 percent success rate in the areas of financial management and human resources            success                             success
                                        management.                                                                                             rate                                rate

                                        1 Preliminary estimate. Final result confirmed by NTSB March 2014.                                    ✓ Target met            ✘ Target not met
                                        2 Preliminary estimate. Final result available January 2013.
                                        3 Preliminary estimate. Final result available March 2014.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                          27




STRATEGIC GOAL:           DELIVERING AVIATION ACCESS THROUGH INNOVATION
                                                                                                              FY 2012    FY 2012    FY 2012     FY 2013
Performance Measure                                                                                           Target     Results    Status      Target

STRATEGIC OBJECTIVE: NEXTGEN CAPABILITIES ARE FULLY IMPLEMENTED AND UTILIZED BASED ON U.S.




                                                                                                                                                          MANAGEMENT’S DISCUSSION & ANALYSIS
                                    AVIATION COMMUNITY SYSTEM NEEDS
Air traffic control systems can improve the efficiency of airspace.                                              7            7       ✓            11
 By September 30, 2013, replace a 40-year old computer system serving 20 air traffic control
 centers with a modern, automated system that tracks and displays information on high altitude
 planes.
 Agency Priority Goal
 Systems were replaced in two centers in 2011.

Major Systems Investments                                                                                      90%           100%     ✓           90%
 In FY 2012, maintain 90 percent of major system investments within 10 percent variance of
 current acquisition program baseline (APB) total budget at completion.4

STRATEGIC OBJECTIVE: THE GENERAL AVIATION AIRPORT SYSTEM SUPPORTS THE FULL RANGE OF FUNCTIONS
                                    FOR REMOTE POPULATIONS AND EMERGENCY RESPONSE CAPABILITIES
LPV Procedures                                                                                                  500          536      ✓           500
 Publish 500 LPV or LP procedures in FY 2012 to ensure Localizer Performance (LP) or Localizer
 Performance w/Vertical (LPV) procedures are available at 5,218 runways in the NAS.



STRATEGIC GOAL:           SUSTAINING OUR FUTURE
                                                                                                              FY 2012    FY 2012    FY 2012     FY 2013
Performance Measure                                                                                            Target    Results    Status       Target

STRATEGIC OBJECTIVE: COMMUNITY NOISE CONCERNS ARE NOT A SIGNIFICANT CONSTRAINT ON GROWTH
Noise Exposure                                                                                                386,000    319,9015     ✓         371,000
 Reduce the number of people exposed to significant aircraft noise to less than 386,000 in
 calendar year 2012.

STRATEGIC OBJECTIVE: AVIATION’S CARBON FOOTPRINT DOES NOT BECOME A CONSTRAINT TO GROWTH
NAS Energy Efficiency                                                                                         -14.00%    -14.76%      ✓         -16.00%
 Improve aviation fuel efficiency by 14 percent, as measured by the calendar year 2011 fuel
 burned per revenue mile flown, relative to the calendar year 2000 baseline.


STRATEGIC GOAL:           IMPROVED GLOBAL PERFORMANCE THROUGH COLLABORATION
                                                                                                              FY 2012    FY 2012    FY 2012     FY 2013
Performance Measure                                                                                            Target    Results    Status       Target

STRATEGIC OBJECTIVE: REDUCE AVIATION ACCIDENTS AND FATALITIES WORLDWIDE
World-wide Fatal Aviation Accidents                                                                             20           106      ✓            20
 In FY 2012, limit world-wide fatal accidents in Part 121-like operations to no more than 20 fatal
 accidents per million revenue aircraft departures.
 4 Preliminary estimate. The System Approach to Safety to Oversight (SASO) program is under technical         ✓ Target met          ✘ Target not met
   status review and could still exceed its baseline. This will not affect achievement of the overall goal.
 5 Preliminary estimate based on Terminal Area Forecast operations for 2012. Final estimate based on
   actual 2012 operations will be available in May 2013.
 6 Preliminary estimate. Final result available July 2013.




                       FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
28




                                      ALIGNMENT OF FAA COSTS AND GOALS
                                      We use our Cost Accounting System (CAS) to track
                                      our costs in a matrix fashion by organizational unit and
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      project. At the beginning of each project, we determine
                                      the degree to which the project will contribute to one
                                      or more of our strategic goal areas: Next Level of
                                      Safety, Workplace of Choice, Delivering Aviation Access
                                      through Innovation, Sustaining our Future, and Improved
                                      Global Performance through Collaboration. We allocate
                                      actual project costs to the strategic goal areas that are
                                      supported by the project. Because we also routinely
                                      accumulate costs by organizational unit, we are then
                                      able to assign total net costs among our four Lines of
                                      Business and our combined Staff Offices, by strategic
                                      goal area.

                                      The FAA total net cost of more than $16.1 billion was
                                      allocated to our strategic goal areas as described below.

                                      NEXT LEVEL OF SAFETY. Nearly $9.7 billion, or about 60
                                      percent, of our total net cost was devoted to our primary
                                      goal of ensuring the safety of the NAS.
                                       nnThe   Office of Airports (ARP) directed more than $1.6     nnThe   ATO spent about $4.3 billion, largely to finance its
                                         billion to establishing safe airport infrastructure.
                                                                                                      facilities and equipment projects.
                                       nnThe  Air Traffic Organization (ATO) spent approximately    nnThe ARP spent nearly $1.5 billion to enhance the
                                         $6.3 billion, largely to maintain the safe separation of
                                                                                                      capacity of the country’s airports through runway
                                         aircraft in the air and on the ground.
                                                                                                      projects and other efforts.
                                       nnThe  Aviation Safety Organization (AVS) spent just over    nnThe AST contributed more than $6.7 million to
                                         $1.4 billion on its programs to regulate and certify
                                                                                                      improving commercial space launch capabilities
                                         aircraft, pilots, and airlines, directly supporting the
                                                                                                      through its Spaceport Grant program.
                                         safety of commercial and general aviation.
                                       nnThe  Office of Commercial Space Transportation (AST),      SUSTAINING OUR FUTURE. As a whole, we committed
                                         the other FAA Staff Offices, and other programs spent      approximately $91.3 million to support environmental
                                         slightly more than $357 million to further support the     sustainability. This funding supported research programs
                                         agency’s safety mission.                                   in alternative fuels and increases in aircraft energy
                                                                                                    efficiency. AIP grants were also targeted toward the
                                      WORKPLACE OF CHOICE. Approximately $687 million               reduction of exposure to aviation noise near large airports.
                                      supported our workplace of choice goal, to which nearly
                                      all the Lines of Business and Staff Offices contributed.      IMPROVED GLOBAL PERFORMANCE THROUGH
                                                                                                    COLLABORATION. As a whole, we committed
                                      DELIVERING AVIATION ACCESS THROUGH                            approximately $6.7 million to strengthening our
                                      INNOVATION. Approximately $5.7 billion—or or about 35         international leadership role. These efforts included
                                      percent of total net costs—was assigned to support our        programs aimed at reducing fatal accidents around the
                                      goal of expanding the capacity of the NAS, particularly       world. Funding for training and technical assistance
                                      through the pursuit of programs contributing to the           helped promote safety standards as well.
                                      NextGen initiative.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                       29




FINANCIAL HIGHLIGHTS

DISCUSSION AND ANALYSIS OF THE                                       and the independent auditors to resolve issues that arise
                                                                     during the audit and to monitor the implementation of




                                                                                                                                                       MANAGEMENT’S DISCUSSION & ANALYSIS
FINANCIAL STATEMENTS
                                                                     audit recommendations. The committee is chaired by the
The FAA prepares annual financial statements in
                                                                     Director of the Office of Reporting and Accountability
conformity with accounting principles generally accepted
                                                                     and includes representatives from the OIG; the DOT’s
in the United States. The financial statements are subject
                                                                     Office of Financial Management; the FAA’s Assistant
to an independent audit to ensure that they are free from
                                                                     Administrator for Regions and Center Operations; and
material misstatement and that they can be used to
                                                                     ATO’s Chief Operating Officer. In 2006, committee
assess FAA performance.
                                                                     participation was expanded to include representatives
                                                                     from the Chief Counsel’s Office, the Assistant
FY 2012 Financial Statement Audit                                    Administrator for Human Resources Management,
The Chief Financial Officers Act of 1990 (Public Law                 Information Services, and Airports.
101–576), as amended by the Government Management
Reform Act of 1994, requires that financial statements               KPMG LLP has rendered an unqualified opinion on the
be prepared by certain agencies and commercial-like                  FAA’s FY 2012 financial statements.
activities of the Federal Government and that the
statements be audited in accordance with Government                  Understanding the Financial Statements
auditing standards. The FAA is required to prepare its               The FAA’s Consolidated Balance Sheets, Statements
own financial statements under OMB Bulletin No. 07–04,               of Net Cost, Changes in Net Position, and Combined
Audit Requirements for Federal Financial Statements.                 Statements of Budgetary Resources have been prepared
The DOT’s OIG is statutorily responsible for the manner              to report the financial position and results of operations
in which the audit of the FAA’s financial statements is              of the FAA, pursuant to the requirements of the Chief
conducted. The OIG selected KPMG LLP, an independent                 Financial Officers Act of 1990 and the Government
certified public accounting firm, to audit the FAA’s FY 2012         Management Reform Act of 1994. The following
financial statements.                                                section provides a brief description of (a) the nature of
                                                                     each financial statement and its relevance to the FAA,
In 2002, the DOT’s OIG and Chief Financial Officer, along
                                                                     (b) significant fluctuations from FY 2011 to FY 2012, and
with the FAA’s Chief Financial Officer, established an
                                                                     (c) certain significant balances, where necessary, to help
Audit Coordination Committee to promote and encourage
                                                                     clarify their link to FAA operations.
open communication among the OIG, FAA management,




                      Composition of Assets                                                      Assets Comparison
                      as of September 30, 2012                                                   (Dollars in Thousands)



                                                       10%             Fund Balance
                                                                       with Treasury

                                                                        Investments
          45%                                          42%

                                                                      Property, plant
                                                                      and equipment
           3%
                                                                               Other

                                                                       $ THOUSANDS      0    3,000,000   6,000,000   9,000,000 12,000,000 15,000,000
     Fund Balance with Treasury    Other
     Investments                   Property, plant and equipment                       2012     2011




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
30



                                      Balance Sheet                                                        to fund expenses which accounts for the remaining
                                      The balance sheet presents the amounts available for use             increase on a comparative basis.
                                      by the FAA (assets) against the amounts owed (liabilities)
                                                                                                           At $13.4 billion, General property, plant, and equipment,
                                      and amounts that comprise the difference (net position).
                                                                                                           net (PP&E) represents 45 percent of the FAA’s assets
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      Assets                                                               as of September 30, 2012, and primarily comprises
                                                                                                           construction-in-progress related to the development of
                                      Total assets were $29.8 billion as of September 30,
                                                                                                           National Airspace System assets, and capitalized real
                                      2012. The FAA’s assets are the resources available to pay
                                                                                                           and personal property. There was an increase of $328
                                      liabilities or satisfy future service needs. The Composition
                                                                                                           million in the total composition of PP&E as purchases
                                      of Assets chart depicts major categories of assets as a
                                                                                                           of equipment and additions to construction-in-progress
                                      percentage of total assets.
                                                                                                           through the normal course of business were greater than
                                      The Assets Comparison chart presents comparisons of                  the offsets by retirements, disposals, and depreciation.
                                      major asset balances as of September 30, 2011 and 2012.
                                                                                                           Liabilities
                                      Fund balance with Treasury (FBWT) represents 10 percent              As of September 30, 2012, the FAA reported liabilities of
                                      of the FAA’s current period assets and consists of funding           $4.4 billion. Liabilities are probable and measurable future
                                      available through U.S. Department of the Treasury accounts           outflows of resources arising from past transactions or
                                      from which the FAA is authorized to make expenditures to             events. The Composition of Liabilities chart depicts the
                                      pay liabilities. It also includes passenger ticket and other         FAA’s major categories of liabilities as a percentage of
                                      excise taxes deposited to the Airport and Airway Trust Fund          total liabilities.
                                      (AATF), but not yet invested. Fund balance with Treasury
                                      decreased from $3.7 billion to $3.1 billion.                         The Liabilities Comparison chart presents comparisons of
                                                                                                           major liability balances between September 30, 2011 and
                                      At $12.3 billion, Investments represent 42 percent of                September 30, 2012. Below is a discussion of the major
                                      the FAA’s current period assets, and are derived from                categories.
                                      passenger ticket and other excise taxes deposited to the
                                      AATF and premiums collected from the Aviation War Risk               At $1.5 billion, Employee related and other liabilities
                                      Insurance Program. These amounts are used to finance                 represent 35 percent of the FAA’s total liabilities.
                                      the FAA’s operations to the extent authorized by Congress            These liabilities decreased slightly by $13 million as of
                                      and to pay potential insurance claims. Investments                   September 30, 2012 and are comprised mainly of $162.1
                                      increased by $2.0 billion due to an increase in excise               million in advances received, $206.1 million in Federal
                                      tax revenues of $1.0 billion, yearly War Risk premiums               Employee’s Compensation Act payable, $435 million in
                                      of $160.6 million, and earned interest of $244.9 million.            accrued payroll and benefits, $531.4 million in accrued
                                      Additionally, investments are not liquidated until needed            leave and benefits, $34.3 million in legal claims liability
                                                                                                           and $82.3 million in capital lease liability.

                                                           Composition of Liabilities                                                    Liabilities Comparison
                                                              as of September 30, 2012                                                    (Dollars in Thousands)


                                                                                                              Employee related
                                                 22%                                         10%             and other liabilities
                                                                                                              Federal employee
                                                                                                                       benefits
                                                                                             15%
                                                                                                                  Environmental
                                                                                                                       liabilities
                                                 35%                                                                      Grants
                                                                                             18%
                                                                                                                         payable
                                                                                                                       Accounts
                                                                                                                        payable

                                           Accounts payable                 Employee related and other      $ THOUSANDS            0        500,000   1,000,000   1,500,000   2,000,000
                                           Grants payable                    liabilities
                                                                                                                                      2012     2011
                                           Environmental liabilities        Federal employee benefits




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                                 31



At $946.8 million, Federal employee benefits represent 22         As of September 30, 2012, and September 30, 2011,
percent of the FAA’s current year liabilities, and consist of     the FAA’s net costs were $16.1 billion and $16.7 billion,
the FAA’s expected liability for death, disability, and medical   respectively. The Composition of Net Cost chart illustrates
costs for approved workers compensation cases, plus a             the distribution of costs among the FAA’s Lines of
component for incurred but not reported claims. The U.S.          Business.




                                                                                                                                                                 MANAGEMENT’S DISCUSSION & ANALYSIS
Department of Labor (DOL) calculates the liability for the
DOT, and the DOT attributes a proportionate amount to the         The Net Cost Comparison chart compares September 30,
FAA based upon actual workers’ compensation payments              2011, and September 30, 2012 net costs.
to FAA employees over the preceding four years. This
                                                                  With a net cost of $11.2 billion, the Air Traffic Organization
liability is updated an on annual basis at year end.
                                                                  is the FAA’s largest Line of Business, comprising 69
Environmental liabilities represent 18 percent of the             percent of total net costs. Air Traffic Organization’s net
FAA’s total liabilities and were $810.4 million as of             costs decreased by $392.9 million, on a comparative
September 30, 2012, compared with $757.4 million a                basis, primarily from decreases in contractor services and
year earlier. Environmental liabilities include a component       property related activities partially offset by increases in
for remediation of known contaminated sites and the               labor costs.
estimated environmental cost to decommission assets
                                                                  Airports is the FAA’s second largest Line of Business
presently in service.
                                                                  with a net cost of $3.1 billion as of September 30, 2012,
The FAA’s grants payable are estimated amounts incurred           which is 19 percent of the FAA’s total net costs. Net costs
but not yet claimed by Airport Improvement Program (AIP)          decreased by $249.1 million from the prior year primarily
grant recipients and represent 15 percent of liabilities.         due to a decrease in Airport Improvement Program grant
Grants payable decreased slightly by $12.8 million.               disbursements on a comparative basis.
Accounts payable decreased $104.7 million and are
                                                                  The net cost of Aviation Safety represents 9 percent of the
amounts the FAA owes to other entities for unpaid goods
                                                                  FAA’s total net costs, while Region and Center Operations
and services.
                                                                  and All Other comprise 3 percent of total net costs.

Statement of Net Cost
                                                                  Statement of Changes in Net Position
The Statement of Net Cost presents the cost of operating
                                                                  The Statement of Changes in Net Position presents those
FAA programs. The gross expense less any earned
                                                                  accounting items that caused the net position section of
revenue for each FAA program represents the net cost of
                                                                  the balance sheet to change from the beginning to the
specific program operations. The FAA has used its cost
                                                                  end of the reporting period. Various financing sources
accounting system to prepare the annual Statement of
                                                                  increase net position. These financing sources include
Net Cost since FY 1999.
                                                                  appropriations received and non-exchange revenue,
                                                                  such as excise taxes and imputed financing from costs


                       Composition of Net Cost                                                   Net Cost Comparison
                        as of September 30, 2012                                                 (Dollars in Thousands)


                                                                               Air Traffic
                                                                             Organization
             3%
                                                                                  Airports
                                                         69%
            19%
                                                                           Aviation Safety


             9%                                                       Regions and Center
                                                                    Operations & All Other

      Air Traffic Organization       Airports                     $ THOUSANDS              0   2,000,000 4,000,000 6,000,000 8,000,000 10,000,000 12,000,000
      Aviation Safety                Regions and Center                                     2012       2011
                                       Operations & All Other




                      FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
32



                                      absorbed on the FAA’s behalf by other Federal agencies.                           Stewardship Investments
                                      The agency’s net cost of operations and net transfers to                          Stewardship investments are substantial investments made
                                      other Federal agencies serve to reduce net position.                              by the FAA for the benefit of the Nation, but do not result
                                                                                                                        in physical ownership of assets by the FAA. When incurred,
                                      The FAA’s Cumulative Results of Operations for the
                                                                                                                        these amounts are treated as expenses in the Consolidated
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      period ending September 30, 2012, increased by $1.9
                                                                                                                        Statements of Net Cost. Our Required Supplementary
                                      billion due primarily to a combination of financing sources
                                                                                                                        Stewardship Information (RSSI) includes disclosure of
                                      of $4.6 billion from appropriations used, non-exchange
                                                                                                                        stewardship investments over the last five years. These
                                      revenue of $12.8 billion, imputed financing of $552.1
                                                                                                                        are disclosures of Airport Improvement Program grants by
                                      million, and donations of property of $156.8 million offset
                                                                                                                        State/territory, and research and development investments.
                                      by transfers out of $129.3 million and net costs of $16.1
                                                                                                                        The FAA recognizes the grants expense as the recipient
                                      billion. Unexpended appropriations decreased slightly by
                                                                                                                        accomplishes the improvement work.
                                      $85 million.
                                                                                                                        The FAA’s research and development expenses increased
                                      Statement of Budgetary Resources                                                  in FY 2012 by $17.8 million primarily in the category of
                                      This statement provides information on the budgetary                              lab testing which is part of R&D Plant. Two areas of
                                      resources available to the FAA as of September 30, 2012,                          focus this year included the development of Current and
                                      and September 30, 2011, and the status of those                                   Forecasting Icing Products which provide substantial
                                      budgetary resources.                                                              diagnostic improvements in identifying icing conditions
                                                                                                                        during flight and the development of a National Ceiling
                                      Budget authority, gross is the authority provided to the                          and Visibility Analysis that provides real time analysis of
                                      FAA by law to enter into obligations that will result in                          current ceiling and visibility conditions for the general
                                      outlays of Federal funds. Obligations incurred result from                        aviation community.
                                      an order placed, contract awarded, service received,
                                      or similar transaction, which will require payments                               Limitations of the Financial Statements
                                      during the same or a future period. Obligations incurred
                                                                                                                        The FAA has prepared its financial statements to report its
                                      are sourced from current year budget authority and
                                                                                                                        financial position and results of operations, pursuant to the
                                      unobligated balances carried forward. Gross outlays
                                                                                                                        requirements of the Chief Financial Officers Act of 1990
                                      reflect the actual cash disbursed by Treasury for FAA
                                                                                                                        and the Government Management Reform Act of 1994.
                                      obligations. The FAA reported gross budget authority
                                      of $21.9 billion on September 30, 2012, compared to                               While the FAA statements have been prepared from
                                      $21.4 billion on September 30, 2011. Obligations incurred                         its books and records in accordance with the formats
                                      increased $660.2 million to $22.2 billion. Gross outlays                          prescribed by OMB, the statements are in addition to the
                                      also increased by $664.2 million to $21.8 billion.                                financial reports used to monitor and control budgetary



                                               Statement of Budgetary Resources Comparison                                                 FAA Enacted Budget – FY 2012
                                                                    (Dollars in Thousands)                                                       (Dollars in Thousands)



                                                                                                                                $167,556
                                                Budget
                                        authority, gross

                                                                                                                              $2,730,731                                       $9,653,395
                                            Obligations
                                              incurred

                                                                                                                              $3,515,000
                                         Gross outlays


                                        $ THOUSANDS        0    5,000,000 10,000,000 15,000,000 20,000,000 25,000,000         Operations                    Facilities & Equipment
                                                                                                                              Grants-in-Aid for Airports    Research, Engineering &
                                                            2012     2011                                                                                   Development




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                   33



resources, which are prepared from the same books and            Operations. The Operations appropriation finances
records.                                                         operating costs, maintenance, communications, and
                                                                 logistical support for the air traffic control and air
These statements should be read with the understanding           navigation systems. It also funds the salaries and costs
that they are for a component of the United States               associated with carrying out our safety inspection and




                                                                                                                                   MANAGEMENT’S DISCUSSION & ANALYSIS
Government, a sovereign entity. Liabilities not covered          regulatory responsibilities. In addition, the account covers
by budgetary resources cannot be liquidated without the          administrative and managerial costs for our international,
enactment of an appropriation by Congress, and payment           medical, engineering, and development programs, as well
of all liabilities, other than for contracts, can be abrogated   as for policy oversight and overall management functions.
by the Federal Government.
                                                                 The FY 2012 Operations appropriation was $9.65 billion,
Budgetary Integrity: FAA Resources and How They                  approximately 1.47 percent more than in FY 2011, an
Are Used                                                         increase primarily attributable to payroll and inflation costs.
In FY 2012, the AATF provided approximately 71 percent of
our enacted budgetary authority. Created by the Airport and      AIP. The Secretary of Transportation is authorized to
Airway Revenue Act of 1970, the AATF derives its funding         award grants for planning and development to maintain
from excise taxes and earned interest. It provides a source      a safe and efficient nationwide system of public airports.
of revenue to finance investments in the airport and airway      These grants fund approximately one third of all capital
system, and covers a portion of FAA operating costs.             development at the Nation’s public airports. Grants are
                                                                 issued to maintain and enhance airport safety, preserve
Aviation excise taxes, which include taxes on domestic           existing infrastructure, and expand capacity and efficiency
passenger tickets, freight waybills, general and                 throughout the system. The program also supports noise
commercial aviation fuel, and international departures and       compatibility and planning, the military airport program,
arrivals, are deposited into the fund. The U.S. Department       reliever airports, and airport program administration.
of the Treasury maintains the fund and invests in
Government securities.                                           FY 2012 funding for AIP was $3.515 billion. Funding for
                                                                 the Small Community Air Service Development program
Interest earned is deposited into the fund. Funding              was $6 million, the same as the FY 2011 appropriation.
is withdrawn as needed and transferred to each FAA
appropriation budget line to cover obligations.                  F&E. The programs funded by the F&E appropriation are
                                                                 our principal means of modernizing and improving air
We are financed through annual and multiyear                     traffic control and airway facilities, particularly through
appropriations authorized by Congress. The FY 2012               programs supporting NextGen. The account finances
enacted budget of $16.1 billion was a slight increase from       major capital investments to enhance the safety and
the FY 2011 enacted level of $15.93 billion. This included       capacity of the NAS. F&E was funded at $2.73 billion
$11.51 billion from the AATF and $4.59 billion from the          in FY 2012, the same level as in FY 2011. Several major
General Fund, as enacted by the Consolidated and Further         systems that contribute to the NextGen effort reached
Continuing Appropriations Act, 2012 (P.L. 42-55).                significant milestones in FY 2012. These include
                                                                 Automatic Dependent Surveillance-Broadcast (ADS-B),
The FAA has four appropriations. The largest, Operations,
                                                                 System Wide Information Management (SWIM), and En
is funded by both the Treasury’s General Fund and the
                                                                 Route Automation Modernization (ERAM).
AATF. In FY 2012, the AATF provided 52.4 percent of the
revenue for Operations. The AATF is the sole revenue             R,E,&D. The FY 2012 appropriation for R,E,&D of $167.56
source for our three capital investment appropriations:          million was about 1.2 percent lower than the FY 2011 level.
nnGrants-in-Aid   for Airports (AIP)                             The reduction for FY 2012 included small cuts in programs
                                                                 supporting safety and improvements in the efficiency of
nnFacilities   and Equipment (F&E)
                                                                 the air traffic control system. At the same time, research
nnResearch,     Engineering, and Development (R,E,&D)
                                                                 supporting the reduction of aviation’s environmental
                                                                 impacts was increased by nearly 10 percent.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
34




                                      MANAGEMENT CONTROLS HIGHLIGHTS

                                      IMPROVING FINANCIAL                                            above the target of 70 percent. The SAVES program has
                                                                                                     enabled us to gain better financial oversight in addition to
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      MANAGEMENT
                                                                                                     significant cost savings.
                                      Cost-Effectiveness and Efficiency
                                                                                                     Through SAVES contracts, we achieved more than $22
                                      Destination 2025 includes a strategic objective to improve
                                                                                                     million in cost savings for FY 2012 and a total savings of
                                      the financial management of the agency while delivering
                                                                                                     more than $116 million since program implementation.
                                      quality customer service. A cost-control target is essential
                                                                                                     SAVES contracts produced the following savings rates:
                                      to the Destination 2025 goals tracked each month. Due to
                                                                                                     nn31   percent for office supplies
                                      this target, the agency was able to achieve $102 million
                                      in recurring savings in FY 2012 (from efforts put in place     nn26   percent for office equipment
                                      from FY 2005 to FY 2011). FAA efforts in this area are         nn19   percent for IT hardware
                                      described below:                                               nn16   percent for financial systems support
                                      Service Area Restructuring. By reevaluating and                nn12   percent for COTS software
                                      changing the structure of ATO service areas, the FAA           nn9    percent for ground and overnight delivery
                                      sharply reduced staffing requirements. This activity
                                      achieved an estimated savings of $39 million in FY 2012.       In addition to cost control, each FAA organization
                                                                                                     develops, tracks, and reports quarterly on a
                                      Workers’ Compensation Consolidation. The FAA has               comprehensive measure of its operating efficiency or
                                      saved a total of $119 million in workers’ compensation         financial performance. Cost efficiency activities for each
                                      claims since FY 2005. Because of the FAA’s record              FAA organization must be targeted towards at least 75
                                      of success in this area, the DOT gave us centralized,          percent of operating resources.
                                      department-wide responsibility for managing workers’
                                      compensation claims. In FY 2012, we saved $8 million in        Cost Per Controlled Flight. This cost-based metric
                                      workers’ compensation costs.                                   provides a broader historic picture of overall cost
                                                                                                     efficiency at various FAA organizational levels per flight.
                                      Information Technology. As in most businesses,                 Cost per controlled flight is reviewed as part of periodic
                                      information technology (IT) investments at the FAA can         benchmarking initiatives within the global air navigation
                                      be expensive and the technology can quickly become             service community.
                                      obsolete. To address this, we are becoming more
                                      proactive about IT decisions by implementing agency-           Air Traffic Overhead Rate. We capture overhead rates
                                      wide IT initiatives to consolidate resources and improve       to provide insight into the cost-effectiveness of overhead
                                      efficiency. This is yielded a cost savings of more than $40    resources provided to support ATO. The agency regularly
                                      million in FY 2012.                                            reviews current and historic performance and selected
                                                                                                     benchmarking with other air navigation service providers.
                                      SAVES Program. The Strategic Sourcing for the                  The resulting performance indicator informs management
                                      Acquisition of Various Equipment and Supplies (SAVES)          decisions on the mix, level, and allocation of general and
                                      Program is an ambitious effort that began in FY 2006           administrative services and mission support services.
                                      to implement private sector best practices in the FAA
                                      procurement of administrative supplies, equipment, IT          Regulatory Cost Per Launch. This metric provides
                                      hardware, commercial off-the-shelf (COTS) software,            trend data for the average regulatory cost per launch of
                                      and courier services. The SAVES program oversees               commercial space vehicles. This information is used to
                                      nine national contracts in six different categories. Since     track how efficiently the AST mission is interacting with the
                                      the initiation of these contracts, we have exceeded our        commercial space industry. Trend data are also reviewed to
                                      expected compliance rate. We currently purchase 90             forecast what human resources will be needed to regulate
                                      percent of our office supplies through contracts, well         and support launch and reentry operations.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                            35



IMPLEMENTING EXPENSE CONTROLS                                 FINANCIAL MANAGEMENT
The FAA has improved its oversight of the acquisition         INTEGRITY: CONTROLS,
process to help ensure that the agency is a responsible       COMPLIANCE, AND CHALLENGES
steward of the taxpayers’ money. New requirements             In an October 19, 2012 memorandum, the FAA




                                                                                                                            MANAGEMENT’S DISCUSSION & ANALYSIS
help us to better manage resources and arrive at sounder      Administrator reported to the Secretary of the DOT an
business decisions in relation to our external contracts.     unqualified statement of assurance under the Federal
                                                              Managers’ Financial Integrity Act of 1982 (FMFIA). Every
Procurements. In 2005, the FAA’s CFO was directed
                                                              year, FAA program managers in the Lines of Business
to exercise greater oversight and fiscal control over all
                                                              and Staff Offices assess the vulnerability of their program
agency procurements costing $10 million or more. Since
                                                              and the strength of their management controls. On the
that time, the Office of Financial Controls has evaluated
                                                              basis of these assessments, reviews are conducted
446 procurement packages with an estimated cost of
                                                              to determine their compliance with Sections 2 and 4
$52.3 billion. Our ability to articulate and define program
                                                              of FMFIA. The head of the Line of Business or Staff
requirements, accurately estimate costs, and substantiate
                                                              Office then identifies in writing to the Administrator any
those cost estimates has greatly improved. With these
                                                              potential material internal control weakness or system
improvements, we have established proper controls and
                                                              nonconformance. Weaknesses deemed material, if
can more effectively manage our contract resources.
                                                              any, are consolidated in a Statement of Assurance
The Chief Acquisition Officer established an Acquisition      signed memorandum by the Administrator and sent
Executive Board during FY 2009 to oversee procurement         to the Secretary. Our response becomes a part of the
policy. The Acquisition Executive Board is working to         DOT Statement of Assurance sent to the President.
streamline and standardize the processes by which             In addition to FMFIA, we report our compliance with
acquisitions are approved and managed. As part of this        the Federal Financial Management Improvement Act
effort, a separate board was established to review and        (FFMIA). FFMIA requires an assessment of adherence to
approve any proposed support contract with a value of         financial management system requirements, accounting
$10 million or more. This board is composed of executives     standards, and U.S. Standard General Ledger transaction
from the CFO’s office, the Office of Acquisitions and         level reporting. For FY 2012, we are reporting overall
Contracting, and the Office of the Chief Counsel. It          substantial compliance.
makes recommendations to the CFO for approval or
disapproval of each acquisition.                              IMPROPER PAYMENTS ELIMINATION
                                                              AND RECOVERY ACT OF 2010 (IPERA)
Information Technology. To better coordinate IT efforts,
any IT-related spending in excess of $250,000 must be         The Improper Payments Information Act of 2002 (IPIA),
approved by the FAA’s Chief Information Officer (CIO).        as amended by the Improper Payments Elimination and
This requirement ensures that our IT investments are          Recovery Act of 2010 (IPERA), requires Federal agencies
coordinated and fit into the agency-wide IT strategy.         to annually report information on improper payments to
The Information Technology Shared Services Committee          the President and the Congress.
serves as a forum to direct the effective, secure, and
                                                              IPERA is a systematic approach that allows the Federal
cost-efficient application of non-NAS, IT-related personnel
                                                              government to address a difficult and often complex
resources, and oversees funding to meet our IT needs.
                                                              problem. The Federal government loses billions of dollars
Conferences. In 2009, our CFO and our Chief Acquisition       a year on improper payments. OMB Circular A-123,
Officer issued guidance requiring that all conferences        Appendix C (April 14, 2011) provides government-wide
costing $100,000 or more be approved by the CFO               guidance for IPERA.
before funds were committed. This guidance was further
                                                              The purpose of these regulations and guidance is to
strengthened in March 2010 with the requirement that
                                                              improve agency efforts to reduce and recover improper
such conferences also be approved by the Administrator.
                                                              payments. Specifically, IPERA requires that agencies
In addition, any conference of more than 20 FAA
                                                              identify and estimate improper payments, conduct
employees meeting outside of their normal duty stations
                                                              payment recovery audits, reuse recovered improper
must be approved by the Administrator.




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
36



                                      payments, and complete lists of compliance actions per    are most susceptible to improper payments. This risk
                                      the law.                                                  assessment will allow agencies to identify areas that have
                                                                                                the potential for “significant” improper payments.
                                      An improper payment based on IPERA, in simple
                                      terms, is defined as any payment that should not have     The FAA’s FY 2012 IPERA review did not find any
MANAGEMENT’S DISCUSSION & ANALYSIS




                                      been made or that was made in the incorrect amount        programs or activities at risk for “significant erroneous
                                      (overpayments or underpayments) or payments made          payments,” as determined in accordance with the
                                      to an ineligible recipient or for an ineligible good or   OMB’s criteria (i.e., programs with erroneous payments
                                      service. Additionally, payments made without supporting   exceeding both $10 million and 2.5 percent of program
                                      documentation or duplicate payments are also considered   payments). This threshold will be adjusted in FY 2013 to
                                      improper payments. This is the level of detail applied    provide a higher level of scrutiny. In FY 2013, an agency
                                      by FAA to monitor payments and assess if an improper      will be at risk for “significant erroneous payments” if the
                                      payment has occurred.                                     program’s erroneous payments exceed both $10 million
                                                                                                and 1.5 percent of the programs payments or exceed
                                      Based on IPERA, agencies are required to review all       $100 million.
                                      programs and activities in order to identify those that




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                 37



MANAGEMENT ASSURANCES




                                                                                                                 MANAGEMENT’S DISCUSSION & ANALYSIS
   Federal Managers’ Financial Integrity Act of 1982
   Assurance Statement—Fiscal Year 2012

   The FAA is responsible for establishing and maintaining effective internal control and financial
   management systems that meet the objectives of the FMFIA; OMB Circular A-123, Management’s
   Responsibility for Internal Control.

   These objectives are to ensure:
         nnEffective   and efficient operations
         nnCompliance     with applicable laws and regulations
         nnReliable   financial reporting.

   Internally, we assess the vulnerability of our programs and systems through FMFIA. We are pleased
   to report that taken as whole, the management controls and financial management systems in effect
   from October 1, 2011, through September 30, 2012, provide reasonable assurance that the objectives
   of both Sections 2 and 4 of the FMFIA are being met. Management controls are in place and our
   financial systems conform to Government-wide standards

   In addition, the FAA conducted its assessment of the effectiveness of internal control over financial
   reporting, which includes internal control related to the preparation of its annual financial statements as
   well as safeguarding of assets and compliance with applicable laws and regulations governing the use
   of budgetary authority and other laws and regulations that could have a direct and material effect on
   the financial statements, in accordance with the requirements of Appendix A of OMB Circular A-123.

   The results of this evaluation provide reasonable assurance that the FAA’s internal control over financial
   reporting was operating effectively as of September 30, 2012. Due to unlimited scope of processes
   tested this year and no material weaknesses reported on our financial statements, the FAA is issuing
   an unqualified statement of assurance.




                                                             Michael P. Huerta
                                                             Acting Administrator
                                                             November 9, 2012




            FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
38




                                       FINANCIAL MANAGEMENT SYSTEMS STRATEGY AND
                                       ACTIONS
MANAGEMENT’S DISCUSSION & ANALYSIS




                                       OVERVIEW                                                     SYSTEMS CRITICAL TO FINANCIAL
                                       The FAA used the Federal Enterprise Architecture (FEA) to    MANAGEMENT
                                       redesign its financial management systems’ architecture,     We keep an inventory of the various financial systems
                                       creating a financial segment that cut across all FAA         we use and we maintain the status of each system. We
                                       organizations. Enterprise Architecture links the business,   are constantly working to make further improvements.
                                       mission, strategy, and processes of an organization to       Below is a summary of the systems critical to financial
                                       its IT strategy. The FEA is the Federal Government’s         management and the activities or improvements that are
                                       enterprise architecture and provides a common                planned for each.
                                       methodology for Government IT acquisition, use, and
                                       disposal.                                                    Accounting. Delphi is the DOT’s comprehensive financial
                                                                                                    management system. We use Delphi to record our
                                       Our financial management systems strategy is based           financial transactions and account balances. Currently, the
                                       on the FEA framework and divided into five categories-       DOT is working on a major upgrade to Delphi and we are
                                       Business, Applications, Data, Information, and Services.     now using the iSupplier application for grants and vendor
                                       A summary of our financial system strategy is provided       payments.
                                       below.
                                                                                                    Acquisition. PRISM is a Web-based acquisition system
                                       nnBusiness—Initiate    federated financial IT management
                                                                                                    that integrates with Deplhi’s purchasing functions to
                                         as a new business model across the agency enabling
                                                                                                    provide vendor information and communicate accounting
                                         joint strategic planning and project implementation
                                                                                                    information. We are migrating toward a business process
                                         between FAA organizations.
                                                                                                    management suite of tools that will automate and
                                       nnApplications—Reduce     the current financial
                                                                                                    integrate all activities related to procurement. We are
                                         management system portfolio through a Financial
                                                                                                    continuing to pilot business process automation tools
                                         Systems Modernization program that addresses
                                                                                                    before we fully implement them.
                                         redundancies in key financial and mixed financial
                                         business areas.                                            Budget. We are planning to eliminate duplicative budget
                                       nnData—Implement    a financial data management              systems. In addition, we will be standardizing agency
                                         roadmap and stewardship council to govern the use          “cuff record” systems and budgeting tools.
                                         and sharing of FAA financial data as a shared asset,
                                                                                                    Financial Reporting. The current FAA financial reporting
                                         reduce redundancy and improve data quality for
                                                                                                    systems are the Report Analysis and Distribution System;
                                         decisionmaking.
                                                                                                    Regional Information System, the Financial Management
                                       nnInformation—Build   a FAA-wide financial data              System; and the Research, Engineering & Development
                                         warehouse to enable consistent reporting while             Monitoring, Analysis and Control System. We plan to
                                         maintaining each individual organization’s ability         combine these systems’ functionalities into a single data
                                         to meet core mission area business reporting               warehouse.
                                         requirements.
                                       nnServices—Define     and deliver shared operational and     The Financial Information Transformation (FIT) and
                                         infrastructure services for the FAA financial systems.     Platform for Unified Reporting (PURE) programs are the
                                                                                                    drivers towards our strategic five-year Financial Services
                                                                                                    IT Plan.




                                     PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           39




                                                                                           MANAGEMENT’S DISCUSSION & ANALYSIS




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
40




     PERFORMANCE
          RESULTS
                                                                                                                        41




PERFORMANCE MEASURES OVERVIEW




                                                                                                                        PERFORMANCE RESULTS
In this section, we list our fourteen performance           located on our website at http://www.faa.gov/about/
measures, organized by strategic goal and objective         plans_reports/media/FY12_POG.pdf.
as outlined in our strategic plan, Destination 2025
(D2025). Our five strategic goals, as detailed in D2025     In FY 2012, we were able to meet 11 of the 12
(http://www.faa.gov/about/plans_reports/media/              performance measure targets for which we had end of
Destination2025.pdf), are:                                  year data. For the two performance measures for which
                                                            year-end data are not available, we will report this data
1.	 Next Level of Safety (page 42)                          in the Fiscal Year 2013 Performance and Accountability
2.	 Workplace of Choice (page 50)                           Report (PAR). We have provided preliminary data on
                                                            FY 2012 where available. Also in this FY 2012 PAR, we
3.	 Delivering Aviation Access through Innovation
                                                            have updated FY 2011 performance results for the six
    (page 53)
                                                            performance measures for which we did not have end of
4.	 Sustaining our Future (page 57)                         year data when the FY 2011 PAR was published. Several
5.	 Improved Global Performance through                     of these FY 2011 measures were discontinued in the new
    Collaboration (page 61)                                 strategic plan. Those measures are presented at the end
                                                            of the performance summary.
We provide the FY 2012 target, actual performance, a
discussion of our FY 2012 performance and five years        We have included discussions of the ways our
of historical trend data when available. We have also       performance data are verified and validated as well as of
prepared a graph of performance measures with three         the completeness and reliability of our performance data
or more years of data. Technical definitions, data source   on page 64. Our FY 2012 Performance Results section
information, statistical issues and completeness and        concludes with a selection of summaries of the program
reliability statements for our FY 2012 performance          evaluations conducted during FY 2012 (page 64).
measures can be found in the FY 2012 Portfolio of Goals




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
42




                        1      NEXT LEVEL OF SAFETY

                       By achieving the lowest possible accident rate and always improving safety, all users of our aviation
                       system can arrive safely at their destinations. We will advance aviation safety worldwide.
PERFORMANCE RESULTS




                        FY 2012: SAFETY PERFORMANCE MEASURES AND RESULTS
                                                                                                                               FY 2012    FY 2012      FY 2012     FY 2013
                        Performance Measure                                                                                     Target    Result       Status       Target
                        Commercial Air Carrier Fatality Rate                                                                     7.6           0.01      ✓            7.4
                         In FY 2012, the commercial air carrier fatality rate will not exceed 7.6 fatalities per 100 million
                         people on board.
                         Agency Priority Goal

                        Serious Runway Incursion                                                                                0.395         0.3562     ✓          0.395
                         Reduce Category A and B (most serious) runway incursions to a rate of no more than 0.395 per
                         million operations, and maintain or improve through FY 2013.

                        System Risk Event Rate                                                                                   20           8.952      ✓            20
                         Reduce risks in flight by limiting the rate of the most serious losses of standard separation to
                         20 or fewer for every thousand (.02) losses of standard separation within the National Airspace
                         System.

                        Information Security                                                                                     0              0        ✓                0
                          Ensure no cyber security event significantly degrades or disables a mission-critical FAA system.

                        General Aviation Fatal Accident Rate                                                                    1.07          1.103      ✘           1.06
                         Reduce the fatal accident rate per 100,000 flight hours by 10 percent over a 10-year period
                         (2009-2018).
                         Agency Priority Goal

                        Commercial Space Launch Accidents                                                                        0              0        ✓                0
                         No fatalities, serious injuries, or significant property damage to the uninvolved public during
                         licensed or permitted space launch and reentry activities.
                         1 Preliminary estimate. Final result to be confirmed by NTSB March 2014.                              ✓ Target met            ✘ Target not met
                         2 Preliminary estimate. Final result available January 2013.
                         3 Preliminary estimate. Final result available March 2014.




                       The FAA’s Western Pacific Region conducted triennial airport emergency operations training in the Federated States of Micronesia, which
                       included a live airport emergency exercise. Local students acted as accident victims during the simulation.




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                                     43




 OBJECTIVE:              No Accident-Related Fatalities Occur on Commercial Service Aircraft in
                         the U.S.

Commercial Air Carrier Fatality Rate




                                                                                                                                                                     PERFORMANCE RESULTS
 Reduce the commercial air carrier fatalities per 100 million              with the complexity of operations. Our training programs
 persons on board by 24 percent over 9-year period (2010-                  equip our pilots with the skills that they need to deal with
 2018). No more than 6.2 in 2018.                                          any situation.
 FY 2012    In FY 2012, the commercial air carrier fatality rate
 Target     will not exceed 7.6 fatalities per 100 million people          We are challenged by the number of projects directly
            on board.                                                      tasked to us by Congress in the Airline Safety and FAA
 FY 2012    0.0                                                            Extension Act of 2010. This year we continued our efforts
 Result     (Preliminary estimate. Final result to be confirmed by NTSB    on a pilot training rule that we expect to complete in
            March 2014)                                                    2013. The rule represents the most significant overhaul of
 Public     As fatal air carrier accidents have declined in terms of       crew training in the last 20 years. It would require pilots,
 Benefit    average fatalities per accident, this measure will sharpen     flight attendants and dispatchers to demonstrate their
            the FAA’s focus on helping air travel become even safer.       skills in real operations. We will never forget the lives that
  This performance measure supports the DOT Agency Priority Goal, Reduce   were lost in the Colgan Air accident in 2009 and the new
  Risk of Aviation Accidents.
                                                                           rule will address the lessons learned from that accident.

                                                                           While our achievements have brought aviation to an
With more than 10.4 million flights and 735.5 million
                                                                           unprecedented level of safety, identified sources of risk
passengers in FY 2012, commercial aviation continues
                                                                           within aviation provide the basis for moving forward to
to be one of the safest forms of transportation. As the
                                                                           the next level of safety. Our work with stakeholders to
stewards of aviation safety, the FAA and industry have
                                                                           stimulate cooperation for the open reporting of safety
built a system that has reduced the risks of flying to all-
                                                                           concerns is key to the FAA’s successful safety efforts.
time lows. Commercial aviation includes both scheduled
                                                                           Each member of the aviation community plays a vital role
and nonscheduled flights of U.S. passenger and cargo
                                                                           in our efforts to ensure we continue to have the safest
air carriers and scheduled passenger flights of regional
                                                                           airspace system in the world.
operators. Accidents involving passengers, crew, ground
personnel, and the public are all included in this fatality
rate.                                                                                         Commercial Air Carrier Fatality Rate
                                                                                              Fatalities per 100 million persons on board
In FY 2012, with no commercial fatal accidents, we were                                   10
successful in maintaining the commercial air carrier rate
                                                                                           8
below 7.6 fatalities per 100 million people on board. Our
FY 2012 results are not expected to change. However,                                       6
they will not be confirmed as final by the National
Transportation Safety Board until March 2014. Our                                          4
                                                                                  RATE




focused data driven safety agenda, with its emphasis on                                    2
using the latest technology and training to break the chain
of events that lead to accidents, along with the work of                                   0

the Commercial Aviation Safety Team (CAST), continues
                                                                                          -2
                                                                                                  FY 2008       FY 2009        FY 2010       FY 2011      FY 2012
to keep the skies safe for commercial passengers.
                                                                                     Actual         0.4             6.7            0.3            0.01        0.02
                                                                                     Target         8.7             8.4            8.1            7.9         7.6
The technology used by our pilots, mechanics, flight                                Target
attendants, and air traffic controllers has evolved. Pilots                      Achieved?                                                                
                                                                               1 Preliminary estimate. Final result to be confirmed by NTSB March 2013.
today must possess not only the navigation, stick, and                         2 Preliminary estimate. Final result to be confirmed by NTSB March 2014.
rudder skills that they have always had to learn, but they
must be “system managers” who are intimately familiar




                      FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
44




                        OBJECTIVE:            Aviation Risk is Reduced Through All Phases of Flight (Gate-to-Gate)

                       Serious Runway Incursion Rate
                       (Category A & B)
PERFORMANCE RESULTS




                         Reduce Category A & B (most serious) runway incursions                   incursions. Additionally, separate focused efforts were
                         to a rate of no more than .395 per million operations, and               initiated to address surface risk associated with airport
                         maintain or improve through FY 2013.                                     construction, closed runways, and call sign confusion.
                        FY 2012   Reduce Category A & B (most serious) runway                     We have taken specific actions to instill an open reporting
                        Target    incursions to a rate of no more than .395 per million           culture so that safety issues are brought to light and
                                  operations.
                                                                                                  addressed. The implementation of non-punitive voluntary
                        FY 2012   0.356                                                           safety reporting programs and simplified safety reporting
                        Result    (Preliminary estimate. Final result available January 2013.)    processes outlined in new FAA safety orders, along with
                        Public    Reduced probability that the public will be injured or killed   new tools to support these processes, have resulted in
                        Benefit   in an accident resulting from a runway incursion.               removing barriers to reporting all events on the surface.

                                                                                                  In FY 2012, the total number of reported runway
                       A runway incursion is any unauthorized intrusion onto a
                                                                                                  incursions resulting from operational incidents and pilot
                       runway, regardless of whether or not an aircraft presents
                                                                                                  deviations increased by almost 17 percent compared to
                       a potential conflict. This includes the incorrect presence
                                                                                                  the prior year. We are working diligently with the aviation
                       of an aircraft, vehicle, or person on the protected area of a
                                                                                                  community to implement mitigations, raise awareness,
                       surface designated for the landing and takeoff of aircraft.
                                                                                                  and educate pilots, drivers and controllers on the risks of
                       Such an event can create dangerous situations that can
                                                                                                  runway incursions. Since many foreign air carriers operate
                       lead to serious accidents that potentially involve fatalities,
                                                                                                  within the United States, we also continue to support
                       injuries, and significant property damage.
                                                                                                  International Civil Aviation Organization (ICAO) runway
                       The FAA tracks the following two categories of most                        safety programs. These efforts will have a positive impact,
                       serious runway incursions:                                                 resulting in a reduced risk to the flying public.
                        nnCategory A — a serious incident in which a collision                    We are working to improve pilot training, checking,
                          was narrowly avoided.                                                   and testing. The Pilot’s Handbook of Aeronautical
                        nnCategory    B — an incident in which separation                         Knowledge has been updated to include a section on
                          decreases and there is a significant potential for                      runway incursion avoidance; the written and practical test
                          collision, which may result in a time-critical corrective/              standards have been and/or are in the process of being
                          evasive response to avoid a collision.                                  updated to include surface safety topic requirements;
                                                                                                  remedial training program has been established;
                       The reduction in the number and severity of runway
                                                                                                  Designated Pilot Examiner training is being updated;
                       incursions is one of the FAA’s top priorities. The FY 2012
                                                                                                  and the advisory circulars for taxi operations have been
                       preliminary estimate for the rate of Category A and B
                                                                                                  updated and will be published shortly.
                       runway incursions was 0.356, just below the established
                       end-of-year goal of 0.395 serious events per million of                    Our safety team will make surface safety a special
                       operations. We are currently meeting expectations for                      emphasis item for FY 2013 and require specific outreach
                       this indicator with 18 Category A&B runway incursion                       plans for controllers, pilots, airports, and airlines. These
                       surface events. As there are events pending assessment,                    plans will be based on event data and collaboration
                       we remain cautiously optimistic that we will meet the                      with the respective Regional Runway Safety Program
                       end-of-year limit. It is estimated the maximum number of                   Managers. We will continue to work to improve driver
                       Category A and B runway incursions allowed within the                      training through updated training requirements and
                       established rate limit is 20.                                              improved training course material. Advisory circulars
                                                                                                  for new technology have been and will be published to
                       This year, we requested and received updated action
                                                                                                  allow airport authorities to employ GPS and Automatic
                       plans describing steps to be taken to reduce runway




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                      45



                                                             Future initiatives in our plan to reduce runway incursions
                                                             include:

                                                             Runway Safety Council
                                                             nnBy 2013, reduce serious runway incursion rate by 25




                                                                                                                                                      PERFORMANCE RESULTS
                                                               percent.
                                                             nnBy  September 30, 2012, the Root Cause Analysis Team
                                                               will analyze and evaluate 17 serious runway incursions
                                                               and report the results and recommendations to the
                                                               Council.

                                                             Runway Safety Action Teams (RSAT)
                                                             nnSupport  Local RSAT meeting performed by Air Traffic
                                                               Facility Managers.
                                                             nnSupport       and conduct 200 outreach programs.

                                                             Runway Status Lights
                                                             nnBy the end of 2015, runway status lights will be
Dependent Surveillance-Broadcast (ADS-B) based                 operational at 23 airports.
technologies to improve driver situational awareness
and provide warning/alerting. We are working to revise       Low Cost Ground Surveillance (LCGS)
procedures at specific airports, improve controller          nnBy  December 30, 2012, conduct operational evaluation
training, and raise awareness through a quarterly              of LCGS at pilot sites.
mandatory bulletin.
                                                             We are committed to mitigating the risks of runway
Several years ago, the FAA held a Call to Action Safety      incursions. We continue our ongoing outreach,
Summit with aviation leaders from the FAA, the airlines,     education, and awareness programs to affected groups
airports, aerospace manufacturers, and the air traffic       through mass electronic mail communications, training
controller and pilot unions—who joined forces to address     animations, and a new webpage http://www.asias.
runway incursions. Following that forum, an intense          faa.gov/portal/page/portal/asias_pages/asias_home/
effort was launched to expedite the installation of new      welcome_tab.
technologies at airports, conduct outreach, retrain pilots
and improve airport infrastructure, such as lighting,                             Serious Runway Incursion Rate
signage, and markings.                                                                       Per million operations

                                                                            1.0
One of the latest technologies now in use is the Runway
Status Light System, which gives direct warnings to pilots                  0.8
about potential runway incursions or collisions through a
network of red lights embedded in the airfield pavement.                    0.6
The lights warn pilots when it is unsafe for a pilot to
                                                                     RATE




enter, cross, or proceed down a runway. Pilots must                         0.4
stop when the red lights are illuminated and may not
continue without clearance from air traffic control. These                  0.2

initiatives, combined with the Runway Safety Council’s
                                                                            0.0
efforts to identify and mitigate the root causes of runway                        FY 2007      FY 2008     FY 2009      FY 2010   FY 2011   FY 2012
                                                                        Actual       0.393       0.427       0.227       0.117     0.138     0.3561
incursions, are expected to reduce the rate of serious
                                                                        Target       0.530       0.509       0.472       0.450     0.450     0.395
runway incursions.                                                     Target
                                                                    Achieved?                                                            
                                                                 1 Preliminary estimate. Final result available January 2013.




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
46



                       System Risk Event Rate
                         Reduce risks in flight by limiting the rate of the most                 We ensure that aircraft flying within the National Airspace
                         serious losses of standard separation to 20 or fewer for                System (NAS) maintain required separation from each
                         every thousand (.02) losses of standard separation within               other. To control losses of separation, we need an
                         the National Airspace System.
PERFORMANCE RESULTS




                                                                                                 accurate picture of system safety performance. Until now,
                        FY 2012   Limit the rate of the most serious losses of standard          the agency measured a subset of system performance,
                        Target    separation to 20 or fewer for every thousand (.02)
                                                                                                 which limited our ability to identify risk.
                                  losses of standard separation within the National
                                  Airspace System.
                                                                                                 In FY 2012, with a preliminary result of 8.95, we did
                        FY 2012   8.95                                                           achieve our target of limiting the rate of the most serious
                        Result    (Preliminary estimate. Final result available January 2013.)
                                                                                                 losses of standard operation to 20 or fewer for every
                        Public    An increase in data reporting results in an increase in        thousand (.02) of standard separation within the NAS.
                        Benefit   safety. A similar approach (increased data collection from     The initial target of 20 was based on a projection of SRER
                                  pilots using the Aviation Safety Action Program) produced
                                  a dramatic decrease in the accident rate during the first      from historical Operational Error and Pilot Deviation data.
                                  part of the 21st century.                                      The target of 20 set for FY 2011 through FY 2014 will
                                                                                                 establish a baseline while deploying improved analysis
                                                                                                 and loss-detection equipment. It will set a minimum
                       The System Risk Event Rate (SRER), introduced in                          level of system performance that should be attainable,
                       FY 2011, is a Safety Management System-based approach                     while we continue to strive for an improving trend over
                       to separation loss mitigation. This measure incorporates a                historical performance.
                       risk analysis process developed, established and used by
                                                                                                 The SRER allows us to:
                       multiple international air navigation service providers. It will
                       improve analysis and increase our ability to mitigate risks               nnIncrease  the amount of data collected and analyzed for
                       associated with losses of separation. The SRER measure                       better understanding.
                       replaces the Operational Errors performance measure                       nnAlign  our approach to safety with that of our
                       which will continue to be tracked for one more year.                         international partners.
                                                                                                 nnIntegrate     pilot and controller performance data on all
                                                                                                    air traffic incidents.
                                                                                                 nnEvaluate  separation incidents caused by other factors,
                                                                                                    including pilot deviations.
                                                                                                 nnAvoid    underreporting and misclassification of incidents.

                                                                                                 Finally, this change will improve our ability to measure
                                                                                                 the system-wide safety performance of NextGen
                                                                                                 implementation. With this additional data we will be able
                                                                                                 to determine the safety impact of new NextGen air traffic
                                                                                                 procedures and technologies and, ultimately, to make
                                                                                                 decisions about reductions in separation standards.

                                                                                                                         System Risk Event Rate
                                                                                                   Rate of serious losses of standard separation per thousand losses
                                                                                                                      FY 2010               FY 2011               FY 2012
                                                                                                  Actual          This was a new              24.54                8.951
                                                                                                  Target            measure for                20                   20
                                                                                                                      FY 2011
                                                                                                  Target                                       ✘                    ✓
                                                                                                  Achieved?
                                                                                                   1 Preliminary estimate. Final result available January 2013.




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                              47



Information Security
 Ensure no cyber security event significantly degrades or               evolving cyber threat, the results of vulnerability scanning
 disables a mission-critical FAA system.                                activities, and the detailed information on FAA mission-
 FY 2012   Ensure no cyber security event significantly                 critical systems to provide an understanding of the




                                                                                                                                              PERFORMANCE RESULTS
 Target    degrades or disables a mission-critical FAA system.          business impact of a cyber-incident.

 FY 2012   Zero cyber security events.                                  The Cyber Security Management Center continues to
 Result
                                                                        work towards the goal of balancing the risks posed
 Public    The benefit to the public is a safe and secure National      by a cyber threat’s technical profile of threat and
 Benefit   Airspace System with no disruption of service due to cyber
                                                                        vulnerability against its operational profile of potential
           events.
                                                                        consequences, thereby providing ‘operational relevance’
                                                                        that clearly defines the impact of a threat within the
Attackers seek to disrupt or exploit critical infrastructure            customer’s realm of responsibility. In addition, the
across the United States. As identified by the President                Cyber Security Management Center participates in
in Homeland Security Presidential Directive-7 (HSPD-7),                 the Enterprise Network Operations Center) Working
critical infrastructure includes our transportation system.             Group and the Information Security and Privacy Working
Accordingly, the FAA must be protected against the                      Group by providing facilitation on organizational change
threat of cyber attack to achieve its mission of ensuring               management with respect to the cyber security mission.
the safe and efficient movement of aircraft. The Office
of Information Services (AIO) has the agency lead for                   Our Compliance Program meets Federal, departmental,
ensuring that these attacks do not significantly degrade                and agency policies that require the regular testing and
FAA mission-critical Lines of Business and Staff Office                 evaluation of information security policies, procedures,
systems.                                                                and practices. During FY 2012, we completed a
                                                                        comprehensive assessment of 72 security systems to
We averaged approximately 11.87 billion cyber events in                 ensure that policies were correctly implemented and
FY 2012, an average of 32.54 million per day. However,                  were providing full protection to FAA systems. We also
none of these events disabled or seriously degraded                     successfully completed 222 system assessments. For
FAA services. This is the seventh consecutive year we                   both types of assessments; we achieved a 100 percent
have met this goal. Enhanced situational awareness                      completion rate.
and cooperation throughout FAA Lines of Business
and Staff Office have contributed to the success of the                 The future of information security at the FAA includes
performance target. Other contributing factors include                  refinement of agency services, additional performance
frequent assessments of security configurations, enclave                measures clarification, and increased use of new
deployments, and scanning activities, which close                       technologies to protect the agency and the flying public.
operating system vulnerabilities before they may be
                                                                                               Information Security
exploited.
                                                                                         Number of cyber security events that
                                                                            significantly degrade or disable a mission-critical FAA system
The FAA has made positive strides in facilitating
                                                                                        FY        FY        FY       FY        FY       FY
collaboration between the FAA Lines of Business and                                    2007      2008      2009     2010      2011     2012
Staff Offices performing cyber security and network                      Actual          0         0        0         0         0        0
operations for the enterprise. In particular, the Cyber                  Target          0         0        0         0         0        0
Security Management Center collaborated with FAA
                                                                         Target         ✓         ✓         ✓        ✓         ✓        ✓
Lines of Business and Staff Offices to create a Risk                     Achieved?
Management Framework to enhance cyber operations.
This framework correlates the information about the




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
48



                       General Aviation Fatal Accident Rate
                         Reduce the general aviation fatal accident rate to no more               and safety programs, such as the Medallion Foundation,
                         than 1 fatal accident per 100,000 flight hours by 2018.                  the Circle of Safety program, the FAA Safety Team, the
                        FY 2012    Reduce the general aviation fatal accident rate to             Alaska Air Carriers Association, the Alaska Aviation Safety
PERFORMANCE RESULTS




                        Target     no more than 1.07 fatal accidents per 100,000 flight           Foundation, and the Alaska Airman’s Association.
                                   hours.
                                                                                                  Our General Aviation Joint Steering Committee (GAJSC)
                        FY 2012    1.10
                        Result     (Preliminary estimate. Final result available March 2014)      continues efforts to take a more focused, data-driven
                                                                                                  approach to understanding fatal accident causes and
                        Public     By tracking the rate of fatal accidents per flight hours,
                                                                                                  contributing factors. This is a government-industry group
                        Benefit    the FAA can more accurately pinpoint safety concerns or
                                   trends indicating potential safety concerns.                   that manages efforts to reduce fatal GA accidents. The
                                                                                                  GAJSC meets to review GA accident trends, establishing
                         This performance measure supports the DOT Agency Priority Goal, Reduce
                         Risk of Aviation Accidents.                                              areas for special emphasis, and sharing information.

                                                                                                  The FAA is working with manufacturers to define
                       The United States has the largest and most diverse                         equipage requirements and support NextGen by
                       general aviation (GA) community in the world. The more                     streamlining the certification and installation of NextGen
                       than 300,000 GA aircraft include amateur-built aircraft,                   technologies. The introduction of Automatic Dependent
                       rotorcraft, balloons, and highly sophisticated turbojets                   Surveillance-Broadcast (ADS-B) enhances GA pilots’
                       (executive jets). Reducing GA fatalities is one of our top                 awareness of other traffic and improves safety in areas
                       priorities. Our goal is to reduce the GA fatal accident rate               that radar cannot reach, such as Alaska and the Gulf of
                       by 10 percent over a 10-year period (2009-2018).                           Mexico. In addition, we continue to work with various
                                                                                                  members of the GA community to promote education
                       We did not meet the FY 2012 GA target. We finished
                                                                                                  and training on night landings, weather, and other areas
                       the year with a rate of 1.10 fatal accidents per 100,000
                                                                                                  of concern. Furthermore, the FAA will rely on GAJSC
                       flight hours. A disproportionate number of the
                                                                                                  for a data-driven approach, as well as focus on training
                       fatalities occurred in the area of experimental aircraft.
                                                                                                  initiatives, such as the Airmen Testing Standards and the
                       “Loss of Control” continues to be the leading cause,
                                                                                                  Training Aviation Rulemaking Committee.
                       accounting for about 70 percent of all fatal GA accidents.
                       Approximately 80 percent of fatal accidents are directly
                       related to human factors.                                                                     General Aviation Fatal Accident Rate
                                                                                                                          Fatalities per 100,000 flight hours
                       Experimental aircraft are mostly amateur-built. That is,
                                                                                                                1.20
                       they have been fabricated and assembled by people
                       who undertook the construction project solely for their
                       own education or recreation. These aircraft accounted                                    1.15

                       for approximately 27.8 percent of GA fatal accidents
                       in FY 2012 while only contributing to slightly under 4                                   1.10
                                                                                                         RATE




                       percent of GA hours.

                                                                                                                1.05
                       Many GA accidents occur in Alaska. More than three-
                       quarters of Alaskan communities have no access to
                       highways or roads and depend on general aviation for                                     1.00
                                                                                                                          FY 2009            FY 2010               FY 2011     FY 2012
                       access to food, mail, jobs, schools, medical services and                            Actual            1.17               1.10                  1.121       1.102
                       travel. However, the state’s topography and extreme                                  Target            1.11               1.10                  1.08        1.07
                                                                                                          Target
                       weather present unique safety challenges to pilots,                             Achieved?                                                                 
                       resulting in a relatively high number of accidents.                            1 Preliminary estimate. Final result available March 2013.
                                                                                                      2 Preliminary estimate. Final result available March 2014.

                       In FY 2012, we continued to work jointly with the Alaska
                       aviation community through a number of organizations




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                    49




 OBJECTIVE:            There are No Fatalities Resulting from Commercial Space Launches

Commercial Space Launch Accidents
                                                                         one inspection of launch operations at time of flight, and




                                                                                                                                                    PERFORMANCE RESULTS
 No fatalities, serious injuries, or significant property
 damage to the uninvolved public during licensed or                      multiple pre-flight inspections. In addition to inspections,
 permitted space launch and re-entry activities.                         our activities in support of FAA safety goals include
 FY 2012   No fatalities, serious injuries, or significant property      granting licenses and experimental permits, issuing
 Target    damage to the uninvolved public during licensed or            safety approvals, developing and issuing regulations,
           permitted space launch and re-entry activities.
                                                                         performing accident investigation and prevention
 FY 2012   Zero fatalities, serious injuries, or significant             activities, and supporting Federal range operations and
 Result    property damage                                               space traffic management.
 Public    The FAA’s oversight of the commercial space launch
 Benefit   industry activities resulted in no loss of life or property   In May 2012, we licensed the successful launch and
           damage to the uninvolved public.                              reentry of the Dragon capsule, built by SpaceX (Space
                                                                         Exploration Technologies). This demonstration mission
                                                                         showed that Dragon has the capacity to deliver critical
The FAA’s Office of Commercial Space Transportation was
                                                                         supplies to the International Space Station and return
established by Executive Order in 1984 and is the single
                                                                         safely to Earth. As for human space flight, the FAA and
entity with authority to regulate all commercial space
                                                                         NASA signed a historic Memorandum of Understanding
launch and re-entry activities. The Office of Commercial
                                                                         to coordinate standards for commercial space travel of
Space was established to:
                                                                         Government and non-Government astronauts to and
nnRegulate  the U.S. commercial space transportation                     from low Earth orbit and the International Space Station.
  industry, to ensure compliance with international                      Commercial providers will be required to obtain a license
  obligations of the United States, and to protect the                   from the FAA for public safety. Crew safety and mission
  public health and safety, safety of property, and                      assurance will be NASA’s responsibility. This approach
  national security and foreign policy interests of the                  allows both agencies to incorporate experience and
  United States.                                                         lessons learned in their respective areas as commercial
nnEncourage, facilitate, and promote commercial space                    space launches move forward.
  launches and reentries by the private sector.
                                                                         The first U.S. licensed launch was a suborbital launch
nnRecommend     appropriate changes in Federal statutes,
                                                                         of a Starfire vehicle on March 29, 1989. Since then,
  treaties, regulations, policies, plans, and procedures.
                                                                         we have licensed 208 launches without any fatalities,
nnFacilitate
           the strengthening and expansion of the                        serious injuries, or significant property damage. This
  United States space transportation infrastructure.                     record demonstrates both the industry’s and the agency’s
                                                                         commitment to safety. The expectation of the public is
In FY 2012, we met our target of zero fatalities, zero
                                                                         that this safety record will remain unfailingly consistent
serious injuries, and zero significant property damage
                                                                         and extraordinarily strong.
to the general public. The target was maintained with
three licensed launches, one licensed reentry, and zero
                                                                                      Commercial Space Launch Accidents
“permitted launches.” “Permitted launches” are test                           Number of fatalities, serious injuries, or significant property
launches conducted primarily for purposes of research                            damage during space launch and re-entry activities

and development.                                                                          FY        FY        FY        FY        FY        FY
                                                                                         2007      2008      2009      2010      2011      2012
Our internal safety activities played an important role in                Actual           0         0         0         0         0            0
achieving the target. These activities included conducting                Target           0         0         0         0         0            0
81 safety inspections this year. These inspections ensure                 Target          ✓         ✓         ✓         ✓         ✓         ✓
that licensees and permittees are adhering to regulatory                  Achieved?
requirements. Inspections include at least one annual
inspection at commercial launch site operations, at least




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
50




                        2      WORKPLACE OF CHOICE

                       We will create a workplace of choice marked by integrity, fairness, diversity, accountability, safety and
                       innovation. Our workforce will have the skills, abilities, and support systems required to achieve and sustain
PERFORMANCE RESULTS




                       NextGen.

                        FY 2012 WORKPLACE OF CHOICE PERFORMANCE MEASURES AND RESULTS
                                                                                                                      FY 2012    FY 2012   FY 2012     FY 2013
                        Performance Measure                                                                            Target    Result    Status       Target
                        FAA Ratings                                                                                    75%           TBD    TBD          75%
                         75th percentile rank in the Best Places to Work (BPTW) Index for Federal Agencies
                         Subcomponents. 1

                        Outside Ratings                                                                                90%           TBD    TBD         90%
                         Achieve a 90 percent success rate in the areas of financial management and human resources   success                          success
                         management. 1                                                                                  rate                             rate

                         1 Preliminary estimate. Result expected by November 30, 2012.                                ✓ Target met         ✘ Target not met




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                          51




 OBJECTIVE:           The FAA is Widely Recognized as an Employer of Choice

FAA Ratings
 The FAA is rated in the top 25 percent of places to work in         until such time as the 2012 results reports are released to




                                                                                                                                          PERFORMANCE RESULTS
 the federal government by employees.                                agencies and the PPS calculates and releases the BPTW
 FY 2012   75th percentile rank in the Best Places to Work           rankings Government-wide. As a government-wide survey
 Target    (BPTW) Index for Federal Agencies Subcomponents.          program, it is managed by OPM. Therefore, we have left
                                                                     the rating yellow pending the FY 2012 FAA survey results
 FY 2012   TBD
 Result    (Results expected by November 30, 2012)                   in the first quarter of FY 2013.

 Public    Improvements in Employee Viewpoint Survey results that    Although we do not have the FY 2012 rankings, we do
 Benefit   are used to calculate the BPTW rankings would indicate
                                                                     have statistics regarding the FAA response rate. In August
           that the FAA is managing its workforce better. Research
           indicates that improved employee survey results are       OPM released the final Government-wide response rate
           associated with higher organizational performance.        on the 2012 FedView survey. The 2012 Government-wide
                                                                     response rate was at 46 percent, down from the 49
The Workplace of Choice goal indicates that the FAA                  percent obtained in 2011. The 2012 DOT response rate on
will be an organization that supports its employees and              FedView was 62 percent, a decline from the 69 percent
provides them with the knowledge, skills, and abilities              rate in 2011. However, the final FAA 2012 FedView
that they need to accomplish the FAA mission. An                     response rate was 59 percent, the same response rate
important aspect of being a workplace of choice is for our           obtained by the agency in 2011 and a significant 13
employees to have a positive view of the FAA as a place              percentage points higher than the Government-wide
to work. The Best Places to Work (BPTW) index directly               average.
measures employees’ attitudes with respect to job and
                                                                     The Air Traffic Controller response rate improved from
organizational satisfaction.
                                                                     31 percent in 2011 to 41 percent in FY 2012, contributing
The BPTW index is used to rank Federal agencies. This                significantly to the response rate.
ranking is generally the most well publicized Federal
                                                                     Plans are underway to create a cross-agency action
Employee Viewpoint Survey (FedView) result. The Office
                                                                     learning team to address FAA FedView results and
of Personnel Management (OPM) administers the
                                                                     develop strategies and actions to improve the FAA’s
FedView Survey, maintains the database, and provides
                                                                     Fedview survey results and possible future ranking on the
the official results and reports for the entire Government
                                                                     BPTW index.
and individual agencies. The Partnership for Public Service
(PPS) obtains the FedView data from OPM and calculates
                                                                                                   FAA Ratings
the BPTW Index results and rankings.                                           The FAA is rated in the top 25 percent of places to work
                                                                                                              FY 2012
The 2012 FedView survey should be available in late
                                                                      Actual
November 2012. We will report final results in the FY 2012
                                                                      Target                   Results expected November 30, 2012.
Summary of Performance and Financial Information
                                                                      Target                     This is a new measure in FY 2012.
Report. There will be no change from the 2011 FAA
                                                                      Achieved?
FedView results or agency standing in the BPTW rankings




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
52



                       Outside Ratings
                         Achieve a 90 percent success rate in the areas of financial            We measure four indicators to determine if we have
                         management and human resources management.                             achieved a 90 percent success rate in the areas
                        FY 2012   Achieve a 90 percent success rate in the areas                of financial management and human resources
PERFORMANCE RESULTS




                        Target    of financial management and human resources                   management:
                                  management.
                                                                                                nnReceive an unqualified audit opinion with no material
                        FY 2012   TBD
                        Result    (Results expected by November 30, 2012)                          weaknesses each fiscal year.
                                                                                                    For FY 2012, we received an unqualified opinion
                        Public    The public benefits by being reasonably assured the agency
                        Benefit   is being operated in a transparent and fiscally responsible         on our consolidated financial statements, with
                                  manner and that our human resources management system               no material weaknesses, for the fifth consecutive
                                  is legally compliant with merit systems principles, adheres         year. An unqualified audit opinion signals to the
                                  to veterans’ preference rules and maintains an internal
                                                                                                      public and Congress that the agency is transparent
                                  system of accountability. The public also benefits by
                                  knowing that our human resource practices, programs and             and accountable in how it is using scarce taxpayer
                                  policies position us to compete for the best and brightest          resources. Achieving an unqualified audit with no
                                  talent to ensure a safe, efficient, and responsive air              material weaknesses requires, for example, every
                                  transportation system for the flying public.
                                                                                                      FAA organization to assume responsibility for
                                                                                                      following accounting policy by entering accurate
                       This performance measure demonstrates our success in                           and timely source data into the accounting system.
                       financial and human resources management as indicated
                                                                                                nnMaintain  the competitive status of all FAA employees
                       by assessments from outside sources. The Office of
                                                                                                   within the Federal personnel system.
                       Personnel Management (OPM) manages the FedView
                       process as part of the President’s efforts to improve                        An independent, biennial assessment and audit of
                       workforce engagement. Research by the Corporate                                the FAA’s personnel management system, policies
                       Leadership Council and other organizations has shown                           and practices by OPM are sources for this indicator.
                       that employee development and training has lasting                       nnImprovethe “effective leadership” index score on the
                       positive impacts on employee engagement as does                             OPM Employee Viewpoint Survey by 8 percent.
                       effective leadership. OPM has identified the Human                       nnImprove “thetalent management” index score on the
                       Capital Assessment and Accountability Framework                             OPM FedView by 8 percent.
                       (HCAAF) Leadership and Talent Management indices as
                       the FedView-based measures of those areas.                               The end-of-year result is computed by calculating the sum
                                                                                                of weighted scores for the four components. To achieve
                                                                                                a 90 percent success rate, the scores of the financial
                                                                                                management and human resources management
                                                                                                components must be perfect to contribute 40 percent
                                                                                                each of the total, while the index scores will be weighted
                                                                                                at 10 percent each.


                                                                                                                         Outside Ratings
                                                                                                    90 percent success rate in the areas of financial management
                                                                                                            and human resources management achieved
                                                                                                                                     FY 2012
                                                                                                 Actual
                                                                                                 Target               Results expected November 30, 2012.
                                                                                                 Target                 This is a new measure in FY 2012.
                                                                                                 Achieved?




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                            53




 3      DELIVERING AVIATION ACCESS THROUGH INNOVATION

Enhance the flying experience of the traveling public and other users by improved access to and increased
capacity of the nation’s aviation system. Ensure airport and airspace capacity are more efficient, predictable,




                                                                                                                                                            PERFORMANCE RESULTS
cost-effective and matched to public needs.

FY 2012 AVIATION ACCESS PERFORMANCE MEASURES AND RESULTS
                                                                                                                FY 2012    FY 2012    FY 2012     FY 2013
Performance Measure                                                                                              Target    Result     Status       Target
Air traffic control systems can improve the efficiency of airspace.                                                7            7       ✓            11
 By September 30, 2013, replace a 40-year old computer system serving 20 air traffic control centers
 with a modern, automated system that tracks and displays information on high altitude planes.
  Agency Priority Goal

Major Systems Investments                                                                                        90%           100%     ✓          90%
 In FY 2012, maintain 90 percent of major system investments within 10 percent variance of
 current acquisition program baseline (APB) total budget at completion. 1

LPV Procedures                                                                                                    500          536      ✓           500
 Publish 500 LPV or LP procedures in FY2012 to ensure Localizer Performance (LP) or Localizer
 Performance w/Vertical (LPV) procedures are available at 5,218 runways in the NAS.
 1 Preliminary estimate. SASO is under technical status review and could still exceed its baseline. This will   ✓ Target met          ✘ Target not met
   not affect achievement of the overall goal.




                         FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
54



                       Air Traffic Control Systems Can Improve
                       The Efficiency Of Airspace.
                         By September 30, 2013, replace a 40-year old computer                   While ERAM is needed to replace the aging legacy
                         system serving 20 air traffic control centers with a modern,            automation system infrastructure, it will also serve as a
                         automated system that tracks and displays information on
PERFORMANCE RESULTS




                                                                                                 platform for NextGen capabilities. ERAM will facilitate the
                         high altitude planes
                                                                                                 evolution of the National Airspace System to trajectory
                        FY 2012     Achieve initial operating capability at 7 centers by         based operations and will incorporate future NextGen
                        Target      September 30, 2012.
                                                                                                 capabilities.
                        FY 2012     7
                        Result                                                                   Site IOC preparation begins months in advance of the
                                                                                                 planned IOC date, and runs in parallel with National-level
                        Public      The En Route Automation Modernization System enables
                        Benefit     the Federal Aviation Administration to maximize its use of   planning activities. As the process advances, the site
                                    airspace by substantially increasing the number of flights   undertakes the following activities:
                                    that can be tracked and displayed simultaneously, as well
                                                                                                 nnTesting — Identify  issues and provide sufficient lead-
                                    as providing an enhanced back-up capability.
                                                                                                    time for the resolution of problems.
                         This performance measure is a DOT and FAA Priority Goal.
                                                                                                 nnTraining — Orient (initially and through refresher) the
                                                                                                    workforce to the new software.
                       The En Route Automation Modernization (ERAM) System
                                                                                                 nnProcedures — Review     and finalize locally maintained
                       replaces the 40-year-old “Central Computer Complex
                                                                                                    procedures in sufficient time to allow for development
                       HOST” used at Air Route Traffic Control Centers around
                                                                                                    of supplemental training and as a means to understand
                       the country to guide airplanes flying at high altitudes.
                                                                                                    adaptation requirements.
                       ERAM enables the FAA to maximize its use of airspace,
                                                                                                 nnAdaptation — Make    final, pre-IOC adjustments to
                       substantially increase the number of flights that can be
                       tracked and displayed, and enhance its back-up capability.                   locally adapted software parameters.

                       ERAM was originally planned to be completed by                            We plan to achieve IOC at the remaining 11 sites by the
                       December 2010. Due to several testing and implementation                  end of FY 2013. Following is the FY 2013 schedule:
                       challenges, the program was rebaselined in June 2011.                     nnFirstquarter FY 2013 — Kansas City , New York and
                                                                                                    Boston
                       We met our FY 2012 target to achieve initial operating
                                                                                                 nnSecond   quarter FY 2013 — Indianapolis, Washington,
                       capability (IOC) at seven sites. We had achieved IOC at
                                                                                                    Cleveland and Memphis
                       two sites by the end of FY 2011. As of September 30,
                                                                                                 nnThird   quarter FY 2013 — Fort Worth and Atlanta
                       2012, ERAM was operating in some capacity at nine
                       centers:                                                                  nnFourth     quarter FY 2013 — Jacksonville and Miami
                        nnSalt   Lake City, UT
                        nnSeattle, WA                                                                         Air Traffic Control Systems Can Improve
                                                                                                                     the Efficiency of Airspace
                        nnDenver,   CO                                                                        Replace a 40-year old computer system serving
                                                                                                                       20 air traffic control centers
                        nnAlbuquerque,       NM
                                                                                                                     FY 2010           FY 2011           FY 2012
                        nnMinneapolis,       MN                                                   Actual           This is a new          2                   7
                        nnChicago,      IL                                                        Target            measure in            2                   7
                                                                                                                     FY 2012
                        nnOakland,      CA                                                        Target                                  ✓                   ✓
                                                                                                  Achieved?
                        nnLos    Angeles, CA
                        nnHouston, TX




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                          55



Major Systems Investments
 Maintain 90 percent of major system investments within                process, for reporting progress made in the President’s
 10 percent variance of current baseline total budget at               budget and for making key program management
 completion.                                                           decisions. If a program breaches its acquisition budget




                                                                                                                                          PERFORMANCE RESULTS
 FY 2012   In FY 2012, maintain 90 percent of major system             baseline by 10 percent, the variance will be recorded
 Target    investments within 10 percent variance of current           in the fiscal year being measured and applied to the 90
           acquisition program baseline (APB) total budget at
                                                                       percent Major System Investments goal. The variance is
           completion.
                                                                       also reported to Congress in Appendix D of the FAA’s Five
 FY 2012   100%                                                        Year Capital Investment Plan and to the FAA Administrator
 Result    (Preliminary estimate)
                                                                       as required by Public Law 104.264, dated October 9, 1996.
 Public    The FAA’s ability to keep major investments within budget
 Benefit   goals will allow for the efficient management, completion   For FY 2012 there were 18 major baselined category 1, 2
           and transition to NextGen programs. The transition          and 3 programs. One program, the System Approach to
           to NextGen involves acquiring numerous systems to
           support precision satellite navigation, networked digital
                                                                       Safety Oversight (SASO) program, failed to stay within its
           communications, integrated weather information, and         schedule baseline. As a result, the program may have also
           layered, adaptive security.                                 exceeded its budget baseline. The budget baseline will
                                                                       be updated after completion of its technical status review
                                                                       in FY 2013. Even if SASO fails to stay within its budget
For FY 2012, we met our target by maintaining 90 percent
                                                                       baseline, the overall Major Systems Investment goal
(preliminary) of major system investments within 10
                                                                       would be met at 94%.
percent variance of the current acquisition program
baseline (APB) total budget at completion. A program is                                  Major Systems Investments
considered a major investment program when designated                     Maintain 90 percent of major system investments within budget
with an Acquisition Management System approved                                               FY 2011                     FY 2012
FAA Program Acquisition Category of 1, 2 or 3. The                      Actual         This is a new measure              100%
designation of “major system investments” in the title of               Target               for FY 2012                   90%
this performance measure refers to programs with total
                                                                        Target                                             ✓
Facilities and Equipment costs greater than $100 million.               Achieved?

FAA organizations track and report the status of all
investment acquisition program baseline targets using
an automated database. We use this data during periodic
program reviews for determining resource requests. The
status is also used during the annual budget preparation




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
56




                        OBJECTIVE:            Safety, Airport Infrastructure and Environmental Issues are Advanced
                                              and Leveraged by Full Utilization of NextGen Capabilities

                       LPV Procedures
PERFORMANCE RESULTS




                         Ensure Localizer Performance (LP) procedures are
                         available at 5,218 runways in the NAS by 2018.
                        FY 2012   Publish 500 LPV or LP procedures in FY 2012 to
                        Target    ensure Localizer Performance (LP) or Localizer
                                  Performance w/Vertical (LPV) procedures are
                                  available at 5,218 runways in the NAS.

                        FY 2012   536
                        Result

                        Public    Vertically guided approach procedures provide a safety
                        Benefit   benefit to all users compared to non-precision approach
                                  services. In addition because LPV or LP procedures can
                                  be published at any qualifying runway, users obtain a
                                  significant access benefit over ILS. As of July 2011, there
                                  are twice as many LPV/LP procedures than ILS.

                                                                                                The WAAS safety benefits derived primarily from vertical
                       Localizer Performance with Vertical guidance, or LPV,                    procedure guidance were achieved and increased airport
                       is a satellite-based system that provides the same                       access was achieved. Aircraft equipped to fly the LPV
                       navigational service as an Instrument Landing System                     procedures can get as low as 200 feet above the runway
                       (ILS). LPV is less expensive than an ILS because it doesn’t              using onboard instruments during periods of low visibility.
                       require any navigational equipment to be installed at the                With LPV, airports can maintain the same number of
                       runway.                                                                  arrivals during poor weather as during optimal weather.
                                                                                                Performance-based routes and procedures result in
                       This is a new measure for FY 2012. We met our FY 2012
                                                                                                shorter distances flown, which add up to both fuel and
                       target of publishing 500 LPV or LP procedures per year.
                                                                                                time savings. Safety is increased as air traffic operations
                       With over 3,000 procedures published, the target of 500
                                                                                                become more predictable. Environmental impacts are
                       procedures per year will very likely decrease in future
                                                                                                also reduced, not only with decreased emissions due to
                       years. No reduction in the performance metric is currently
                                                                                                lower fuel usage, but also noise reduction as aircraft are
                       planned; however, in the next few years as we get closer
                                                                                                able to perform continuous vertical descents.
                       to reaching the projected ~5000 Wide Area Augmentation
                       System (WAAS) procedure end-state, it will become
                                                                                                                         LPV Procedures
                       increasingly difficult to qualify the remaining runways due
                                                                                                          Ensure Localizer Performance (LP) procedures are
                       to less conducive obstruction environments and lesser                                       available at runways in the NAS
                       airport infrastructure, i.e. in other words, we’ve picked                                       FY 2011                    FY 2012
                       the runway ends for which we had higher confidence for                    Actual         This is a new measure               536
                       qualifying for WAAS procedures early in the production                    Target               for FY 2012                   500
                       run leaving the less promising runways for the end of the                 Target                                              ✓
                       production run.                                                           Achieved?




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                          57




 4      SUSTAINING OUR FUTURE

To develop and operate an aviation system that reduces aviation’s environmental and energy impacts to a
level that does not constrain growth and is a model for sustainability.




                                                                                                                                          PERFORMANCE RESULTS
FY 2012 SUSTAINING OUR FUTURE PERFORMANCE MEASURES AND RESULTS
                                                                                              FY 2012    FY 2012    FY 2012     FY 2013
                                       Performance Measure                                     Target    Result     Status       Target
Noise Exposure                                                                                386,000    319,9011     ✓         371,000
 Reduce the number of people exposed to significant aircraft noise to less than 386,000 in
 calendar year 2012.

NAS Energy Efficiency                                                                         -14.00%    -14.76%      ✓         -16.00%
 Improve aviation fuel efficiency by 14 percent, as measured by the calendar year 2011 fuel
 burned per revenue mile flown, relative to the calendar year 2000 baseline.
1 Preliminary estimate based on Terminal Area Forecast operations for 2012.                   ✓ Target met          ✘ Target not met
  Final estimate based on actual 2012 operations will be available in May 2013.




                      FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
58




                        OBJECTIVE:           Community Noise Concerns are Not a Significant Constraint on Growth


                       Noise Exposure
PERFORMANCE RESULTS




                         The U.S. population exposed to significant aircraft noise            of aircraft noise to which people are exposed, focused
                         around airports has been reduced to less than 300,000                research could improve our scientific knowledge base of
                         persons.                                                             the extent of impacts and appropriate mitigation below
                        FY 2012   Reduce the number of people exposed to significant          historically defined significant noise levels.
                        Target    aircraft noise to less than 386,000 in calendar year
                                  2012.                                                       In FY 2009, we partnered with NASA to develop the
                        FY 2012   The number of people exposed to significant noise           Continuous Lower Energy, Emissions, and Noise (CLEEN)
                        Result    was reduced by 34.66% from the calendar year 2005           program. The goal of this five-year program is to introduce
                                  to 319,901 persons.                                         CLEEN technologies into production aircraft in the 2015-
                                  (Preliminary estimate based on Terminal Area
                                                                                              2017 timeframe.
                                  Forecast operations for 2012. Final estimate based on
                                  actual 2012 operations will be available in May 2013.)
                                                                                              NextGen technologies and our many noise mitigation
                        Public    Public benefit is reduced exposure to unwanted aircraft     approaches allow us to make significant improvements in
                        Benefit   noise and increased capacity, reducing airport congestion
                                                                                              aviation noise exposure. We continue to pursue a program
                                  and delays.
                                                                                              of aircraft noise control, in cooperation with the aviation
                                                                                              community and local governments, through source noise
                       The number of people in the United States who are                      reduction, soundproofing, buyouts of homes and other
                       exposed to significant aircraft noise has dropped by 90                noise-sensitive buildings near airports, operational flight
                       percent since 1975. Yet noise remains a predominant                    control measures, and land use planning strategies. In
                       aviation environmental concern of the public and one of                FY 2012, we committed an additional $186 million in
                       the primary environmental obstacles to expanding airport               Airport Improvement Program grants to support noise
                       and airspace capacity. By mitigating and reducing exposure             compatibility planning and noise mitigation initiatives.
                       to excessive noise, we can help communities increase
                       capacity at their airports by building additional runways. In
                                                                                                                                  Noise Exposure
                       FY 2012, we met our target to reduce noise exposure.
                                                                                                                 Cumulative percentage reduction from baseline

                       Air carrier fleet and operational changes have driven                                  500,000

                       the significant reduction in noise exposure since the
                       base year of 2005. Carriers continue to retire older, less
                       fuel-efficient aircraft that tend to produce more noise. In                            400,000
                                                                                                 POPULATION




                       addition, passenger demand continues to be well below
                       2005 levels, resulting in decreased air traffic. These
                       programs help foster the type of fleet and performance                                 300,000
                       change required to meet our current target.

                       The persistence of significant levels of aircraft noise in
                                                                                                              200,000
                       communities around airports is the major impact, but                                             FY 2008     FY 2009        FY 2010        FY 2011        FY 2012
                                                                                                              Actual1   383,465      291,768        317,596       315,293        319,9012
                       not the only one. There are increasing concerns in areas                               Target    455,000      436,000        419,000       402,000        386,000
                       of moderate noise exposure and public complaints from                                 Target
                                                                                                          Achieved?                                                               
                       suburban and rural areas where ambient noise is lower.
                                                                                                 1 For FY 2012, targets and results were changed from percent of population exposed to the
                       At noise exposure levels below those involving health and                   number of persons exposed. The targets and results for FY 2008–FY 2011 were
                                                                                                   recalculated from the original percentages. In July 2012, the results for FY 2008–FY 2010
                       welfare concerns, there are also sensitivities with respect                 were revised to reflect newly acquired data on the number of people relocated through
                                                                                                   the Airport Improvement Program.
                       to national resources such as national parks. While                       2 Preliminary estimate based on Terminal Area Forecast operations for 2012. Final estimate
                       techniques and tools for measuring and modeling noise                       based on actual 2012 operations will be available in May 2013.

                       exposure provide a reliable means of assessing the levels




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                59




 OBJECTIVE:            Aviation Emissions Do Not Contribute to Significant Adverse Health
                       Impacts

NAS Energy Efficiency




                                                                                                                                                PERFORMANCE RESULTS
 Improve NAS energy efficiency (fuel burned per miles                      Our FY 2012 performance demonstrates continued
 flown) by at least 2 percent annually.                                    progress in maintaining efficiency of commercial
 FY 2012   Improve aviation fuel efficiency by 14%, as measured            aircraft operations within the airspace system, thereby
 Target    by the calendar year 2011 fuel burned per revenue               minimizing environmental impact.
           mile flown, relative to the calendar year 2000 baseline.
                                                                           A combination of factors is responsible for our meeting
 FY 2012   -14.76%
 Result                                                                    our target. Better aircraft fleet performance, low air traffic
                                                                           growth, and air traffic management of the airspace system
 Public    Today‘s aircraft are up to 70 percent more efficient than
                                                                           all contributed to our success. Aircraft fleet performance
 Benefit   early commercial jet aircraft. However there is growing
           concern over aviation‘s impact on the environment               is still improving due to efforts by airlines to minimize use
           and public health. Aviation is currently viewed as a            of aircraft that are less efficient. Air traffic growth has not
           relatively small contributor to those emissions that have       yet returned to the levels previously seen. Therefore, from
           the potential to influence air quality and global climate.
           Carbon dioxide (CO2) emissions are a primary greenhouse
                                                                           a system standpoint, there is less likelihood of delays
           gas and are directly related to the fuel burned during the      and congestion, which would influence this performance
           aircraft‘s operation. As air traffic grows, this contribution   measure in a negative manner.
           will increase without improvements in technology, more
           efficient air traffic operations, and renewable fuels.          The air traffic modernization planned under NextGen
                                                                           should further improve efficiency by reducing delays
This metric supports improvements to reduce aviation‘s                     and enabling more direct routings. Sustainable practices
impact on the environment and thereby improve public                       by airport operators can conserve energy, make use of
health and welfare. In addition, more fuel efficient aircraft              renewable resources (solar, wind, geothermal), and deploy
should contribute to improving the financial well-being of                 low emission vehicles and ground support equipment.
commercial airlines and a growing economy.

The aircraft energy efficiency improvement over the last
20 years has outpaced other forms of transportation in
the United States. Notwithstanding this success, there
is renewed emphasis on improving the fuel efficiency of
the aviation system. Fuel currently represents the largest
operating cost for U.S. airlines, and this cost category has
grown dramatically in recent years.

Measuring and tracking fuel efficiency from aircraft
operations allows the FAA to monitor improvements in
aircraft/engine technology and operational procedures,
and enhancements in the airspace transportation system.
This metric provides an assessment of their influence
on reducing aviation’s emissions contribution. With a                      Under FAA’s Continuous Lower Energy, Emissions and Noise
                                                                           (CLEEN) Program, Boeing developed the Ceramic Matrix
result of -14.76%, the FAA exceeded the FY 2012 energy                     Composite (CMC) acoustic engine nozzle to reduce fuel burn,
efficiency target as measured by the calendar year 2011                    emissions and noise. CMC material (shown as white color)
                                                                           allows operation at higher temperatures, leading to more efficient
rate of fuel burned per revenue mile flown, relative to the                engines. The CMC nozzle and center body above are instrumented
calendar year 2000 baseline.                                               for ground tests on a Trent 1000 engine, scheduled for December
                                                                           2012. (Image courtesy of Boeing.)




                     FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
60



                       Moreover, advances in the development of sustainable                                  jet fuel with no changes to existing engines, aircraft,
                       alternative fuels offer great promise for emissions                                   ground infrastructure, and supply equipment. Alternative
                       reduction. Nearly 100 percent of the fuel used in aviation                            fuel options that use plant oils, sugars, or cellulose
                       operations is petroleum based—raising issues of energy                                from plants have the potential to dramatically reduce
                       supply, energy security, and fossil fuel emissions                                    carbon dioxide emissions, if produced in a sustainable
PERFORMANCE RESULTS




                       affecting air quality and climate. In response to these                               manner. Generally, all alternative aviation fuel options
                       multiple concerns, government and the aviation industry                               appear to reduce particulate matter emissions in engine
                       have a strong interest in “drop in” alternative aviation                              exhausts—a cause of respiratory ailments, although not
                       fuels that can be blended with or replace petroleum                                   unique to aviation as a source.


                                                                          NAS Energy Efficiency

                                      0



                                     -5
                                          BASELINE YEAR




                                    -10



                                    -15



                                    -20
                                          2001            2002    2003    2004   2005   2006   2007   2008   2009   2010   2011   2012
                                 Actual   Base            -5.15   -7.01   -9.85 -12.00 -13.73 -13.87 -13.52 -14.03 -15.25 -14.50 -14.76
                                 Target   Base               -1      -2      -3     -4     -7     -7      8     -9    -10    -12    -14
                                 Target
                              Achieved?                                                                              




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                  61




 5      IMPROVED GLOBAL PERFORMANCE THROUGH COLLABORATION

Achieve enhanced safety, efficiency, and sustainability of aviation around the world. Provide leadership in
collaborative standard setting and creation of a seamless global aviation system.




                                                                                                                                                  PERFORMANCE RESULTS
 FY 2012 GLOBAL PERFORMANCE MEASURES AND RESULTS
                                                                                                      FY 2012     FY 2012   FY 2012     FY 2013
 Performance Measure                                                                                   Target     Result    Status       Target
 World-wide Fatal Aviation Accidents                                                                     20           101      ✓           20
  In FY 2012, limit world-wide fatal accidents in Part 121-like operations to no more than 20 fatal
  accidents per million revenue aircraft departures.
 1 Final numbers for 2012 will be available when ICAO updates their worldwide departure data           ✓ Target met         ✘ Target not met
   in July 2013.




 OBJECTIVE:               Reduce Aviation Accidents and Fatalities World-wide

World-wide Fatal Aviation Accidents
 World-wide fatal aviation accident rate declines 10                                or diverging approaches to legislative and regulatory
 percent compared to 2010.                                                          requirements affecting civil aviation safety. Many such
 FY 2012     In FY 2012, limit world-wide fatal accidents in Part                   factors beyond the direct influence of the FAA or of the
 Target      121-like operations to no more than 20 fatal accidents                 aviation community can influence results.
             per million revenue aircraft departures.
                                                                                    Increased public confidence in air transportation world-
 FY 2012     10
 Result      (Preliminary result. Final result available July 2013)                 wide will result in an increase in passenger traffic.
                                                                                    FAA recognition as a global leader allows for greater
 Public      The public will benefit from safer travel on foreign air
                                                                                    influence to achieve U.S. safety goals in the international
 Benefit     carriers and from the economic contributions of a safe
             international aviation system.                                         arena. Further, oversight authorities including the
                                                                                    Office of Inspector General (OIG) and the Government
                                                                                    Accountability Office (GAO) continue to request detailed
A safe, efficient, and seamless aviation system is the                              documentation of performance measure results from
ultimate goal of international air transportation. It is also                       external sources. These Internal Data Verification
the driver of economic growth and expansion, opportunity                            Review reports continue to demonstrate that the FAA is
and development.                                                                    committed to global safety and aviation excellence. Our
                                                                                    leadership in achieving enhanced safety around the world
In FY 2012 we established a performance metric that
                                                                                    is reflected in the following collaborative efforts:
tracks aviation-related fatalities around the world. With a
                                                                                    nnA   bilateral agreement with the FAA and European
preliminary result of 10, it appears that we will achieve
our target to limit world-wide fatal accidents in Part                                  Aviation Safety Agency completed the Maintenance
121-like (commercial aviation) operations to no more than                               Annex Guide describing compliance procedures.
20 fatal accidents per million revenue-earning aircraft                             nnA   Bilateral Aviation Safety Agreement, the
departures.                                                                             Implementing Procedure for Airworthiness, was
                                                                                        concluded with India describing procedures for
Achieving a consistent level of safety in global air                                    reciprocal acceptance of airworthiness approvals and
transport is a challenge. Many countries and regions                                    certain design approvals.
around the world have competing priorities, insufficient
resources, unstable political and economic environments,




                       FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
62



                       The FAA’s Office of Aviation Safety takes the lead by:          oversight of their air carriers serving the United States
                        nnBeing  a founding member of the Safety Management            in accordance with ICAO standards.
                          International Collaboration Group to promote a            nnThe   FAA’s International Aviation Safety Data Exchange
                          common understanding of safety management                    Program continues efforts to exchange inspection
                          principles, requirements, and their application across       data with partner states to facilitate a cooperative
PERFORMANCE RESULTS




                          the international aviation community. This group             approach to trend analysis and corrective action among
                          supports ICAO in driving the direction of safety             international air carriers.
                          management worldwide.
                                                                                    Continued close and consistent collaboration with other
                        nnBeing an active member of the International Volcanic
                                                                                    countries, at the regional and national levels, has resulted
                          Ash Group providing technical guidance on volcanic
                                                                                    in improvements in addressing operational and aircraft
                          ash contingency plans and operational response for
                                                                                    performance issues. Such collaboration is critical to the
                          volcanic ash contaminated airspace.
                                                                                    FAA’s efforts to ensure the highest levels of aviation
                        nnBeing  an active member of the Regional Aviation          safety throughout the world.
                          Safety Groups and Teams for both Asia Pacific and
                          Latin America, with the goal of assisting in risk
                                                                                                    World-wide Fatal Aviation Accidents
                          reduction activities using proven safety enhancements               No more than 20 fatal accidents per million departures
                          developed by the Commercial Aviation Safety Team                                      FY 2011                         FY 2012
                          (CAST).
                                                                                     Actual                                                       101
                        nnDevoting  senior-level engagement to strengthen bonds                        This is a new measure
                                                                                     Target                                                       20
                          with well-established parties in Europe, North America,    Target
                                                                                                            for FY 2012.
                                                                                                                                                  ✓
                          and Asia Pacific.                                          Achieved?
                                                                                      1 Preliminary result. Final result available July 2013.
                       In addition:
                        nnThe FAA’s International Aviation Safety Assessment
                          Program ensures Civil Aviation Authorities provide




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                  63




       FY 2011 PERFORMANCE MEASURES AND RESULTS—
 
       FINAL DATA WAS NOT AVAILABLE IN FY 2011

The following FY 2011 performance measures were not carried over to Destination 2025. The final FY




                                                                                                                                                  PERFORMANCE RESULTS
2011 data for these measures were not available in time for publication in the FY 2011 Performance and
Accountability Report. The FY 2011 results are presented below.


DISCONTINUED FY 2011 PERFORMANCE MEASURES AND RESULTS
                                                                                                       FY 2011        FY 2011           FY 2011
Performance Measure                                                                                     Target        Result            Status
Alaska Accident Rate                                                                                     1.84           1.431             ✓
 By the end of FY 2019 reduce the Rate of Fatal and Serious Injury Accidents by 10% in 10
 Years.

Total Runway Incursion                                                                                   959             954              ✓
 By the end of FY 2013, reduce total runway incursions by 10% to 909 from the FY 2008 baseline
 number of 1009.

Average Daily Airport Capacity                                                                          86,606         87,338             ✓
(Core Airports)
 Achieve an average daily airport capacity for the Core Airports of 86,606 arrivals and
 departures per day by FY 2011 and maintain through FY 2013.

Average Daily Airport Capacity                                                                          39,484         42,824             ✓
(7 Metro Areas)
  Achieve an average daily airport capacity for the seven major metropolitan areas of 39,484
  arrivals and departures per day by FY 2009, and maintain through FY 2013.

Adjusted Operational Availability                                                                      99.70%          99.72%             ✓
 Sustain adjusted operational availability at 99.70% for the reportable facilities that support the
 Core Airports through FY 2013.

NAS On-Time Arrivals                                                                                   88.00%          90.41%             ✓
 Achieve a NAS on-time arrival rate of 88.00% at the Core Airports and maintain through FY
 2013.
 1 Preliminary estimate. Final results will be available March 2013.                                  ✓ Target met   ✘ Target not met




                      FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
64




                       QUALITY ASSURANCE

                       VERIFICATION AND VALIDATION OF                               To supplement the Portfolio of Goals, the agency
                                                                                    conducts its own annual internal review of the verification
PERFORMANCE RESULTS




                       PERFORMANCE INFORMATION
                                                                                    processes used by all FAA organizations responsible for
                       We employ strong management controls to ensure
                                                                                    collecting and reporting performance data. The agency’s
                       the accuracy, completeness, and timely reporting of
                                                                                    full understanding of these processes allows it to provide
                       performance data. By exercising rigorous internal and
                                                                                    complete and definitive documentation of results as
                       external reviews, the FAA verification and validation
                                                                                    required by auditors at the end of the year.
                       process supports the confidence of agency managers and
                       the Administrator in the performance results.
                                                                                    PROGRAM EVALUATIONS
                       In addition to FAA internal verification reviews, the
                                                                                    Program evaluation is a major element of the Government
                       DOT independently verifies performance data. Also,
                                                                                    Performance and Results Modernization Act of
                       the incidents that are included in several FAA safety
                                                                                    2010. The statute calls for agencies to use program
                       performance measures such as the Commercial
                                                                                    evaluations to assess the manner and extent to which
                       Air Carrier Fatality Rate and General Aviation Fatal
                                                                                    Federal programs achieve intended objectives. While
                       Accident Rate-require independent verification by the
                                                                                    performance measures use statistics to show whether
                       National Traffic Safety Board (NTSB) and the Bureau of
                                                                                    the FAA has achieved its intended outcomes, program
                       Transportation Statistics. Data for these measures are not
                                                                                    evaluations use analytical techniques to assess the
                       considered final until the NTSB completes its report on
                                                                                    extent to which programs contributed to their desired
                       each incident.
                                                                                    outcomes and trends. Understanding the results of these
                                                                                    program evaluations enables us to initiate actions to
                       COMPLETENESS AND RELIABILITY                                 improve program performance. Program evaluations or
                       OF PERFORMANCE DATA                                          assessments are conducted by contractors, academic
                       The internal review processes supports the integrity of      institutions, the OIG, and the GAO.
                       performance data. At the beginning of each fiscal year,
                                                                                    Several of our FY 2012 program evaluations are described
                       we update the Portfolio of Goals, a clearinghouse for
                                                                                    in detail in the Summary of Inspector General’s Top
                       accurate and detailed documentation of Destination 2025
                                                                                    Management Challenges beginning on page 121 of
                       performance measures. An exhaustive report includes
                                                                                    the Other Accompanying Information section. These
                       technical definitions for each measure, as well as data
                                                                                    evaluations include:
                       source information, statistical issues, and completeness
                                                                                    nnManaging the Next Generation Air Transportation
                       and reliability statements. Where the criteria for targets
                       have changed, it is noted and the changes are explained.       System Advancement (page 127)
                       (See http://www.faa.gov/about/plans_reports/media/           nnManaging    DOT Acquisitions (page 130)
                       FY12_POG.pdf to review the FY 2012 Portfolio of Goals.)      nnImproving the Department’s Cyber Security
                                                                                      (page 131).




                      PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           65




                                                                                           PERFORMANCE RESULTS




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
66




     FINANCIAL
      RESULTS
                                                                                                                    67




                            A MESSAGE FROM




                                                                                                                    FINANCIAL RESULTS
                            THE CHIEF FINANCIAL OFFICER
                            The Federal Government is facing a period of significant budget uncertainty. We are
                            all being asked to do more with less. However, we remain committed in our efforts
                            to meet the American people’s expectations and accomplish our mission in the most
                            efficient and effective manner possible.

                            To date, the FAA has successfully managed to strike the optimal balance between
                            maintaining the Nation’s aviation infrastructure while deploying the capabilities
                            needed to advance NextGen. However, a key challenge, as noted by the DOT
      MARK HOUSE
                            Inspector General, will be setting realistic plans, budgets, and expectations for
CHIEF FINANCIAL OFFICER
                            NextGen in a fiscally constrained environment. But we will always maintain our focus
                            on safety.

                            Over the past several years, the FAA has implemented effective cost reduction
                            efforts such as concentrating purchasing power; consolidating information
                            technology resources; strengthening the management of capital programs through
                            the establishment of a dedicated Program Management Office; and reducing travel
                            and support contracts. Using solid financial management practices, the FAA has kept
                            non-payroll costs essentially flat since 2008.

                            The FAA has also established a new shared services organization, the Office of
                            Finance and Management. Shared services is a business model in which internal
                            support services, such as financial management, acquisitions, and information
                            technology, are consolidated. Over the next few years, we will standardize these
                            services to optimize cost and service performance.

                            I am pleased to report that we achieved an unqualified audit opinion with no material
                            weaknesses on our FY 2012 financial statements. Additionally, for the eighth time,
                            the Association of Government Accountants (AGA) awarded us the Certificate of
                            Excellence in Accountability Reporting (CEAR), their highest form of recognition in
                            Federal Government financial and performance management reporting. The FAA won
                            the award for superior work on the FY 2011 Performance and Accountability Report.




             FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
68
FINANCIAL RESULTS




                                                   The agency also earned a Best In Class award from AGA for producing the best
                                                   agency FY 2011 Summary of Performance and Financial Information.

                                                   The FAA has adopted cross-cutting approaches to achieving common agency goals.
                                                   We have managed key programmatic, operational, and financial indicators to ensure
                                                   that we provide the safest aviation system in the world. We will continue to do this
                                                   with the professionalism and fiscal integrity that has come to characterize the FAA.




                                                   Mark House
                                                   Chief Financial Officer
                                                   November 9, 2012




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           69




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
70
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           71




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
72
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           73




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
74
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           75




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
76
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           77




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
78
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           79




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
80
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           81




                                                                                           FINANCIAL RESULTS




                      This page intentionally left blank.




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
82
FINANCIAL RESULTS




                                                          This page intentionally left blank.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                           83




FINANCIAL STATEMENTS
                                                       U.S. Department of Transportation
                                                FEDERAL AVIATION ADMINISTRATION




                                                                                                                                                           FINANCIAL RESULTS
                                             CONSOLIDATED BALANCE SHEETS
                                                                As of September 30
                                                               (Dollars in Thousands)


Assets                                                                                                        2012                                2011
Intragovernmental
   Fund balance with Treasury (Note 2)                                                          $       3,085,202                   $       3,724,592
   Investments, net (Note 3)                                                                           12,331,464                          10,335,745
   Accounts receivable, prepayments, and other (Note 4)                                                   240,254                             187,429
Total intragovernmental                                                                                15,656,920                          14,247,766

  Accounts receivable, prepayments, and other, net (Note 4)                                                47,949                              82,692
  Inventory, operating materials, and supplies, net (Note 5)                                              632,320                             607,160
  Property, plant, and equipment, net (Notes 6 and 9)                                                  13,442,573                          13,114,738
Total assets                                                                                    $      29,779,762                   $      28,052,356

Liabilities
Intragovernmental liabilities
   Accounts payable                                                                             $          15,656                   $           13,597
   Employee related and other (Note 8)                                                                    425,300                              405,960
Total intragovernmental liabilities                                                                       440,956                              419,557

  Accounts payable                                                                                        417,445                              524,154
  Grants payable                                                                                          640,646                              653,432
  Environmental (Note 7, 15, and 16)                                                                      810,399                              757,389
  Employee related and other (Notes 8, 9, and 16)                                                       1,121,798                            1,154,414
  Federal employee benefits (Note 10)                                                                     946,778                              909,616
Total liabilities                                                                                       4,378,022                            4,418,562

  Commitments and contingencies (Notes 9 and 16)

Net position
  Unexpended appropriations—earmarked funds (Note 12)                                                   1,037,316                            1,088,171
  Unexpended appropriations—other funds                                                                    31,225                               65,775
  Subtotal unexpended appropriations                                                                    1,068,541                            1,153,946

  Cumulative results of operations—earmarked funds (Note 12)                                           14,859,763                          12,873,270
  Cumulative results of operations—other funds                                                          9,473,436                           9,606,578
  Subtotal cumulative results of operations                                                            24,333,199                          22,479,848

Total net position                                                                                     25,401,740                          23,633,794
Total liabilities and net position                                                              $      29,779,762                   $      28,052,356

                                                                                        The accompanying notes are an integral part of these statements.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
84



                                                                     U.S. Department of Transportation
                                                               FEDERAL AVIATION ADMINISTRATION
                                                        CONSOLIDATED STATEMENTS OF NET COST
                                                                    For the Years Ended September 30
                                                                          (Dollars in Thousands)
FINANCIAL RESULTS




                                                                                                                      2012                                2011
                      Line of Business programs (Note 11)
                         Air Traffic Organization
                         Expenses                                                                        $     11,439,702                   $      11,834,055
                         Less earned revenues                                                                    (281,226)                           (282,672)
                         Net costs                                                                             11,158,476                          11,551,383

                        Aviation Safety
                        Expenses                                                                                1,422,325                            1,340,034
                        Less earned revenues                                                                      (12,016)                             (11,402)
                        Net costs                                                                               1,410,309                            1,328,632

                        Airports
                        Expenses                                                                                3,139,685                            3,388,712
                        Less earned revenues                                                                          (86)                                 (21)
                        Net costs                                                                               3,139,599                            3,388,691

                        Commercial Space Transportation
                        Expenses                                                                                    18,400                              16,564
                        Net costs                                                                                   18,400                              16,564

                      Non Line of Business programs
                        Regions and center operations and other programs
                        Expenses                                                                                   783,696                             820,051
                        Less earned revenues                                                                      (379,320)                           (416,593)
                        Net costs                                                                                  404,376                             403,458

                      Net cost of operations
                        Total expenses                                                                         16,803,808                          17,399,416
                        Less earned revenues                                                                     (672,648)                           (710,688)
                      Total net cost                                                                     $     16,131,160                   $      16,688,728

                                                                                                The accompanying notes are an integral part of these statements.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                               85



                                                       U.S. Department of Transportation
                                               FEDERAL AVIATION ADMINISTRATION
                         CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                                                      For the Years Ended September 30
                                                            (Dollars in Thousands)




                                                                                                                                                               FINANCIAL RESULTS
                                                                                  UNEXPENDED APPROPRIATIONS
                                                                  2012                                                        2011
                                           Earmarked        Other funds                Totals           Earmarked         Other funds            Totals


Beginning balances                        $ 1,088,171      $       65,775         $   1,153,946        $ 1,151,893       $    207,341       $   1,359,234

Budgetary financing sources
  Appropriations received (Note 14)          4,592,701                 —               4,592,701           4,974,028                —            4,974,028
  Appropriations transferred-in/out              14,082                —                   14,082               9,240               —                 9,240
  Rescissions, cancellations and other          (58,748)               —                  (58,748)            (75,067)              —               (75,067)
  Appropriations used                       (4,598,890)           (34,550)            (4,633,440)         (4,971,923)         (141,566)         (5,113,489)

  Total budgetary financing sources            (50,855)           (34,550)               (85,405)            (63,722)         (141,566)           (205,288)

Ending balances                           $ 1,037,316      $       31,225         $    1,068,541       $ 1,088,171       $      65,775      $    1,153,946



                                                                                CUMULATIVE RESULTS OF OPERATIONS
                                                                  2012                                                        2011
                                           Earmarked           Other funds             Totals           Earmarked         Other funds            Totals


Beginning balances                        $ 12,873,270     $ 9,606,578            $ 22,479,848         $ 11,576,024      $ 10,155,438       $ 21,731,462

Budgetary financing sources
  Appropriations used                       4,598,890              34,550              4,633,440          4,971,923           141,566            5,113,489
  Non-exchange revenue—excise
     taxes and other (Note 12)             12,777,130              24,456             12,801,586         11,754,809             31,844          11,786,653
  Transfers-in/out without
     reimbursement                            (199,016)                  (16)           (199,032)           (158,171)                (15)         (158,186)

Other financing sources
  Donations and forfeitures of property             —             156,817                156,817                  —                  —                    —
  Transfers-in/out without
     reimbursement                            (951,817)         1,021,572                  69,755           (793,400)         789,166                (4,234)
  Imputed financing from costs
     absorbed by others (Note 13)             489,032               63,112               552,144            656,596              67,776            724,372
  Other                                           (37)             (30,162)               (30,199)              325             (25,305)            (24,980)
  Total financing sources                  16,714,182           1,270,329             17,984,511         16,432,082          1,005,032          17,437,114

Net cost of operations                     14,727,689           1,403,471             16,131,160         15,134,836          1,553,892          16,688,728

Net change                                  1,986,493            (133,142)             1,853,351          1,297,246           (548,860)            748,386

Ending balances                           $ 14,859,763     $ 9,473,436            $ 24,333,199         $ 12,873,270      $ 9,606,578        $ 22,479,848
                                                                                           The accompanying notes are an integral part of these statements.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
86



                                                                           U.S. Department of Transportation
                                                                     FEDERAL AVIATION ADMINISTRATION
                                                      COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                                                           For the Years Ended September 30
                                                                                 (Dollars in Thousands)
FINANCIAL RESULTS




                                                                                                                            2012                                2011
                      Budgetary resources (Note 14)
                        Unobligated balance brought forward, transfers and other                               $      3,556,211                   $       3,321,905
                        Recoveries of prior year obligations                                                             413,890                            486,422
                        Other changes in unobligated balance                                                           (116,841)                            (66,041)
                        Unobligated balance from prior year budget authority		                                        3,853,260                           3,742,286
                        Appropriations		                                                                             12,552,370                          12,416,672
                        Contract authority                                                                            3,350,000                           3,515,000
                        Spending authority from offsetting collections                                                5,969,879                           5,427,894
                      Total budgetary resources                                                                $     25,725,509                   $      25,101,852

                      Status of budgetary resources
                        Obligations incurred                                                                   $     22,205,831                   $      21,545,641
                        Apportioned                                                                                   1,430,914                           1,670,513
                        Unapportioned                                                                                 2,088,764                           1,885,698
                      Total status of budgetary resources                                                      $     25,725,509                   $      25,101,852

                      Change in obligated balance
                        Obligated balance, net, beginning of period                                            $     $8,955,059                   $       8,943,013
                        Obligations incurred                                                                         22,205,831                          21,545,641
                        Gross outlays                                                                               (21,766,301)                        (21,102,064)
                        Recoveries of prior year obligations		                                                         (413,890)                           (486,422)
                        Change in uncollected customer payments from Federal sources                                    (42,652)                             54,891
                      Obligated balance, net, end of period                                                    $     $8,938,047                   $       8,955,059

                      Budget authority and outlays
                        Budget authority, gross                                                                $     21,872,249                   $      21,359,566
                        Actual offsetting collections                                                                (5,927,227)                         (5,482,785)
                        Change in uncollected customer payments from Federal sources                                     (42,652)                            54,891
                      Budget authority, net                                                                    $     15,902,370                   $      15,931,672

                      Outlays
                        Gross outlays                                                                          $     21,766,301                   $      21,102,064
                        Collections, net of offsetting receipts                                                      (5,927,227)                         (5,482,785)
                        Distributed offsetting receipts                                                                 (11,560)                             (10,742)
                      Net outlays                                                                              $     15,827,514                   $      15,608,537


                                                                                                      The accompanying notes are an integral part of these statements.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                          87




NOTES TO THE FINANCIAL STATEMENTS

X XNOTE       1. Summary of Significant Accounting Policies




                                                                                                                          FINANCIAL RESULTS
A.	Basis of Presentation                                      reporting entity is comprised of the following major
The financial statements have been prepared to report         funds:
the financial position, net cost of operations, changes       nnAirport  and Airway Trust Fund (AATF). The AATF,
in net position, and status and availability of budgetary       an earmarked fund, is funded by excise taxes that
resources of the Federal Aviation Administration (FAA).         the Internal Revenue Service (IRS) collects from
The statements are a requirement of the Chief Financial         airway system users. As presented in Note 3, these
Officers Act of 1990, and the Government Management             receipts are held for investment and unavailable until
Reform Act of 1994. They have been prepared from,               appropriated by the U.S. Congress. Once appropriated
and are fully supported by, the books and records of the        for use, the FAA transfers AATF receipts necessary to
FAA in accordance with (1) the hierarchy of accounting          meet cash disbursement needs to several other funds,
principles generally accepted in the United States of           from which expenditures are made. The AATF fully
America and standards approved by the principals of the         finances the following additional FAA funds:
Federal Accounting Standards Advisory Board (FASAB),             Grants-in-Aid to Airports-AATF. As authorized,
(2) Office of Management and Budget (OMB) Circular
                                                                   grants are awarded with Grants-in-Aid to Airports
Number A-136, Financial Reporting Requirements, and
                                                                   funding and used for planning and development to
(3) U.S. Department of Transportation (DOT) and FAA
                                                                   maintain a safe and efficient nationwide system of
accounting policies, which are summarized in this note.
                                                                   public airports. These grants fund approximately
These statements, with the exception of the Statement
                                                                   one-third of all capital development at the Nation’s
of Budgetary Resources, are different from financial
                                                                   public airports, and are administered through the
management reports, which are also prepared pursuant
                                                                   Airport Improvement Program.
to OMB directives that are used to monitor and control
                                                                 Facilities and Equipment-AATF. The Facilities and
the FAA’s use of budgetary resources. The statements
                                                                   Equipment funds are the FAA’s principal means
are subjected to audit, as required by OMB Bulletin
                                                                   of modernizing and improving air traffic control
Number 07-04, Audit Requirements for Federal Financial
                                                                   and airway facilities. These funds also finance
Statements.
                                                                   major capital improvements required by other
Notes 4 and 8 include the necessary information to                 FAA programs as well as other improvements to
present “other assets” and “other liabilities” as defined          enhance the safety and capacity of the national
by OMB Circular Number A-136. This presentation is used            airspace system.
to support the preparation of the consolidated financial         Research, Engineering and Development-AATF.
statements of the U.S. Government.                                 Research, Engineering, and Development funds
                                                                   finance long-term research programs to improve the
Unless specified otherwise, all dollar amounts are
                                                                   air traffic control system.
presented in thousands.
                                                              nnOperations    General Fund and Operations-AATF.
B.	Reporting Entity                                             Operations finances operating costs, maintenance,
The FAA, which was created in 1958, is a component of           communications, and logistical support for the air
the DOT, a cabinet-level agency of the Executive Branch         traffic control and air navigation systems. It also
of the United States Government. The FAA’s mission is           finances the salaries and costs associated with
to provide the safest, most efficient aerospace system          carrying out the FAA’s safety and inspection and
in the world. As the leading authority in the international     regulatory responsibilities. Operations-AATF is
aerospace community, the FAA is responsive to the               financed through transfers from the Airport and Airway
dynamic nature of stakeholder needs, economic                   Trust Fund. For administrative ease in obligating and
conditions, and environmental concerns. The FAA                 expending for operational activities, those funds are




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
88



                        then in turn transferred to the Operations General           appropriations. The FAA recognizes budgetary resources
                        Fund, which is supplemented by appropriations                as assets when cash (funds held by the U.S. Treasury) is
                        from the U.S. Treasury. Expenditures for operational         made available through U.S. Department of the Treasury
                        activities, whether originally funded by the AATF or the     General Fund warrants, and transfers from the AATF are
                        General Fund of the U.S. Treasury, are generally made        apportioned by OMB.
FINANCIAL RESULTS




                        from the Operations General Fund.
                                                                                     The FAA has contract authority which allows the agency
                      nnAviation  Insurance Revolving Fund. Revolving
                                                                                     to enter into contracts prior to receiving an appropriation
                        funds are accounts established by law to finance a
                                                                                     for the payment of obligations. A subsequently enacted
                        continuing cycle of operations with receipts derived
                                                                                     appropriation provides funding to liquidate the obligations.
                        from such operations usually available in their entirety
                                                                                     Current contract authority is provided for the AIP program
                        for use by the fund without further action by the U.S.
                                                                                     and funded by appropriations from AATF.
                        Congress. The Aviation Insurance Revolving Fund
                        provides products that address the insurance needs           The FAA also has spending authority from offsetting
                        of the U.S. domestic airline industry not adequately         collections primarily from a non-expenditure transfer from
                        met by the commercial insurance market. The FAA is           AATF for Operations funding. The balance of the spending
                        currently providing war risk hull loss and passenger,        authority from offsetting collections comes from
                        crew, and third-party liability insurance as required by     other Federal agencies to fund reimbursable activities
                        the Homeland Security Act of 2002 as amended by the          performed by the FAA on their behalf.
                        Federal Aviation Administration Extension Act of 2011
                        (see Note 16). Current insurance coverage expires on         D.	Basis of Accounting
                        September 30, 2013.
                                                                                     Transactions are recorded on both an accrual accounting
                      nnAdministrative Services Franchise Fund (Franchise            basis and a budgetary accounting basis. Under the
                        Fund). The Franchise Fund is a revolving fund designed       accrual method, revenues are recognized when earned,
                        to create competition within the public sector in the        and expenses are recognized when a liability is incurred,
                        performance of a wide variety of support services.           without regard to receipt or payment of cash. Budgetary
                      nnOther   Funds. The consolidated financial statements         accounting facilitates compliance with legal requirements
                        include other funds such as Aviation Overflight User         on the use of Federal funds. All material intra-agency
                        Fees, which is a special fund in which receipts are          transactions and balances have been eliminated for
                        earmarked by law for a specific purpose. Aviation            presentation on a consolidated basis. However, the
                        Overflight User Fees are charges to operators of             Statement of Budgetary Resources is presented on a
                        aircraft that fly in U.S. controlled airspace, but neither   combined basis, in accordance with OMB Circular A-136.
                        take off or land in the U.S. Other funds also include
                                                                                     Intragovernmental transactions and balances result from
                        Facilities, Engineering & Development General Fund
                                                                                     exchange transactions made between the FAA and another
                        and General Fund Miscellaneous Receipts accounts
                                                                                     Federal government reporting entity, while those classified
                        established for receipts of non-recurring activity, such
                                                                                     as “with the public” result from exchange transactions
                        as fines, penalties, fees, and other miscellaneous
                                                                                     between the FAA and non-Federal entities. For example,
                        receipts for services and benefits.
                                                                                     if the FAA purchases goods or services from the public
                     The FAA has rights and ownership of all assets reported         and sells them to another Federal entity, the costs
                     in these financial statements. The FAA does not possess         would be classified as “with the public,” but the related
                     any non-entity assets.                                          revenues would be classified as “intragovernmental.” This
                                                                                     could occur, for example, when the FAA provides goods
                     C.	Budgets and Budgetary Accounting                             or services to another Federal government entity on a
                     Congress annually enacts appropriations to permit               reimbursable basis. The purpose of this classification is to
                     the FAA to incur obligations for specified purposes. In         enable the Federal Government to prepare consolidated
                     FY 2012 and 2011, the FAA was accountable for amounts           financial statements, and not to match public and
                     made available in appropriations laws from the AATF,            intragovernmental revenue with costs that are incurred to
                     Revolving Funds, a Special Fund, and General Fund               produce public and intragovernmental revenue.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                             89



E.	 Revenues and Other Financing Sources                      recognized as revenue in the period in which the flights
Congress enacts annual, multi-year, and no-year               took place.
appropriations to be used, within statutory limits, for
                                                              The FAA recognizes as an imputed financing source the
operating, capital and grant expenditures. Additional
                                                              amount of accrued pension and post-retirement benefit
amounts are obtained from service fees (e.g., landing,




                                                                                                                             FINANCIAL RESULTS
                                                              expenses for current employees paid on the FAA’s behalf
registry, and overflight fees), war risk insurance premiums
                                                              by the Office of Personnel Management (OPM), as well
(see Note 16), and through reimbursements for
                                                              as amounts paid from the U.S. Treasury Judgment Fund in
products and services provided to domestic and foreign
                                                              settlement of claims or court assessments against the FAA.
governmental entities.

The AATF is sustained by excise taxes that the IRS            F.	Taxes
collects from airway system users. Excise taxes collected     The FAA, as a Federal entity, is not subject to Federal,
are initially deposited to the General Fund of the U.S.       state, or local income taxes and, accordingly, no provision
Treasury. The IRS does not receive sufficient information     for income taxes was recorded in the accompanying
at the time the excise taxes are collected to determine       financial statements.
how they should be distributed to specific earmarked
funds. Therefore, the U.S. Treasury makes initial semi-       G.	Fund Balance with the U.S. Treasury
monthly distributions to earmarked funds based on             The U.S. Department of the Treasury (Treasury )
estimates prepared by its Office of Tax Analysis (OTA).       processes cash receipts and disbursements. Funds held
These estimates are based on historical excise tax            at the Treasury are available to pay agency liabilities. The
data applied to current excise tax receipts. The FAA’s        FAA does not maintain cash in commercial bank accounts
September 30, 2012, financial statements reflect excise       or foreign currency balances. Foreign currency payments
taxes certified (as actual collections) by IRS through June   are made either by Treasury or the U.S. Department
30, 2012, and excise taxes estimated by OTA for the           of State and are reported by the FAA in the U.S. dollar
period July 1 through September 30, 2012, as specified        equivalent.
by SFFAS Number 7, Accounting for Revenue and Other
Financing Sources. Actual excise tax collections data
                                                              H.	Investment in U.S. Government
for the quarter ended September 30, 2012, will not be
                                                                 Securities
available from the IRS until February 2013. When actual
                                                              Unexpended funds in the AATF and Aviation Insurance
amounts are certified by the IRS, generally three to four
                                                              Revolving Fund (war risk premiums) are invested in U.S.
months after each quarter-end, adjustments are made
                                                              Government securities at cost. A portion of the AATF
to the AATF to account for the difference. Historically,
                                                              investments is liquidated semi-monthly in amounts
actual excise tax collections certified by the IRS for the
                                                              needed to provide cash for FAA appropriation accounts,
fourth quarter of the fiscal year have not been materially
                                                              to the extent authorized. The Aviation Insurance Revolving
different from the OTA’s estimate. Additional information
                                                              Fund investments are usually held to maturity, but may be
on this subject is disclosed in Note 12.
                                                              liquidated to pay for an insurance claim should one arise.
The AATF also earns interest from investments in U.S.         Investments, redemptions, and reinvestments are held
Government securities. Interest income is recognized as       and managed under the direction of the FAA by the U.S.
revenue on the accrual basis of such collections for those    Treasury.
quarters.
                                                              I.	 Accounts Receivable
Appropriations are recognized as a financing source when
                                                              Accounts receivable consists of amounts owed to the
expended. Revenues from services provided by the FAA
                                                              FAA by other Federal agencies and the public. Amounts
associated with reimbursable agreements are recognized
                                                              due from Federal agencies are considered fully collectible.
concurrently with the recognition of accrued expenditures
                                                              Accounts receivable from the public include, for example,
for performing the services. War-risk insurance premiums
                                                              overflight fees, fines and penalties, reimbursements
are recognized as revenue on a straight-line basis over
                                                              from employees, and services performed for foreign
the period of coverage. Aviation overflight user fees are
                                                              governments. These amounts due from the public are




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
90



                     presented net of an allowance for loss on uncollectible          Operating materials and supplies may be classified as
                     accounts based on historical collection experience or an         “excess, obsolete, and unserviceable” if, for example, the
                     analysis of the individual receivables.                          quantity exceeds projected demand for the foreseeable
                                                                                      future, or if the item has been technologically surpassed.
                     J.	Inventory                                                     An allowance is established for “held for repair” and
FINANCIAL RESULTS




                     Within the FAA’s Franchise Fund, inventory is held for sale      “excess, obsolete, and unserviceable” operating
                     to FAA field locations and other domestic entities and           materials and supplies based on the condition of various
                     foreign governments. Inventory consists of materials and         asset categories as well as the FAA’s historical experience
                     supplies the FAA uses to support the National Airspace           with disposing of such assets.
                     System (NAS) and is predominantly located at the FAA
                     Mike Monroney Aeronautical Center in Oklahoma City.              L.	 Property, Plant and Equipment (PP&E)
                     Inventory cost includes material, labor, and applicable          The FAA capitalizes acquisitions of PP&E when the cost
                     manufacturing overhead, and is determined using the              equals or exceeds $100,000 and the useful life equals
                     weighted moving average cost method.                             or exceeds two years. The FAA records PP&E at original
                                                                                      acquisition cost. However, where applicable, the FAA
                     The FAA field locations trade non-operational                    allocates an average cost of like assets within a program,
                     repairable components with the Franchise Fund. These             commonly referred to as unit costing. The FAA purchases
                     components are classified as “held for repair.” An               some capital assets in large quantities, which are known
                     allowance is established for repairable inventory based          as “bulk purchases.” If the cost per unit is below the
                     on the average historical cost of such repairs. The cost         capitalization threshold of the FAA, then these items are
                     of repair is capitalized and these items are reclassified        expensed.
                     as “held for sale.”
                                                                                      Depreciation expense is calculated using the straight-line
                     Inventory may be classified as “excess, obsolete, and            method. Depreciation commences the first month after
                     unserviceable” if, for example, the quantity exceeds             the asset is placed in service. The FAA does not recognize
                     projected demand for the foreseeable future, or if the           residual value of its PP&E.
                     item has been technologically surpassed. An allowance
                     is established for “excess, obsolete, and unserviceable”         Real property assets, such as buildings, air traffic control
                     inventory based on the condition of various inventory            towers, en route air traffic control centers, mobile buildings,
                     categories as well as the FAA’s historical experience with       roads, sidewalks, parking lots, and other structures, are
                     disposing of such inventory.                                     depreciated over a useful life of up to 40 years.

                                                                                      Personal property assets, such as aircraft, decision support
                     K. 	Operating Materials and Supplies
                                                                                      systems, navigation, surveillance, communications and
                     In contrast to inventory, which is held for sale by the
                                                                                      weather-related equipment, office furniture, internal use
                     Franchise Fund, operating materials and supplies are
                                                                                      software, vehicles, and office equipment, are depreciated
                     used in the operations of the agency. Operating materials
                                                                                      over a useful life of up to 20 years.
                     and supplies primarily consist of unissued materials and
                     supplies that will be used in the repair and maintenance         Buildings and equipment acquired under capital leases
                     of FAA-owned aircraft. They are valued based on the              are amortized over the lease term. If the lease agreement
                     weighted moving average cost method or on the basis of           contains a bargain purchase option or otherwise provides
                     actual prices paid. Operating materials and supplies are         for transferring title of the asset to the FAA, the building
                     expensed using the consumption method of accounting.             is depreciated over a 40-year service life.

                     Operating materials and supplies “held for use” are those        Construction in Progress is valued at actual direct costs
                     items that are consumed on a regular and ongoing basis.          plus applied overhead and other indirect costs.
                     Operating materials and supplies “held for repair” are
                     awaiting service to restore their condition to “held for use”.   The FAA occupies certain real property that is leased
                                                                                      by the DOT from the General Services Administration.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                             91



Payments made by the FAA are based on the fair market         restored leave, and sick leave in certain circumstances,
value for similar rental properties.                          are accrued based on latest pay rates and unused hours
                                                              of leave. Sick leave is generally nonvested, except for sick
The FAA conducts a significant amount of research and         leave balances at retirement under the terms of certain
development into new technologies to support the NAS.         union agreements. Funding will be obtained from future




                                                                                                                             FINANCIAL RESULTS
Until such time as the research and development project       financing sources to the extent that current or prior year
reaches “technological feasibility” the costs associated      appropriations are not available to fund annual and other
with the project are expensed in the year incurred.           types of vested leave earned but not taken. Nonvested
                                                              leave is expensed when used.
M.	Prepaid Charges
The FAA generally does not pay for goods and services         Q.	Accrued Workers’ Compensation
in advance, except for certain reimbursable agreements,       A liability is recorded for actual and estimated future
subscriptions, and payments to contractors and                payments to be made for workers’ compensation pursuant
employees. Payments made in advance of the receipt            to the Federal Employees’ Compensation Act (FECA). The
of goods and services are recorded as prepaid charges         actual costs incurred are reflected as a liability because
at the time of prepayment and recognized as expenses          the FAA will reimburse the U.S. Department of Labor
when the related goods and services are received.             (DOL) two years after the actual payment of expenses
                                                              by the DOL. Future appropriations will be used for the
N.	Liabilities                                                reimbursement to DOL. The liability consists of (1) the net
Liabilities covered by budgetary or other resources are       present value of estimated future payments calculated by
those liabilities for which Congress has appropriated         the DOL, and (2) the unreimbursed cost paid by DOL for
funds or funding is otherwise available to pay amounts        compensation to recipients under the FECA.
due. Liabilities not covered by budgetary or other
resources represent amounts owed in excess of available,      R.	Retirement Plan
congressionally appropriated funds or other amounts.          The FAA employees participate in either the Civil Service
The liquidation of liabilities not covered by budgetary or    Retirement System (CSRS) or the Federal Employees
other resources is dependent on future congressional          Retirement System (FERS). The employees who participate
appropriations or other funding, including the AATF.          in CSRS are beneficiaries of FAA’s matching contribution,
Intragovernmental liabilities are claims against the FAA by   equal to 7% of pay, distributed to their annuity account in
other Federal agencies.                                       the Civil Service Retirement and Disability Fund.

O.	Accounts Payable                                           FERS went into effect on January 1, 1987. FERS and Social
Accounts payable are amounts the FAA owes to other            Security automatically cover most employees hired after
Federal agencies and the public. Accounts payable to          December 31, 1983. Employees hired prior to January 1,
Federal agencies generally consist of amounts due             1984 could elect either to join FERS and Social Security or
under interagency reimbursable agreements. Accounts           to remain in CSRS. FERS offers a savings plan to which the
payable to the public primarily consist of unpaid goods       FAA automatically contributes 1% of pay and matches any
and services received by the FAA in support of the NAS,       employee contribution up to an additional 4% of pay. For
and estimated amounts incurred but not yet claimed by         FERS participants, the FAA also contributes the employer’s
Airport Improvement Program grant recipients.                 matching share for Social Security. The FAA’s matching
                                                              contributions are recognized as operating expenses.

P. 	Annual, Sick, and Other Leave                             The FAA recognizes the full cost of pensions and other
Annual leave is accrued as it is earned, and the accrual      retirement benefits during an employee’s active years
is reduced as leave is taken. For each bi-weekly pay          of service through a combination of costs financed
period, the balance in the accrued annual leave account       by the FAA’s appropriations and imputed costs. OPM
is adjusted to reflect the latest pay rates and unused        actuaries determine pension cost factors by calculating
hours of leave. Liabilities associated with other types       the value of pension benefits expected to be paid in the
of vested leave, including compensatory, credit hours,        future and communicate these factors to the FAA. The




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
92



                     difference between the costs paid by the FAA during the      environmental remediation is an estimate of costs
                     year and the full cost of pensions and other retirement      necessary to bring a known contaminated site into
                     benefits using OPM’s costs factors is the imputed cost.      compliance with applicable environmental standards. The
                     OPM also provides information regarding the full cost of     increase or decrease in the annual liability is charged to
                     health and life insurance benefits. The imputed costs are    current year expense.
FINANCIAL RESULTS




                     completely offset with revenue which is reported as an
                     imputed financing source to the extent these costs will      Environmental cleanup and decommissioning is the
                     be paid by OPM.                                              estimated cost that will be incurred to remove, contain,
                                                                                  and/or dispose of hazardous materials when an asset
                                                                                  presently in service is shutdown. The FAA estimates the
                     S.	Grants
                                                                                  environmental cleanup and decommissioning costs at
                     The FAA records an obligation at the time a grant is
                                                                                  the time an FAA-owned asset is placed in service. For
                     awarded. As grant recipients conduct eligible activities
                                                                                  assets placed in service through FY 1998, the increase or
                     under the terms of their grant agreement, they request
                                                                                  decrease in the estimated environmental cleanup liability
                     payment by the FAA, typically via an electronic payment
                                                                                  is charged to expense. Assets placed in service in FY 1999
                     process. Expenses are recorded at the time of payment
                                                                                  and after do not contain any hazardous materials, and
                     approval during the year. The FAA also recognizes an
                                                                                  therefore do not have associated environmental liabilities.
                     accrued liability and expense for estimated eligible grant
                     payments not yet requested by grant recipients. Grant        The FAA environmental liabilities are recorded using
                     expenses, including associated administrative costs, are     un-inflated estimates. There are no known possible
                     classified on the Consolidated Statements of Net Cost        changes to these estimates based on inflation, deflation,
                     under the Line of Business program “Airports.”               technology or applicable laws and regulations.

                     T. 	Use of Estimates                                         V. 	Contingencies
                     Management has made certain estimates and                    Liabilities are deemed contingent when the existence
                     assumptions when reporting assets, liabilities, revenues,    or amount of the liability cannot be determined with
                     and expenses, and in the note disclosures. Actual results    certainty pending the outcome of future events. The FAA
                     could differ from these estimates. Significant estimates     recognizes contingent liabilities, in the accompanying
                     underlying the accompanying financial statements include     balance sheet and statement of net cost, when they are
                     (a) the allocation of AATF receipts by the OTA, (b) legal,   both probable and can be reasonably estimated. The FAA
                     environmental, and contingent liabilities, (c) accruals      discloses contingent liabilities in the notes to the financial
                     of accounts and grants payable, (d) accrued workers’         statements (see Note 16) when the conditions for liability
                     compensation, (e) allowance for doubtful accounts            recognition are not met or when a loss from the outcome
                     receivable, (f) allowances for repairable and obsolete       of future events is more than remote. In some cases,
                     inventory balances, (g) allocations of common costs to       once losses are certain, payments may be made from
                     CIP, (h) the allocation of an average cost of like assets    the Judgment Fund maintained by the U.S. Treasury
                     within a program, commonly referred to as unit costing,      rather than from the amounts appropriated to the FAA for
                     (i) allocations of costs to programs on the Statement of     agency operations. Payments from the Judgment Fund
                     Net Cost, and (j) accrued benefits and benefits payable.     are recorded as an “Other Financing Source” when made.

                     U.	Environmental Liabilities                                 W.	Earmarked Funds Reporting
                     In compliance with applicable laws and regulations           The FAA adopted Statement of Federal Financial
                     including the Comprehensive Environmental Response,          Accounting Standards (SFFAS) Number 27, Identifying and
                     Compensation and Liability Act of 1980 as amended by         Reporting Earmarked Funds, effective October 1, 2005.
                     the Superfund Amendments and Reauthorization Act             SFFAS Number 27 defines “earmarked funds” as those
                     of 1986 and the Community Environmental Response             being financed by specifically identified revenues, often
                     Facilitation Act of 1992, the FAA recognizes two types       supplemented by other financing sources, which remain
                     of environmental liabilities: environmental remediation,     available over time. These specifically identified revenues
                     and cleanup and decommissioning. The liability for           and financing sources are required by statute to be used




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                               93



for designated activities, benefits or purposes, and must     Additional disclosures concerning earmarked funds can
be accounted for separately from the Government’s             be found in Note 12.
general revenues. The FAA’s financial statements include
the following funds, considered to be “earmarked”:            X. 	American Recovery and Reinvestment
nnAirport   and Airway Trust Fund (AATF)                          Act of 2009




                                                                                                                               FINANCIAL RESULTS
nnOperations-AATF                                             The American Recovery and Reinvestment Act of 2009
                                                              (ARRA) was enacted primarily to preserve and create
nnOperations     General Fund
                                                              jobs, promote economic recovery, assist those most
nnGrants-in-Aid   for Airports-AATF                           impacted by the recession and to invest in transportation,
nnFacilities   and Equipment-AATF                             environmental protection and other infrastructure that will
nnResearch,     Engineering, and Development-AATF             provide long term economic benefits.
nnAviation   Insurance Fund                                   The FAA received supplemental funding from ARRA of
nnAviation   User Fees                                        $1.1 billion for Grant-In-Aid to Airports and $200 million
                                                              for Facilities and Equipment (F&E) activities. The F&E
The AATF is funded by excise taxes that the IRS
                                                              funding was used for improvements to power systems,
collects from airway system users. These receipts are
                                                              air route traffic control centers, air traffic control towers,
unavailable until appropriated by the U.S. Congress. Once
                                                              terminal radar approach control facilities and navigation
appropriated for use, the FAA transfers AATF receipts
                                                              and landing equipment. ARRA also stipulated that priority
necessary to meet cash disbursement needs to several
                                                              be given to F&E activities that will be completed within
other funds, from which expenditures are made. Those
                                                              two years of enactment of this act or by February 17, 2011.
funds that receive transfers from the AATF are the
                                                              As of September 30, 2011 this project was essentially
Operations-AATF, Grants-in-Aid for Airports, Facilities and
                                                              completed.
Equipment, and Research, Engineering and Development,
all of which are funded exclusively by the AATF.              The Grant-In-Aid to Airports funding was to be used for
These funds represent the majority of the FAA annual          discretionary grants and for the procurement, installation
expenditures.                                                 and commissioning of runway incursion prevention
                                                              devices and systems at airports. ARRA also stipulated
In addition, the Operations General Fund is primarily
                                                              that priority be given to Grant-In-Aid to Airport projects
funded through transfers from Operations-AATF, but is
                                                              that will be completed within two years of enactment
also supplemented by funding from the General Fund
                                                              of this act or by February 17, 2011. Of the $1.1 billion
of the U.S. Treasury through annual appropriations.
                                                              ARRA funding for Grant-In-Aid to Airports, an amount
Because the Operations General Fund is primarily
                                                              not to exceed $2.2 million may be used to fund the
funded from the AATF, and because it is not reasonably
                                                              award and oversight of grants made under this provision.
possible to differentiate cash balances between those
                                                              As of September 30, 2011 this project was essentially
originally flowing from the AATF versus General Fund
                                                              completed.
appropriations, the Operations General Fund is presented
as an earmarked fund. The earmarked funds from the
                                                              Y.	 Reclassifications
Facilities and Equipment fund are used to purchase or
                                                              In FY 2012, changes to the presentation of the Combined
construct property, plant, and equipment (PP&E). When
                                                              Statements of Budgetary Resources were made, in
earmarked funds are used to purchase or construct
                                                              accordance with guidance provided in OMB Circular A-136
PP&E, they are no longer available for future expenditure,
                                                              and as such, activity and balances reported on the FY 2011
have been used for their intended purpose, and therefore
                                                              Combined Statement of Budgetary Resources have been
are classified as other funds on the balance sheet and
                                                              reclassified to conform to the presentation in the current
the statement of changes in net position. The intended
                                                              year. Certain other prior year amounts have also been
result of this presentation is to differentiate between
                                                              reclassified to conform with the current year presentation.
earmarked funds available for future expenditure and
earmarked funds previously expended on PP&E projects
and therefore unavailable for future expenditure.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
94



                     X XNOTE        2. Fund Balance with Treasury
                     Fund balance with Treasury account balances as of September 30, 2012 and 2011, were:

                                                                                                                          2012                     2011
FINANCIAL RESULTS




                      Earmarked and other funds                                                                $     2,350,899            $    2,496,183
                      Franchise Fund                                                                                   271,519                   257,152
                      Aviation Insurance Revolving Fund                                                                 19,818                    49,565
                      AATF                                                                                             442,966                   921,692
                      Total                                                                                    $     3,085,202            $    3,724,592

                      Status of fund balance with Treasury
                      Unobligated balance
                          Available                                                                            $     1,430,914            $    1,670,513
                          Not available                                                                              2,088,764                 1,885,698
                      Obligated balance not yet disbursed                                                             8,938,047                8,955,059
                      Investments and Contract Authority supporting obligated and unobligated balances               (9,904,858)              (9,784,168)
                      Non-budgetary FBWT                                                                                532,335                  997,490
                      Total                                                                                    $      3,085,202           $    3,724,592


                     Unobligated fund balances are either available or not                  change over time, because they can be used for upward
                     available. Amounts are reported as not available when                  adjustments of obligations that were incurred during the
                     they are no longer legally available to the FAA for                    period of availability or for paying claims attributable to
                     obligation. However, balances that are not available can               that time period.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                95



X XNOTE         3. Investments
As of September 30, 2012 and 2011, the FAA’s investment balances were as follows:

                                                                                     2012
                                                                   Amortized                                   Market Value




                                                                                                                                FINANCIAL RESULTS
 Intragovernmental Securities                     Cost         (Premium) Discount          Investments (Net)    Disclosure

     Non-marketable par value                $ 10,424,961        $           —               $ 10,424,961      $   10,424,961
     Non-marketable market-based                1,818,209                28,377                 1,846,586           1,860,331
     Subtotal                                  12,243,170                28,377                12,271,547          12,285,292
  Accrued interest                                 59,917                                          59,917
 Total Intragovernmental Securities          $ 12,303,087        $       28,377              $ 12,331,464      $   12,285,292

                                                                                    2011
                                                                   Amortized                                   Market Value
 Intragovernmental Securities                     Cost         (Premium) Discount          Investments (Net)    Disclosure

     Non-marketable par value                $    8,640,889      $           —               $    8,640,889    $    8,640,889
     Non-marketable market-based                  1,630,564              11,685                   1,642,249         1,642,249
     Subtotal                                    10,271,453              11,685                  10,283,138        10,283,138
  Accrued nterest                                  52,607                                          52,607
 Total Intragovernmental Securities          $ 10,324,060        $       11,685              $ 10,335,745      $   10,283,138



The Secretary of the Treasury invests AATF funds on           Nonmarketable, market-based Treasury securities are
behalf of the FAA. FAA investments are considered             debt securities that the Treasury issues to Federal entities
investment authority and available to offset the cost         without statutorily fixed interest rates. Although the
of operations to the extent authorized by Congress.           securities are not marketable, their terms (prices and
As of September 30, 2012 and 2011, $10.4 billion and          interest rates) mirror the terms of marketable Treasury
$8.6 billion were invested respectively in U.S. Treasury      securities. The FAA invests Aviation Insurance Fund
Certificates of Indebtedness. Nonmarketable par value         collections in nonmarketable market-based securities and
Treasury Certificates of Indebtedness are special series      amortizes premiums and discounts over the life of the
debt securities issued by the Bureau of Public Debt to        security using the interest method. As of September 30,
Federal accounts, and are purchased and redeemed at par       2012, these nonmarketable, market-based securities had
(face value) exclusively through the Federal Investment       maturity dates ranging from October 2012 to August 2015
Branch of the U.S. Treasury’s Bureau of Public Debt. The      and have an average rate of return of approximately 2.1%
securities are held to maturity and redeemed at face          As of September 30, 2011, these nonmarketable, market-
value on demand; thus, investing entities recover the         based securities had maturity dates ranging from October
full amount invested plus interest. Investments as of         2011 to December 2014 and had an average rate of return
September 30, 2012, mature on various dates through           of approximately 2.0%.
June 30, 2013, and investments as of September 30,
2011, matured on various dates through June 30, 2012.         The U.S. Treasury does not set aside assets to pay
The annual rate of return on Certificates of Indebtedness     the future expenditures of the AATF and the Aviation
is established in the month of issuance. The average          Insurance Fund. Instead, the cash collected from the
rate of return for certificates issued during FY 2012 and     public for the AATF and the Aviation Insurance Fund is
FY 2011 was 2.2% and 2.3%, respectively.                      deposited to the U.S. Treasury, and used for general
                                                              Government purposes. Treasury securities are issued to
                                                              the FAA as evidence of the collections by the AATF and




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
96



                     Aviation Insurance Fund. Treasury securities are an asset     To the extent authorized by law, the FAA has the ability
                     to the FAA and a liability to the U.S. Treasury. Because      to redeem its Treasury securities to make expenditures.
                     the FAA and the U.S. Treasury are both parts of the U.S.      When the FAA requires redemption of these securities,
                     Government, these assets and liabilities offset each other    the U.S. Government finances those expenditures out
                     from the standpoint of the U.S. Government as a whole.        of accumulated cash balances by raising tax or other
FINANCIAL RESULTS




                     For this reason, they do not represent an asset or a          receipts, borrowing from the public, repaying less debt,
                     liability in the U.S. Government-wide financial statements.   or curtailing other expenditures. This is the same way that
                                                                                   the U.S. Government finances all other expenditures.




                     X XNOTE         4. Accounts Receivable, Prepayments, and Other Assets
                     Accounts receivable, prepayments, and other assets as of September 30, 2012 and 2011, were comprised of the
                     following:

                                                           2012            2011    Intragovernmental prepayments represent advance
                      Intragovernmental                                            payments to other Federal Government entities for
                      Accounts receivable            $    68,236     $    42,240   agency expenses not yet incurred or for goods or
                      Prepayments and other              172,018         145,189   services not yet received.
                        Intragovernmental total          240,254         187,429
                                                                                   Accounts receivable from the public are shown net of
                      With the public                                              allowances for uncollectible amounts of $16.5 million and
                      Accounts receivable, net            44,739          46,206   $19.3 million, as of September 30, 2012 and 2011.
                      Prepayments                          2,709           2,164
                      Other assets	                          501          34,322
                        With the public total             47,949          82,692
                      Total accounts receivable,
                         prepayments, and other      $   288,203     $ 270,121




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                        97



X XNOTE         5. Inventory, Operating Materials, and Supplies
As of September 30, 2012 and 2011, inventory, operating materials, and supplies were:

                                                                                        2012




                                                                                                                        FINANCIAL RESULTS
                                                                Cost               Allowance                 Net
 Inventory
 Held for sale                                             $      90,540           $            —        $     90,540
 Held for repair                                                 582,567                (135,234)             447,333
 Raw materials, finished goods and other                          51,030                  (10,591)             40,439
 Excess, obsolete, and unserviceable                               8,956                    (8,956)                —
   Inventory total                                               733,093                (154,781)             578,312

 Operating materials and supplies
 Held for use                                                     40,969                       —               40,969
 Held for repair                                                  24,387                 (12,193)              12,194
 Excess, obsolete, and unserviceable                               1,888                   (1,043)                845
  Operating materials and supplies total                          67,244                 (13,236)              54,008
 Total inventory, operating materials, and supplies        $     800,337           $    (168,017)        $    632,320

                                                                                        2011
                                                                Cost               Allowance                 Net
 Inventory
 Held for sale                                             $      91,036           $           —         $     91,036
 Held for repair                                                 550,604                (119,266)             431,338
 Raw materials, finished goods and other                          40,712                  (10,590)             30,122
 Excess, obsolete, and unserviceable                              13,766                  (13,766)                 —
   Inventory total                                               696,118                (143,622)             552,496

 Operating materials and supplies
 Held for use                                                     41,509                      —                41,509
 Held for repair                                                  26,192                 (13,037)              13,155
 Excess, obsolete, and unserviceable                                 325                    (325)                  —
  Operating materials and supplies total                          68,026                 (13,362)              54,664
 Total inventory, operating materials, and supplies        $     764,144           $    (156,984)        $    607,160



Inventory is considered held for repair based on the           The FAA transfers excess items for disposal into the
condition of the asset or item, and the allowance for          government-wide automated disposal system. Disposal
repairable inventory is based on the average historical        proceeds, recognized upon receipt, may go to the U.S.
cost of such repairs.                                          Treasury’s General Fund or to an FAA appropriation,
                                                               depending on the nature of the item and the disposal
                                                               method.




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
98



                     X XNOTE         6. Property, Plant, and Equipment, Net
                     Property, plant, and equipment balances at September 30, 2012 and 2011, were:

                                                                                                             2012
FINANCIAL RESULTS




                                                                                                          Accumulated
                      Class of fixed asset                                 Acquisition value              depreciation          Net book value

                      Real property, including land                         $      5,907,540          $      (3,255,262)        $    2,652,278
                      Personal property                                           18,436,951                (11,460,530)             6,976,421
                      Assets under capital lease (Note 9)                            126,629                     (49,669)               76,960
                      Construction in progress                                     3,736,914                          —              3,736,914

                      Total property, plant and equipment                   $     28,208,034          $     (14,765,461)        $   13,442,573

                                                                                                             2011
                                                                                                          Accumulated
                      Class of fixed asset                                 Acquisition value              depreciation          Net book value

                      Real property, including land                         $      5,646,118          $      (3,085,403)        $    2,560,715
                      Personal property                                           17,749,562                (10,594,078)             7,155,484
                      Assets under capital lease (Note 9)                            184,777                     (90,139)               94,638
                      Construction in progress                                     3,303,901                          —              3,303,901

                      Total property, plant and equipment                   $     26,884,358          $     (13,769,620)        $   13,114,738



                     The FAA’s CIP relates primarily to NAS assets, which             system will replace three legacy air traffic systems
                     are derived from centrally funded national systems               currently being depreciated over service lives ranging
                     development contracts, site preparation and testing, raw         from 5-20 years.
                     materials, and internal labor charges.
                                                                                      The net acquisition cost of the three air traffic legacy
                     The FAA is currently developing and testing the En Route         systems in use at September 30, 2012 and September
                     Automation Modernization (ERAM) system to upgrade                30, 2011 was unchanged at $2,143 million with a net
                     the management of air traffic in the en route space and          book value of $634 million and $745 million, respectively.
                     enable the implementation of NextGen capabilities. As of         Depreciation on these air traffic legacy systems was $111
                     September 30, 2012, construction in progress includes            million and $121 million in FY 2012 and 2011, respectively.
                     $2.110 billion related to the ERAM system.                       As the ERAM deployment schedule becomes more
                                                                                      certain, the FAA will re-evaluate the remaining service
                     While the deployment schedule for ERAM is not finalized          lives of the legacy air traffic systems and their estimated
                     and will depend upon results of continued testing of the         value at disposal. Adjustments will then be made to the
                     system, the FAA expects to deploy the ERAM system at             FAA accounting records in accordance with applicable
                     20 air route traffic control centers over the next several       accounting standards.
                     years. When fully deployed and operational, the ERAM




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                            99



X XNOTE         7. Environmental Liabilities
The FAA’s environmental liabilities as of September 30, 2012 and 2011, were:

                                                             2012              2011




                                                                                                                            FINANCIAL RESULTS
Environmental remediation                              $   517,273   $       501,454
Environmental cleanup and decommissioning                  293,126           255,935

Total environmental liabilities                        $   810,399   $       757,389

Additional information on contingencies related to environmental projects is disclosed in Note 16.




X XNOTE         8. Employee Related and Other Liabilities
As of September 30, 2012 and 2011, the FAA’s employee related and other liabilities were:

                                                                                               2012
                                                                         Non-current          Current
                                                                          liabilities        liabilities        Total
Intragovernmental
Advances received                                                        $          —    $         53,654   $      53,654
Accrued payroll & benefits payable to other agencies                                —              90,156          90,156
  Liabilities covered by budgetary resources                                        —             143,810         143,810
Federal Employees' Compensation Act payable                                    115,495             90,623         206,118
Other                                                                               —              75,372          75,372
  Liabilities not covered by budgetary resources	                              115,495            165,995         281,490
    Intragovernmental total                                                    115,495            309,805         425,300

With the public
Advances received and other                                                         —             108,444         108,444
Accrued payroll & benefits payable to employees                                     —             344,809         344,809
 Liabilities covered by budgetary resources                                         —             453,253         453,253
Accrued unfunded annual & other leave & assoc. benefits                             —             404,714         404,714
Sick leave compensation benefits for eligible employees                         65,264             61,439         126,703
Capital leases (Notes 9 and 15)                                                 73,452              8,852          82,304
Legal claims                                                                        —              34,300          34,300
Other accrued liabilities                                                           —              20,524          20,524
  Liabilities not covered by budgetary resources                               138,716            529,829         668,545
    Public total                                                               138,716            983,082       1,121,798
    Total employee related and other liabilities                         $     254,211   $ $1,292,887       $   1,547,098




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
100



                                                                                                                    2011
                                                                                        Non-current                Current
                                                                                         liabilities              liabilities          Total
                      Intragovernmental
                      Advances received                                                 $          —          $         40,536     $      40,536
FINANCIAL RESULTS




                      Accrued payroll & benefits payable to other agencies                         —                    86,111            86,111
                        Liabilities covered by budgetary resources                                 —                   126,647           126,647
                      Federal Employees' Compensation Act payable                             117,528                   90,990           208,518
                      Other                                                                        —                    70,795            70,795
                        Liabilities not covered by budgetary resources                        117,528                  161,785           279,313
                          Intragovernmental total                                             117,528                  288,432           405,960

                      With the public
                      Advances received and other                                                  —                   110,381           110,381
                      Accrued payroll & benefits payable to employees                              —                   336,210           336,210
                       Liabilities covered by budgetary resources                                  —                   446,591           446,591
                      Accrued unfunded annual & other leave & assoc. benefits                      —                   402,932           402,932
                      Sick leave compensation benefits for eligible employees                  66,145                   52,465           118,610
                      Capital leases (Note 15)                                                 96,591                    9,721           106,312
                      Legal claims                                                                 —                    66,200            66,200
                      Other accrued liabilities                                                    —                    13,769            13,769
                        Liabilities not covered by budgetary resources                        162,736                  545,087           707,823
                          Public total                                                        162,736                  991,678         1,154,414
                          Total employee related and other liabilities                  $     280,264         $      1,280,110     $   1,560,374


                     Accrued payroll and benefits to other agencies consist of       The estimated liability for accrued unfunded leave and
                     FAA contributions payable to other Federal agencies for         associated benefits includes annual and other types of
                     employee benefits. These include the FAA’s contributions        vested leave. Additionally, under the terms of various
                     payable toward life, health, retirement benefits, Social        bargaining unit agreements, employees who are in FERS,
                     Security, and matching contributions to the Thrift Savings      have the option to receive a lump sum payment for
                     Plan.                                                           40% of their accumulated sick leave as of their effective
                                                                                     retirement date. Based on sick leave balances, this
                     An unfunded liability is recorded for the actual cost of        estimated liability was $126.7 million and $118.6 million
                     workers’ compensation benefits to be reimbursed to              as of September 30, 2012 and 2011, respectively.
                     the DOL, pursuant to the FECA. Because DOL bills the
                     FAA two years after it pays such claims, the FAA’s liability    The FAA estimated that 100% of its $34.3 million and
                     accrued as of September 30, 2012, includes workers’             $66.2 million legal claims liabilities as of September 30,
                     compensation benefits paid by DOL during the periods            2012 and 2011, respectively, would be paid from the
                     July 1, 2010, through June 30, 2012, and accrued liabilities    permanent appropriation for judgments, awards, and
                     for the quarter July 1, 2012, through September 30, 2012.       compromise settlements (Judgment Fund) administered
                     The FAA’s liability accrued as of September 30, 2011,           by the U.S. Department of the Treasury.
                     included workers’ compensation benefits paid by DOL
                     during the period July 1, 2009, through June 30, 2011,          Other Accrued Liabilities with the Public is composed
                     and accrued liabilities for the quarter July 1, 2011, through   primarily of accruals for utilities, leases, and travel.
                     September 30, 2011.                                             Total liabilities not covered by budgetary resources are
                                                                                     presented in Note 15.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                        101



X XNOTE         9. Leases

Capital Leases
Following is a summary of the FAA’s assets under capital                  Operating Leases
lease as of September 30, 2012 and 2011:                                  The FAA has operating leases for real property, aircraft,




                                                                                                                                         FINANCIAL RESULTS
                                                                          and telecommunications equipment. Future operating
                                             2012                2011     lease payments due as of September 30, 2012, were:
Land, Buildings, and Machinery        $ 126,629             $ 184,777
                                                                           Fiscal year
Accumulated Depreciation                (49,669)              (90,139)
                                                                              Year 1 (FY 2013)                            $   186,618
Assets Under Capital Lease, net       $ 76,960              $ 94,638
                                                                              Year 2 (FY 2014)                                124,626
                                                                              Year 3 (FY 2015)                                103,009
As of September 30, 2012, the FAA’s future payments due                       Year 4 (FY 2016)                                 81,423
on assets under capital lease were:                                           Year 5 (FY 2017)                                 67,374
                                                                              After 5 Years                                   163,518
Future payments due by fiscal year                                         Total future operating lease payments          $   726,568
(Liabilities not covered by budgetary or other resources)
   Year 1 (FY 2013)                                     $        8,852    Operating lease expense incurred during the years ended
   Year 2 (FY 2014)                                              8,681    September 30, 2012 and 2011 was $231.9 million and
   Year 3 (FY 2015)                                              8,648    $209.3 million, respectively, including General Services
   Year 4 (FY 2016)                                              8,639    Administration (GSA) leases that have a short termination
   Year 5 (FY 2017)                                              8,640    privilege, but the FAA intends to remain in the lease.
   After 5 Years                                                70,601    The operating lease amounts due after five years do
   Less: Imputed interest                                      (31,757)   not include estimated payments for leases with annual
   Total capital lease liability                        $       82,304    renewal options. Estimates of the lease termination
                                                                          dates are subjective, and any projection of future lease
FAA’s capital lease payments are authorized to be funded
                                                                          payments would be arbitrary.
annually as codified in the United States Code - Title 49 -
Section 40110(c)(1) which addresses general procurement
authority. The remaining principal payments are recorded
as unfunded lease liabilities. The imputed interest is
funded and expensed annually.




                    FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
102



                     X XNOTE        10. Federal Employee Benefits Payable
                     As of September 30, 2012 and 2011, FECA actuarial                  FECA liabilities include the expected liability for death,
                     liabilities were $946.8 million and $909.6 million,                disability, medical, and miscellaneous costs for approved
                     respectively. The DOL calculates the FECA liability for the        compensation cases, plus a component for incurred but
FINANCIAL RESULTS




                     DOT, and the DOT allocates the liability amount to the             not reported claims. The estimated liability is not covered
                     FAA based on actual workers’ compensation payments                 by budgetary or other resources and thus will require
                     to FAA employees over the preceding four years.                    future appropriated funding.




                     X XNOTE        11. Net Cost by Program and Other Statement of Net Cost Disclosures
                     The FAA’s four Lines of Business represent the programs            describes the FAA’s vision for future air travel and defines
                     reported on the Statement of Net Cost. Cost centers                the strategic goal areas focused on reaching that vision.
                     assigned to each Line of Business permit the direct                FY11 has been aligned with this change for comparative
                     accumulation of costs. Other costs that are not directly           purposes.
                     traced to each Line of Business, such as agency
                     overhead, are allocated.                                           The following are net costs for the years ended
                                                                                        September 30, 2012 and 2011 by strategic goal:
                     Effective for FY12, the Strategic Goal Areas are reported
                     in alignment with Destination 2025. Destination 2025

                                                                                        For the Year Ended September 30, 2012
                                                                                                 Strategic Goal Areas
                                                                  Next level     Aviation         Workplace       Sustain our       Global
                                                                  of Safety      Access           of Choice         Future      Collaboration       Total
                      Line of Business programs
                        Air Traffic Organization                 $ 6,283,426   $ 4,332,169    $     473,312   $       63,006    $      6,563    $ 11,158,476
                        Aviation Safety                            1,401,860           456            6,747            1,213              33       1,410,309
                        Airports                                   1,641,995     1,485,436              429           11,739              —        3,139,599
                        Commercial Space Transportation               11,204         6,740              182              197              77          18,400
                      Non Line of Business programs
                       Regions and center operations and other       346,398      (163,341)         206,232           15,083               4        404,376

                      Net cost                                   $ 9,684,883   $ 5,661,460    $     686,902   $       91,238    $      6,677    $ 16,131,160



                                                                                        For the Year Ended September 30, 2011
                                                                                                 Strategic Goal Areas
                                                                  Next level     Aviation         Workplace       Sustain our       Global
                      Line of Business programs                   of Safety      Access           of Choice         Future      Collaboration       Total
                        Air Traffic Organization                 $ 6,422,674   $ 4,547,491    $     518,004   $       54,390    $      8,824    $ 11,551,383
                        Aviation Safety                            1,319,155           861            7,205            1,196             215       1,328,632
                        Airports                                   1,773,480     1,604,260              503           10,448              —        3,388,691
                        Commercial Space Transportation               10,613         5,473              105              327              46          16,564

                      Non Line of Business programs
                       Regions and center operations and other       402,831      (211,401)         199,319           12,495            214         403,458

                      Net cost                                   $ 9,928,753   $ 5,946,684    $     725,136   $       78,856    $      9,299    $ 16,688,728




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                               103



The following is the FAA’s distribution of FY 2012 and FY 2011 net costs by intragovernmental-related activity versus with
the public:

                                                                         For the Year Ended September 30, 2012
                                                                Intra-




                                                                                                                                FINANCIAL RESULTS
                                                             governmental            With the Public             Total
Line of Business programs
   Air Traffic Organization
   Expenses                                                  $    2,252,662          $    9,187,040          $   11,439,702
   Less earned revenues                                            (228,401)                (52,825)               (281,226)
   Net costs                                                      2,024,261               9,134,215              11,158,476

   Aviation Safety
   Expenses                                                        348,062                1,074,263               1,422,325
   Less earned revenues                                             (2,551)                  (9,465)                (12,016)
   Net costs                                                       345,511                1,064,798               1,410,309

   Airports
   Expenses                                                         36,451                3,103,234               3,139,685
   Less earned revenues                                                 —                       (86)                    (86)
   Net costs                                                        36,451                3,103,148               3,139,599

   Commercial Space Transportation
   Expenses                                                           3,474                   14,926                 18,400
   Net costs                                                          3,474                   14,926                 18,400

Non Line of Business programs
  Regions and center operations and other programs
  Expenses                                                         136,181                   647,515                783,696
  Less earned revenues                                             (72,401)                 (306,919)              (379,320)
  Net costs                                                         63,780                   340,596                404,376

Net cost of operations
  Total expenses                                                  2,776,830              14,026,978              16,803,808
  Less earned revenues                                            (303,353)                (369,295)               (672,648)
Total net costs                                              $    2,473,477          $   13,657,683          $   16,131,160




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
104



                                                                                      For the Year Ended September 30, 2011
                                                                              Intra-
                                                                           governmental           With the Public             Total
                      Line of Business programs
                         Air Traffic Organization
FINANCIAL RESULTS




                         Expenses                                          $   2,361,257          $    9,472,798          $   11,834,055
                         Less earned revenues                                   (238,596)                (44,076)               (282,672)
                         Net costs                                             2,122,661               9,428,722              11,551,383

                        Aviation Safety
                        Expenses                                                 362,565                 977,469               1,340,034
                        Less earned revenues                                      (2,095)                 (9,307)                (11,402)
                        Net costs                                                360,470                 968,162               1,328,632

                        Airports
                        Expenses                                                  33,480               3,355,232               3,388,712
                        Less earned revenues                                          —                      (21)                    (21)
                        Net costs                                                 33,480               3,355,211               3,388,691

                        Commercial Space Transportation
                        Expenses                                                   4,395                   12,169                 16,564
                        Net costs                                                  4,395                   12,169                 16,564

                      Non Line of Business programs
                        Regions and center operations and other programs
                        Expenses                                                 160,329                  659,722                820,051
                        Less earned revenues                                     (54,055)               (362,538)              (416,593)
                        Net costs                                                106,274                  297,184                403,458

                      Net cost of operations
                        Total expenses                                         2,922,026              14,477,390              17,399,416
                        Less earned revenues                                    (294,746)               (415,942)               (710,688)
                      Total net costs                                      $   2,627,280          $   14,061,448          $   16,688,728




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                               105



X XNOTE        12. Earmarked Funds
The FAA’s earmarked funds are presented among two               first three quarters and amounts estimated by OTA for
classifications. The first classification is comprised of the   the fourth quarter. Excise taxes estimated by OTA in the
financial statement balances in AATF as of the end of           1st quarter overstated amounts subsequently certified




                                                                                                                                FINANCIAL RESULTS
each fiscal year.                                               as actual by the IRS by $24.6 million, and overstated
                                                                amounts certified in the 2nd and 3rd quarters by $119.3
The second classification of other earmarked funds is           million and $333.3 million, respectively.
comprised of the financial statement balances of all the
related funds that receive funding from the AATF and            The following table summarizes the 4th quarter excise
includes the Operations-AATF, Grants-in-Aid for Airports,       taxes accrued in the FAA’s FY 2011 and 2010 financial
Facilities and Equipment, and Research Engineering and          statements and the amounts certified as actual by the
Development, all of which are funded exclusively by             IRS several months after the issuance of those financial
the AATF. The other earmarked funds classification also         statements:
includes the Operations General Fund, which is primarily
funded through transfers from Operations - AATF, but is                                      4th Quarter        4th Quarter
                                                                                                     2011               2010
additionally supplemented by the General Fund of the
                                                                Estimates                  $ 2,423,294        $ 2,533,610
U.S. Treasury through annual appropriations. However,
                                                                Actuals                        2,652,178          2,919,237
since the Operations General Fund is primarily funded
                                                                  Under (Over) Accrual     $     228,884      $     385,627
from the AATF, it is properly presented as an earmarked
fund. The second classification of other earmarked funds
also includes the Aviation Insurance Revolving Fund and
                                                                Other Earmarked Funds
Aviation User Fees.
                                                                nnThe  FAA has authority under the Aviation Insurance
In addition, this note presents only the earmarked funds          Program to insure commercial airlines that may be
that retain available financing sources. As such, the             called upon to perform various services considered
balances in the PP&E fund, though funded from the                 necessary to the foreign policy interests of the United
Facilities and Equipment earmarked fund are excluded              States, when insurance is not available commercially
from this note.                                                   or is available only on unreasonable terms and
                                                                  conditions. The insurance issued, commonly referred
                                                                  to war-risk insurance, covers losses resulting from
Airport and Airway Trust Fund
                                                                  war, terrorism, or other hostile acts. The FAA reported
The FAA’s consolidated financial statements include the           premium insurance revenues of $160.6 million and
results of operations and financial position of the AATF.         $191.5 million for the periods ended September 30,
The U.S. Congress created the AATF with the passage of            2012 and 2011, respectively. The Aviation Insurance
the Airport and Airway Revenue Act of 1970.                       Program activity is reported below as other earmarked
                                                                  funds. The Aviation Insurance Program is discussed
The Act provides a dedicated source of funding to the
                                                                  further at Notes 1.W. and 16.
Nation’s aviation system through the collection of several
aviation-related excise taxes. The IRS collects these           nnAviation User Fees, commonly referred to as overflight
taxes on behalf of the FAA’s AATF. These taxes can be             fees, are charged to commercial airlines that fly in U.S.
withdrawn only as appropriated by the U.S. Congress.              controlled air space, but neither take off or land in the
Twice a month, Treasury estimates the amount collected            U.S. The FAA reported overflight fees of $64.9 million
and subsequently adjusts the estimates to reflect actual          and $56.7 million for the periods ended September 30,
collections quarterly. The total taxes recognized in              2012 and 2011, respectively. Aviation User Fees activity
FY 2012 included OTA’s estimate of $2.7 billion for the           is reported below as other earmarked funds.
quarter ended September 30, 2012 and $2.2 billion for the
                                                                Fiscal data as of, and for the years ended September 30,
quarter ended September 30, 2011.
                                                                2012 and 2011, are summarized in the following charts.
As discussed in Note 1 E., FY 2012 excise tax revenue           Intra-agency transactions have not been eliminated in the
includes amounts certified as actual by the IRS for the         amounts presented.




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
106



                                                                                                2012
                                                                                          Other Earmarked      Total Earmarked
                                                                          AATF                 Funds                 Funds


                      Balance Sheet
FINANCIAL RESULTS




                      Assets
                      Fund balance with Treasury                      $      442,966      $     2,222,507      $    2,665,473
                      Investments, net                                    10,473,786            1,857,678          12,331,464
                      Accounts receivable, net                                    —             4,622,538           4,622,538
                      Other assets                                                —             3,996,271           3,996,271
                      Total assets                                    $   10,916,752       $   12,698,994      $   23,615,746

                      Liabilities and net position
                      AATF amounts due to the FAA                     $    4,532,546       $           —       $    4,532,546
                      Other liabilities                                           —             3,186,121           3,186,121
                      Unexpended appropriations                                   —             1,037,316           1,037,316
                      Cumulative results of operations                     6,384,206            8,475,557          14,859,763
                      Total liabilities and net position              $   10,916,752       $   12,698,994      $   23,615,746

                      Statement of net cost
                      Program costs                                   $            —       $   15,181,396      $   15,181,396
                      Less earned revenue:
                      Aviation insurance premiums                                  —             (160,558)           (160,558)
                      Overflight user fees                                         —               (64,861)            (64,861)
                      Other revenue                                                —             (228,288)           (228,288)
                      Net cost of operations                          $            —       $   14,727,689      $   14,727,689

                      Statement of changes in net position
                      Cumulative results beginning of period          $     5,092,201      $    7,781,069      $   12,873,270
                      Non-exchange revenue:
                      Passenger ticket tax                                  8,711,445                   —            8,711,445
                      International departure tax                           2,728,594                   —            2,728,594
                      Investment income                                       224,628                   —              224,628
                      Fuel taxes                                              622,794                   —              622,794
                      Waybill tax                                             491,845                   —              491,845
                      Tax refunds and credits                                  (22,464)                 —               (22,464)
                      Other revenue                                                 —               20,288               20,288
                      Budgetary financing sources                         (11,464,837)          15,864,711           4,399,874
                      Other financing sources                                       —             (462,822)           (462,822)
                      Net cost of operations                                        —          (14,727,689)        (14,727,689)
                      Cumulative results end of period                      6,384,206            8,475,557          14,859,763
                      Unexpended appropriations                                     —            1,037,316           1,037,316

                      Net position end of period                      $     6,384,206     $     9,512,873      $   15,897,079




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                 107



                                                                              2011
                                                                        Other Earmarked      Total Earmarked
                                                        AATF                 Funds                 Funds


Balance Sheet




                                                                                                                  FINANCIAL RESULTS
Assets
Fund balance with Treasury                          $       921,692      $    2,350,243      $    3,271,935
Investments, net                                          8,685,715           1,650,030          10,335,745
Accounts receivable, net                                         —            4,580,577           4,580,577
Other assets                                                     —            3,545,293           3,545,293
Total assets                                        $     9,607,407      $   12,126,143      $   21,733,550

Liabilities and net position
AATF amounts due to the FAA                         $     4,515,206      $           —       $    4,515,206
Other liabilities                                                —            3,256,903           3,256,903
Unexpended appropriations                                        —            1,088,171           1,088,171
Cumulative results of operations                          5,092,201           7,781,069          12,873,270
Total liabilities and net position                  $     9,607,407      $   12,126,143      $   21,733,550

Statement of net cost
Program costs                                       $            —       $   15,613,152      $   15,613,152
Less earned revenue:
Aviation insurance premiums                                      —             (191,491)           (191,491)
Overflight user fees                                             —               (56,722)            (56,722)
Other revenue                                                    —             (230,103)           (230,103)
Net cost of operations                              $            —       $   15,134,836      $   15,134,836

Statement of changes in net position
Cumulative results beginning of period              $     4,473,264      $    7,102,760      $   11,576,024
Non-exchange revenue:
Passenger ticket tax                                      8,084,593                   —            8,084,593
International departure tax                               2,508,289                   —            2,508,289
Investment income                                           194,223                   —              194,223
Fuel taxes                                                  530,572                   —              530,572
Waybill tax                                                 426,703                   —              426,703
Tax refunds and credits                                       (8,432)                 —                (8,432)
Other revenue                                                     —               18,861              18,861
Budgetary financing sources                             (11,117,011)          15,930,763           4,813,752
Other financing sources                                           —             (136,479)           (136,479)
Net cost of operations                                            —          (15,134,836)        (15,134,836)
Cumulative results end of period                          5,092,201            7,781,069          12,873,270
Unexpended appropriations                                         —            1,088,171           1,088,171

Net position end of period                          $     5,092,201      $    8,869,240      $   13,961,441




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
108



                     X XNOTE        13. Imputed Financing Sources
                     The FAA recognizes as imputed financing the amount of                ended September 30, 2012 and 2011, imputed financing
                     accrued pension and post-retirement benefit expenses                 was as follows:
                     for current employees. The assets and liabilities
FINANCIAL RESULTS




                     associated with such benefits are the responsibility of                                                    2012        2011
                     the administering agency, the OPM. Amounts paid from                 Office of Personnel Management    $ 504,516   $ 680,172
                     the U.S. Treasury’s Judgment Fund in settlement of                   Treasury Judgment Fund               47,628      44,200
                     claims or court assessments against the FAA are also
                                                                                          Total imputed financing sources   $ 552,144   $ 724,372
                     recognized as imputed financing. For the fiscal years




                     X XNOTE        14. Statement of Budgetary Resources Disclosures
                     The Required Supplementary Information section of                    The FAA had no rescissions of budgetary resources in
                     this report includes a schedule of budgetary resources               FY 2012 and $10 million to Operations in FY 2011.
                     by each of the FAA’s major fund types. Budget authority
                     as reported in the Combined Statements of Budgetary                  As of September 30, 2012 and 2011, the amount of
                     Resources includes amounts made available to the FAA                 budgetary resources obligated for undelivered orders was
                     from general, earmarked and special funds. In contrast,              $8.0 billion and $8.2 billion, respectively.
                     appropriations received as reported in the Consolidated
                                                                                          Budget authority on the FY 2011 Combined Statement
                     Statements of Changes in Net Position pertain only to
                                                                                          of Budgetary Resources includes contract authority of
                     amounts made available to the FAA from general funds.
                                                                                          $3.5 billion, a net permanent rescission of $8 million,
                     The following is a reconciliation of these amounts as of
                                                                                          a temporary appropriation reduction of $5 million,
                     September 30:
                                                                                          and aviation user fee collections of $50 million that
                                                                                          are not presented in the Budget of the United States
                                                              2012               2011
                                                                                          Government. Also, obligations incurred on the FY 2011
                      Combined Statement of
                        Budgetary Resources –                                             Combined Statement of Budgetary Resources includes
                        budget authority, net       $ 15,902,370       $ 15,931,672       $119 million of expired funds and $679 million of certain
                      Less amounts made available                                         reimbursable and revolving fund obligations incurred that
                        to the FAA from AATF                                              are not presented in the Budget of the United States
                        dedicated collections           (11,308,981)       (10,955,325)   Government. As a result, the FAA’s FY 2011 Combined
                      Less dedicated sources from                                         Statement of Budgetary Resources differs from FY 2011
                        other sources                          (688)            (2,319)   “actuals” reported in the appendix of the FY 2012 Budget
                      Consolidated Statement of                                           of the United States Government. (The Budget of the
                        Changes in Net Position –                                         United States Government is available on the Internet at
                        appropriations received     $    4,592,701     $    4,974,028     www.whitehouse.gov/omb.) As of the date of issuance
                                                                                          of the FAA’s FY 2012 Combined Statement of Budgetary
                                                                                          Resources, the Budget of the United States Government
                                                                                          for FY 2014, which will contain “actual” FY 2012 amounts,
                                                                                          was not yet published. The Office of Management and
                                                                                          Budget is expected to publish this information early in
                                                                                          calendar year 2013.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                            109



Statement of Budgetary Resources vs. Budget of the United States Government:
                                                                                Budgetary               Obligations
                                                                                Authority                Incurred            Net Outlays
FAA Combined Statement of Budgetary Resources                              $      15,995,000        $      20,747,000    $     15,609,000




                                                                                                                                             FINANCIAL RESULTS
Reconciliation to Budget of the United States Government:
   Transfer in to operations                                                            2,000                      —                   —
   Rescissions                                                                       (10,000)                      —                   —
   Aviation User Fees                                                                (50,000)                      —                   —
   Obligation from Trust Funds                                                         (5,000)             (4,551,000)                 —
   Distributed Offsetting Receipts                                                         —                       —               10,000

Budget of the United States Government                                     $      15,932,000        $      16,196,000    $     15,619,000



OMB Circular A-136 requires the following additional Combined Statement of Budgetary Resources disclosure:
nnThe  FAA does not have obligations classified as “exempt from apportionment.” However, during FY 2012 and FY 2011,
  direct and reimbursable obligations incurred against amounts apportioned under categories A and B, as defined in
  OMB Circular No. A-11, Part 4, Instructions on Budget Execution, were as follows:


                                          2012                                      2011
                             Direct              Reimbursable          Direct               Reimbursable
Category A              $     5,636,863          $    488,819      $  5,117,499             $    439,849
Category B                   15,810,304               269,845        15,748,162                  240,131
Total                   $    21,447,167          $    758,664      $ 20,865,661             $    679,980


Unobligated balances of budgetary resources for unexpired accounts are available in subsequent years until expiration,
upon receipt of an apportionment from OMB. Unobligated balances of expired accounts are not available. At the end of
FY 2011, $67.4 million of obligated balances were in appropriations cancelled at year-end pursuant to 31 U.S.C. 1552 and
thus have not been brought forward to FY 2012. Additionally, transfers in FY 2012 to the DOT for Essential Air Services
also reduced balances available for obligation.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
110



                     X XNOTE              15. Financing Sources Yet to Be Provided
                     The following table shows the relationship between liabilities not covered by budgetary resources as reported on the
                     balance sheets as of September 30, 2012 and 2011, and the change in components of net cost of operations that will
                     require or generate resources in future periods.
FINANCIAL RESULTS




                                                                                                                 2012            2011         Change
                      FECA actuarial (Note 10)                                                            $    946,778    $    909,616    $    37,162
                      Sick leave compensation benefits for eligible employees (Note 8)	                        126,703         118,610          8,093
                      Unfunded annual & other leave & assoc. benefits (Note 8)                                 404,714         402,932          1,782
                      Environmental liabilities (Note 7 & 16)                                                  810,399         757,389         53,010
                      Other accrued liabilities (Note 8)                                                        95,896          43,066         52,830
                         Increases – components of net cost of operations requiring or generating
                         resources in future periods (Note 17)                                                                                152,877

                      FECA payable (Note 8)                                                                    206,118         208,518           (2,400)
                      Legal claims (Note 8)                                                                     34,300          66,200         (31,900)
                      Capital Leases (Notes 8 and 9)	                                                           82,304         106,312         (24,008)
                         Decreases – resources that fund expenses recognized in prior periods (Note 17)                                        (58,308)

                      Total liabilities not covered by budgetary resources                                    2,707,212       2,612,643        94,569

                      Total liabilities covered by budgetary resources                                        1,670,810       1,805,919       (135,109)

                      Total liabilities                                                                   $   4,378,022   $ 4,418,562     $    (40,540)




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                               111



X XNOTE       16. Commitments, Contingencies, and Other Disclosures
Appropriation Status and xReauthorization. Effective            national security, and the foreign policy of the United
October 1, 2012, the FAA is operating under a continuing        States. The FAA may issue non-premium insurance and
resolution (CR), Public Law 112-175, for its FY13               premium insurance for which a risk-based premium is




                                                                                                                                FINANCIAL RESULTS
appropriation and many of its programmatic and financing        charged to the air carrier, to the extent practical.
authorities. The CR will be in effect through March 27,
2013, and allows the FAA to continue spending at a small        During FY 2012, the FAA provided premium war-risk
increase over FY 2012 rates. It also provides sufficient        insurance to 53 airlines. For these airlines, combined
contract authority for the Airport Improvement Program.         hull and liability per occurrence coverage limits range
                                                                from $100 million to $4 billion. The FAA also provided
In addition, the passage of the FAA Modernization and           non-premium war-risk insurance to 37 carriers with 2,387
Reform Act of 2012, Public Law 112-95, authorizes the           aircraft for U.S. Department of Defense charter operations
FAA’s programmatic and financing authorities, including         for Central Command.
Airport Improvement Program contract authority and
the authority to collect excise taxes into and make             As of September 30, 2012, there are pending aviation
expenditures from the AATF. The new authority expires on        insurance claims in the amount of $10 million. There
September 30, 2015.                                             is approximately $1.8 billion available in the Aviation
                                                                Insurance Revolving Fund to pay claims to carriers
Airport Improvement Program. The Airport                        covered by premium insurance. If premium insurance
Improvement Program provides grants for the planning            claims should exceed that amount, additional funding
and development of public-use airports that are included        could be appropriated from the General Fund. The U.S.
in the National Plan of Integrated Airport Systems.             Department of Defense and U.S. Department of State
Eligible projects generally include improvements related        have agreed to pay claims to the carriers covered by non-
to enhancing airport safety, capacity, security, and            premium insurance.
environmental concerns. The FAA’s share of eligible costs
for large and medium primary hub airports is 75% with           Legal Claims. As of September 30, 2012 and 2011, the
the exception of noise program implementation, which is         FAA’s contingent liabilities for asserted and pending legal
80%. For remaining airports (small primary, reliever, and       claims probable and reasonably possible of loss were
general aviation), the FAA’s share of eligible costs is 95%.    estimated at $93 million and $86.6 million, respectively.
                                                                There are other claims that could result in significant
The FAA has authority under 49 U.S.C. 47110(e) to issue         pay-outs; however, it is not possible at this time to
letters of intent to enter into a series of annual Airport      determine the probability of an unfavorable outcome,
Improvement Program grant agreements. FAA records an            or to determine an estimate of potential loss for these
obligation when a grant is awarded. As of September 30,         matters, if any.
2012, FAA had letters of intent extending through FY 2028
totaling $7.4 billion. As of September 30, 2012, the FAA        Environmental Liabilities. As of September 30, 2012,
had obligated $5.8 billion of this total amount, leaving $1.6   the FAA has estimated contingent liabilities, categorized
billion unobligated.                                            as reasonably possible of $190.2 million related to
                                                                environmental remediation. Contingency costs are defined
As of September 30, 2011, the FAA had letters of intent         for environmental liabilities as those costs that may result
extending through FY 2026 totaling $7.5 billion. As of          from incomplete design, unforeseen and unpredictable
September 30, 2011, the FAA had obligated $5.5 billion of       conditions or uncertainties within a defined project scope.
this total amount, leaving $2.0 billion unobligated.
                                                                Subsequent Event. In October 2012, Hurricane Sandy
Aviation Insurance Program. The FAA is authorized               caused flooding and other damage to numerous FAA-owned
to issue hull and liability insurance under the Aviation        facilities in New Jersey, New York, and other areas of the
Insurance Program for air carrier operations for which          northeastern United States. These FAA-owned facilities are
commercial insurance is not available on reasonable             still being assessed to determine the extent of damages
terms and when continuation of U.S. flag commercial             and the cost of necessary repairs. The cost of such repairs
air service is necessary in the interest of air commerce,       has not been fully determined as of the date of this report.




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
112



                     X XNOTE          17. Reconciliation of Net Cost of Operations to Budget
                     This note reconciles the resources available to the FAA to finance operations and the net cost of operating FAA’s
                     programs.
FINANCIAL RESULTS




                                                                                                                                        2012            2011
                      Resources used to finance activities
                      Budgetary resources obligated
                      Obligations incurred                                                                                    $   22,205,831    $ 21,545,641
                         Less: Spending authority from offsetting collections and receipts and recoveries of prior year
                            obligations                                                                                            6,460,246       5,925,058
                         Obligations, net of offsetting collections                                                               15,745,585      15,620,583
                      Other resources
                         Donations and forfeitures of property                                                                       156,817               —
                         Transfers in/(out) without reimbursement                                                                      69,755          (4,234)
                         Imputed financing from costs absorbed by others                                                             552,144         724,372
                         Other                                                                                                       (30,199)        (24,980)
                         Net other resources used to finance activities                                                              748,517         695,158
                            Total resources used to finance activities                                                            16,494,102      16,315,741

                      Resources used to finance items not part of the net cost of operations
                        Change in budgetary resources obligated for goods, services and benefits ordered but not yet
                          received                                                                                                   141,135        (428,847)
                        Resources that fund expenses recognized in prior periods (decreases in unfunded liabilities)
                          (Note 15)                                                                                                   58,308          92,703
                        Resources that finance the acquisition of assets                                                           1,464,254       1,323,520
                        Other resources or adjustments to net obligated resources that do not affect net cost of operations          195,449             328
                          Total resources used to finance items not part of net cost of operations                                 1,859,146         987,704
                              Total resources used to finance net cost of operations                                              14,634,956      15,328,037

                      Components of net cost of operations that will not require
                      or generate resources in the current period
                      Components requiring or generating resources in future periods
                         Increases in annual leave liability and other unfunded liabilities (Note 15)                                152,877          36,196
                      Components not requiring or generating resources in future periods
                         Depreciation and amortization                                                                             1,136,914       1,042,979
                         Other                                                                                                       206,413         281,516
                            Total components of net cost of operations that will not require or generate resources                 1,343,327       1,324,495
                               Total components of net cost of operations that will not require
                               or generate resources in the current period                                                         1,496,204       1,360,691
                              Net cost of operations                                                                          $   16,131,160    $ 16,688,728




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                          113




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                   U.S. Department of Transportation
                                           FEDERAL AVIATION ADMINISTRATION




                                                                                                                                           FINANCIAL RESULTS
                                           STEWARDSHIP INVESTMENT
                                        NON FEDERAL PHYSICAL PROPERTY
                                        AIRPORT IMPROVEMENT PROGRAM
                                             For the Fiscal Years Ended September 30
                                                             Unaudited



State/Territory                            2012                    2011                  2010          2009                      2008

Alabama                             $     54,765         $       41,267         $       70,995   $    88,006           $       53,568
Alaska                                   234,242                185,504                217,745       258,493                  228,082
Arizona                                   73,272                 81,577                 74,873        81,016                   87,839
Arkansas                                  35,746                 58,152                 44,485        41,746                   40,313
California                               212,080                242,701                330,976       257,045                  402,378
Colorado                                  74,102                115,029                112,610       127,959                   54,327
Connecticut                               16,637                 20,654                 29,152        36,016                   13,388
Delaware                                   5,352                  8,240                 11,841        15,112                   11,163
District of Columbia                      44,565                  7,862                 20,336        19,052                    5,652
Florida                                  160,509                143,266                198,920       209,747                  157,214
Georgia                                   90,864                 84,877                 62,908       112,453                  118,644
Hawaii                                    29,024                 29,391                 32,954        81,303                   41,556
Idaho                                     18,813                 21,529                 19,925        26,444                   21,905
Illinois                                 161,320                120,826                123,683       126,249                  116,104
Indiana                                   42,460                 68,204                 65,839        63,444                   66,825
Iowa                                      41,221                 31,191                 40,461        30,776                   37,843
Kansas                                    31,476                 24,293                 55,251        43,475                   22,059
Kentucky                                  24,432                 25,941                 43,532        47,411                   32,981
Louisiana                                 55,676                 63,079                 94,206        66,617                   58,036
Maine                                     18,257                 26,882                 29,465        21,130                   26,631
Maryland                                  15,011                 21,000                 23,741        26,262                   30,575
Massachusetts                             66,044                 55,491                 77,362        77,193                   42,092
Michigan                                  76,900                 85,698                126,271        95,534                  121,795
Minnesota                                 48,313                 54,819                 81,733        62,844                   68,027
Mississippi                               35,713                 60,065                 47,301        43,608                   69,768
Missouri                                  46,445                 38,719                105,807        79,620                  104,980
Montana                                   48,128                 36,530                 41,271        44,214                   28,997
Nebraska                                  34,711                 50,130                 28,140        46,884                   17,051
Nevada                                    50,051                 45,926                 60,035        62,106                   51,045
New Hampshire                             21,070                 14,752                 15,634        21,930                   24,337
New Jersey                                47,444                 75,939                121,679        81,388                  111,692
New Mexico                                26,163                 26,387                 30,488        25,966                   23,273

                                                                                                               (continued on next page)




                       FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
114



                                                                      U.S. Department of Transportation
                                                              FEDERAL AVIATION ADMINISTRATION
                                                             STEWARDSHIP INVESTMENT
                                                          NON FEDERAL PHYSICAL PROPERTY
                                                          AIRPORT IMPROVEMENT PROGRAM
FINANCIAL RESULTS




                                                                For the Fiscal Years Ended September 30
                                                                                Unaudited



                      State/Territory                         2012                    2011                    2010            2009             2008

                      New York                        $     94,424          $       93,252         $       111,390    $    111,873     $      80,292
                      North Carolina                        51,337                  77,725                 109,685         105,959            97,242
                      North Dakota                          28,723                  23,127                  26,195          21,948            19,395
                      Ohio                                  79,962                  97,423                  83,681         106,927           150,547
                      Oklahoma                              37,892                  41,488                  46,774          49,832            33,975
                      Oregon                                36,671                  56,134                  80,910          62,678            35,154
                      Pennsylvania                          82,029                  91,215                 106,319         112,739           119,807
                      Rhode Island                           3,675                   8,059                  20,554           7,441            13,177
                      South Carolina                        49,512                  56,367                  45,763          42,403            34,553
                      South Dakota                          32,712                  29,846                  32,330          32,142            29,557
                      Tennessee                             59,545                  75,136                 101,234          96,655            76,141
                      Texas                                195,321                 240,380                 249,084         289,801           299,473
                      Utah                                  42,705                  49,029                  34,482          39,329            56,319
                      Vermont                                9,998                  26,103                  21,628           8,179             6,234
                      Virginia                              42,571                  32,379                  57,930          81,283            64,932
                      Washington                            89,797                 120,976                  98,228         133,508            97,078
                      West Virginia                         26,544                  27,167                  27,634          28,280            25,256
                      Wisconsin                             51,167                  65,061                  78,599          61,043            48,781
                      Wyoming                               20,108                  22,845                  34,190          25,486            19,323
                      American Samoa                         4,952                  12,315                   6,650           9,273             5,195
                      Guam                                   3,238                  11,952                  19,574          38,245            18,683
                      Northern Mariana Island                5,714                  10,502                  14,420           8,678            12,151
                      Puerto Rico                           11,492                   6,569                  12,019          20,625            16,578
                      Virgin Islands                         2,545                  16,076                   7,602           3,698             6,892
                      Marshall Island                        2,669                   4,463                  24,514
                      Administration                       133,576                 127,202                 124,454         115,902            96,965

                      Totals                          $   3,139,685         $    3,388,712         $      4,015,462   $   4,034,970    $   3,753,840



                     The FAA makes project grants for airport planning and               needs of civil aeronautics. The FAA works to improve
                     development under the Airport Improvement Program                   the infrastructure of the Nation’s airports, in cooperation
                     to maintain a safe and efficient nationwide system of               with airport authorities, local and state governments, and
                     public-use airports that meets both present and future              metropolitan planning authorities.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                    115



                                                  U.S. Department of Transportation
                                           FEDERAL AVIATION ADMINISTRATION
                                           STEWARDSHIP INVESTMENT
                                          RESEARCH AND DEVELOPMENT
                                             For the Fiscal Years Ended September 30
                                                             Unaudited




                                                                                                                                     FINANCIAL RESULTS
Expenses                                   2012                   2011                  2010             2009               2008

Applied Research                    $   133,932           $    129,954          $     103,042     $    95,764        $     88,114
Development                               1,311                  2,238                  2,008           1,102                 814
Administration                           37,482                 35,875                 36,723          35,055              33,519
R&D Plant                                18,974                  5,848                  5,590           3,381               3,498
Total                               $   191,699           $    173,915          $     147,363     $   135,302        $   125,945



The FAA conducts research and provides the essential air             nnThe    FAA developed a National Ceiling and Visibility
traffic control infrastructure to meet increasing demands                Analysis (CVA) that provides real time analysis of
for higher levels of safety, efficiency, and environmental               current ceiling and visibility conditions, updated every
improvement.                                                             five minutes within a 5 kilometer grid, across the
                                                                         continental United States, excluding Alaska. Currently
Research priorities include aircraft structures and                      low ceilings and restricted visibility are the cause
materials; fire and cabin safety; crash injury protection;               of 72% of general aviation (GA) weather related
explosive detection systems; ground de-icing operations                  accidents. CVA was implemented operationally onto
and decreased in-flight ice buildup; better tools to predict             the web based Aviation Digital Data Service at the
and warn of weather hazards, turbulence, and wake                        National Oceanic and Atmospheric Administration’
vortices; aviation medicine; and human factors. Human                    weather center in Kansas City. As a safety tool to
factors refer to research on how people (e.g., air traffic               improve situational awareness, CVA targets the safety-
controllers and pilots) perform when interacting with,                   of-operations needs of GA. Further enhancement by
for example, technology and equipment, under various                     FY 2016 will include capability for Alaska.
conditions. Optimizing this interaction contributes toward
                                                                     nnOne     major enabling technology of NextGen is data
higher levels of safe air travel.
                                                                         communications (Data Comm), which is an electronic
nnThe  FAA developed the Current and Forecast Icing                      text based message transferring system between
  Products which provide more accurate and timely                        aircraft and ground stations. Switching to Data Comm
  diagnoses and forecasts of atmospheric conditions                      from the current voice communications as the primary
  that lead to ice accretion on aircraft during flight. The              communication between flight crew and air traffic
  two icing products use automated algorithms to gather                  control (ATC) will require development of flight deck
  real time information from satellites, radars, weather                 procedures for interacting with Data Comm. Two
  models, surface stations and pilot reports. This data                  research projects are underway: (1) to assess pilot
  helps determine the probability of encountering icing,                 situational awareness, decision making, and workload
  its expected severity and the likelihood of large droplet              with Data Comm compared to voice communication;
  icing conditions. This capability is especially beneficial             and (2) to evaluate the procedures for receiving and
  to commuter and smaller aircraft without ice protection                reading Data Comm messages and generating the
  as well as those flying at altitudes below 24,000 feet                 appropriate response. The results of this research
  where they are more likely to encounter atmospheric                    will be used to inform further Data Comm procedure
  conditions conducive to icing.                                         development and eventual procedure implementation
                                                                         supporting NextGen operations.




                   FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
116



                      nnAlternative  jet fuel provides great promise for the      point in the supply chain. One concept that has
                        airline industry from an environmental, energy            received significant industry interest is to locate an
                        security, and economic perspective. In FY12 several       alternative fuel production facility on, or adjacent
                        demonstration flights have shown that technology          to, an airport to take advantage of known demand.
                        is available to produce alternative jet fuel that can     A handbook was developed for airport operators
FINANCIAL RESULTS




                        be used to safely fly existing aircraft. Key challenges   and others associated with alternative fuels to
                        to moving forward include formation of an effective       address legal, environmental, financial, and logistical
                        business plan addressing production at marketable         considerations and to aid in evaluating the feasibility of
                        prices and quantities deliverable at the appropriate      providing this capability.




                    PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                               117




REQUIRED SUPPLEMENTARY INFORMATION
                                             U.S. Department of Transportation
                                        FEDERAL AVIATION ADMINISTRATION




                                                                                                                                FINANCIAL RESULTS
                                       SUPPLEMENTARY INFORMATION
                                           DEFERRED MAINTENANCE
                                                 As of September 30, 2012
                                                         Unaudited



                                                                                                            Costs to return
                                                                                                            to acceptable
 Category                                         Method                         Asset condition*             condition

 Buildings                                  Condition assessment                       4&5                      $     56,166
 Other structures and facilities            Condition assessment                       4&5                      $    243,295
* Condition Rating Scale: 4–Poor; 5–Very Poor
	


Deferred maintenance is maintenance that was not                Number 14, “Amendments to Deferred Maintenance
performed when it should have been, or was scheduled            Reporting” (amends SFFAS’s 6 and 8), and SFFAS
to be performed but was delayed until a future period           Number 40, Definitional Changes Related to Deferred
due to a lack of resources or funding. The FAA reports          Maintenance and Repairs (amends SFFAS 6).
deferred maintenance only on assets with condition
ratings of 4 and 5, in compliance with the Statement of         Deferred maintenance is estimated using condition
Federal Financial Accounting Standards (SFFAS) Number           assessment surveys and includes the following buildings,
6, “Accounting for Property, Plant, and Equipment”, SFFAS       structures, and facilities: Enroute, Terminal, FAA Technical
Number 8, “Supplemental Stewardship Reporting”, SFFAS           Center, FAA Aeronautical Center and unstaffed facilities.
                                                                The FAA recognizes maintenance expense as incurred.




                     FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
                                                                                                                                                                                                                                           FINANCIAL RESULTS
                                                                                                                                                                                                                                                                                                               118

                                                                                                                                                                                   U. S. Department of Transportation
                                                                                                                                                                              FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                  SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND TYPE
                                                                                                                                                                                        As of September 30, 2012
                                                                                                                                                                                                Unaudited


                                                                                                                                                               Trust Fund       Trust Fund         Trust Fund             Aviation
                                                                                                                                                            Grants-in-Aid      Facilities &    Research, Eng.           Insurance         Franchise                               Other         Combined
                                                                                                                                                              to Airports      Equipment       & Development             Revolving            Fund         Operations             Funds             Total
                                                                                           BUDGETARY RESOURCES
                                                                                             Unobligated balance brought forward, transfers and other       $      12,531      $ 1,479,618      $       82,707     $ 1,671,936        $     127,592    $      162,187     $      19,640     $     3,556,211
                                                                                             Recoveries of prior year obligations                                 145,952          122,692               6,676                  53           18,850           112,754              6,913           413,890
                                                                                             Other changes in unobligated balance                                      —           (70,177)             (1,966)                 —                —            (60,234)           15,536           (116,841)
                                                                                             Appropriations                                                            —         2,730,732            167,572                   —                —          4,592,701         5,061,365         12,552,370
                                                                                             Contract Authority                                                 3,350,000               —                   —                   —                —                 —                 —            3,350,000
                                                                                             Spending authority from offsetting collections                            230           56,548              6,154            161,763           451,454          5,293,517              213           5,969,879
                                                                                           Total Budgetary Resources                                        $   3,508,713      $ 4,319,413      $     261,143      $ 1,833,752        $     597,896    $ 10,100,925       $ 5,103,667       $   25,725,509

                                                                                           STATUS OF BUDGETARY RESOURCES
                                                                                             Obligations incurred                                           $   3,494,492      $ 3,053,596      $     180,374      $         (587)    $     488,819    $ 9,928,070        $ 5,061,067       $   22,205,831
                                                                                             Apportioned	                                                            2,473       1,172,189              49,167              43,634           98,125            65,325                  1          1,430,914
                                                                                             Unapportioned                                                         11,748           93,628              31,602           1,790,705           10,952           107,530            42,599           2,088,764
                                                                                           Total Status of Budgetary Resources                              $   3,508,713      $ 4,319,413      $     261,143      $ 1,833,752        $     597,896    $ 10,100,925       $ 5,103,667       $   25,725,509

                                                                                           CHANGE IN OBLIGATED BALANCES
                                                                                             Obligated balance, net, beginning of period                    $   5,223,111      $ 1,905,142      $     152,482      $         5,546    $     129,561    $ 1,491,128        $      48,089     $     8,955,059
                                                                                             Obligations incurred                                               3,494,492        3,053,596            180,374                (587)          488,819         9,928,070         5,061,067         22,205,831
                                                                                             Gross Outlays                                                      (3,143,869)      (2,968,584)          (187,866)             (3,159)        (443,427)        (9,922,552)       (5,096,844)       (21,766,301)
                                                                                             Recoveries of prior year obligations                                (145,952)        (122,692)             (6,676)                (53)         (18,850)         (112,754)            (6,913)         (413,890)
                                                                                             Change in uncollected customer payments from Federal sources              —            (6,166)             (1,890)                 —             6,340           (40,870)               (66)          (42,652)
                                                                                           Obligated balance, net, end of period                            $   5,427,782      $ 1,861,296      $     136,424      $         1,747    $     162,443    $ 1,343,022        $        5,333    $     8,938,047

                                                                                           BUDGET AUTHORITY AND OUTLAYS
                                                                                             Budget authority, gross                                        $   3,350,230      $ 2,787,280      $     173,726      $      161,763     $     451,454    $ 9,886,218        $ 5,061,578       $   21,872,249
                                                                                             Actual offsetting collections                                            (230)         (50,382)            (4,264)          (161,763)         (457,794)        (5,252,647)            (147)         (5,927,227)
                                                                                             Change in uncollected customer payments from Federal sources               —            (6,166)            (1,890)                 —             6,340            (40,870)             (66)            (42,652)




PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           Budget authority, net			                                         $   3,350,000      $ 2,730,732      $     167,572      $            —     $          —     $ 4,592,701        $ 5,061,365       $   15,902,370

                                                                                           NET OUTLAYS
                                                                                             Gross outlays                                                  $   3,143,869      $ 2,968,584      $     187,866      $         3,159    $     443,427    $ 9,922,552        $ 5,096,844       $   21,766,301
                                                                                             Offsetting collections                                                   (230)         (50,382)            (4,264)           (161,763)        (457,794)        (5,252,647)             (147)        (5,927,227)
                                                                                             Distributed offsetting receipts                                           —                —                   —                   —                —                 —             (11,560)           (11,560)
                                                                                           Net Outlays                                                      $   3,143,639      $ 2,918,202      $     183,602      $     (158,604)    $     (14,367)   $ 4,669,905        $ 5,085,137       $   15,827,514
                                                                                                                                                                                   U. S. Department of Transportation
                                                                                                                                                                              FEDERAL AVIATION ADMINISTRATION
                                                                                                                                                  SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND TYPE
                                                                                                                                                                                        As of September 30, 2011
                                                                                                                                                                                               Unaudited


                                                                                                                                                               Trust Fund       Trust Fund         Trust Fund             Aviation
                                                                                                                                                            Grants-in-Aid      Facilities &    Research, Eng.           Insurance         Franchise                               Other         Combined
                                                                                                                                                              to Airports      Equipment       & Development             Revolving            Fund         Operations             Funds             Total
                                                                                           BUDGETARY RESOURCES
                                                                                             Unobligated balance brought forward, transfers and other       $        4,297     $ 1,505,136      $       56,504     $ 1,449,853        $     130,231    $      174,322     $        1,562    $     3,321,905
                                                                                             Recoveries of prior year obligations                                 143,610          114,379              30,498               3,144           25,838           150,285            18,668            486,422
                                                                                             Other changes in unobligated balance                                      —           (22,958)             (2,116)                —                —             (40,967)               —             (66,041)
                                                                                             Appropriations                                                            —         2,730,731            169,679                  —                —           4,966,380         4,549,882         12,416,672
                                                                                             Contract Authority                                                  3,515,000               —                  —                  —                —                   —                —            3,515,000
                                                                                             Spending authority from offsetting collections                            361           53,025              2,624            222,697           411,372          4,737,482              333           5,427,894
                                                                                           Total Budgetary Resources                                        $   3,663,268      $ 4,380,313      $     257,189      $ 1,675,694        $     567,441    $    9,987,502     $ 4,570,445       $   25,101,852

                                                                                           STATUS OF BUDGETARY RESOURCES
                                                                                             Obligations incurred                                           $   3,650,737      $ 2,900,695      $     174,482      $         3,758    $     439,849    $    9,825,315     $ 4,550,805       $   21,545,641
                                                                                             Apportioned	                                                            9,095       1,364,117              51,529              48,897          121,144            75,730                  1          1,670,513
                                                                                             Unapportioned                                                           3,436         115,501              31,178           1,623,039            6,448            86,457            19,639           1,885,698
                                                                                           Total Status of Budgetary Resources                              $   3,663,268      $ 4,380,313      $     257,189      $ 1,675,694        $     567,441    $    9,987,502     $ 4,570,445       $   25,101,852

                                                                                           CHANGE IN OBLIGATED BALANCES
                                                                                             Obligated balance, net, beginning of period                    $   4,932,755      $ 1,922,849      $     185,165      $         4,762    $     163,838    $    1,414,260     $     319,384     $     8,943,013
                                                                                             Obligations incurred                                               3,650,737        2,900,695            174,482                3,758          439,849         9,825,315         4,550,805         21,545,641
                                                                                             Gross Outlays                                                      (3,216,771)      (2,817,755)          (181,128)                170         (458,642)        (9,624,666)       (4,803,272)       (21,102,064)
                                                                                             Recoveries of prior year obligations                                (143,610)        (114,379)            (30,498)             (3,144)         (25,838)         (150,285)           (18,668)         (486,422)
                                                                                             Change in uncollected customer payments from Federal sources              —            13,732               4,461                 —             10,354            26,504               (160)            54,891
                                                                                           Obligated balance, net, end of period                            $   5,223,111      $ 1,905,142      $     152,482      $         5,546    $     129,561    $    1,491,128     $      48,089     $     8,955,059

                                                                                           BUDGET AUTHORITY AND OUTLAYS
                                                                                             Budget authority, gross                                        $   3,515,361      $ 2,783,756      $     172,303      $      222,697     $     411,372    $    9,703,862     $ 4,550,215       $   21,359,566
                                                                                             Actual offsetting collections                                            (361)         (66,757)            (7,085)          (222,697)         (421,726)        (4,763,986)            (173)         (5,482,785)
                                                                                             Change in uncollected customer payments from Federal sources               —            13,732              4,461                 —             10,354             26,504             (160)             54,891
                                                                                           Budget authority, net			                                         $   5,223,111      $ 2,730,731      $     169,679      $           —      $         —      $    4,966,380     $ 4,549,882       $   15,931,672

                                                                                           NET OUTLAYS
                                                                                             Gross outlays                                                  $   3,216,771      $ 2,817,755      $     181,128      $         (170)    $     458,642    $    9,624,666     $ 4,803,272       $   21,102,064
                                                                                             Offsetting collections                                                   (361)         (66,757)            (7,085)           (222,697)        (421,726)        (4,763,986)             (173)        (5,482,785)
                                                                                             Distributed offsetting receipts                                           —                —                   —                  —                —                  —             (10,742)           (10,742)
                                                                                           Net Outlays                                                      $   3,216,410      $ 2,750,998      $     174,043      $     (222,867)    $      36,916    $    4,860,680     $ 4,792,357       $   15,608,537




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
                                                                                                                                                                                                                                           FINANCIAL RESULTS
                                                                                                                                                                                                                                                                                                               119
120




      OTHER ACCOMPANYING
              INFORMATION
                                                                                                                      121




SUMMARY OF INSPECTOR GENERAL’S TOP MANAGEMENT
CHALLENGES
The Reports Consolidation Act of 2000 requires the Inspector General to identify and report each year on the most




                                                                                                                       OTHER ACCOMPANYING INFORMATION
serious management and performance challenges that Federal agencies face. The DOT IG’s report, which is issued soon
after the beginning of the fiscal year, highlights urgent issues for the Department as a whole.




                                                                    Memorandum
                        U.S. Department of
                        Transportation
                        Office of the Secretary
                        of Transportation
                        Office of Inspector General


             Subject:   INFORMATION: DOT’s                                             Date:   November 15, 2011
                        Fiscal Year 2012 Top Management Challenges
                        Department of Transportation
                        Report Number PT-2012-006

               From:    Calvin L. Scovel III                                       Reply to
                                                                                   Attn. of:   J-1
                        Inspector General

                 To:    The Secretary
                        Deputy Secretary

                        As required by law, we have identified the Department of Transportation’s (DOT) top
                        management challenges for fiscal year 2012. The Nation’s economy and the quality of
                        life for all Americans rely heavily on a safe transportation system. The Department
                        spends over $78 billion annually on a wide range of programs and initiatives to meet
                        this objective, and we continue to support its efforts through our audits and
                        investigations.

                        Improving safety remains the Department’s top priority, and it undertook several
                        initiatives in fiscal year 2011 that reflect this commitment across various modes of
                        transportation. These include issuing new regulations to keep unsafe drivers off
                        highways, undertaking new bridge safety efforts, and pursuing rulemakings to address
                        pilot professionalism and training. However, recent safety incidents demand renewed
                        focus across several key areas for fiscal year 2012 and beyond. These include doing
                        more to ensure controllers maintain safe separation between aircraft, addressing pilot
                        fatigue issues, identifying and addressing vehicle safety defects, and improving
                        pipeline safety oversight at the state and Federal levels.

                        The Department must address these challenges in an austere budget environment
                        while also executing new infrastructure efforts across the Nation and handling
                        longstanding management issues. For example, many highway and transit projects
                        funded by the American Recovery and Reinvestment Act are still under construction
                        and require vigilant oversight to maximize those investments. Budget constraints and
                        problems with existing projects are also forcing the Department to rethink
                        investments and priorities for the Next Generation Air Transportation System—which


                        2012 Top Management Challenges, Department of Transportation




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
122
OTHER ACCOMPANYING INFORMATION




                                                  is critical to meet future air travel demands. The Department must also better balance
                                                  and prioritize resources to achieve its vision for intercity passenger rail.

                                                  Moreover, expanding and supporting our Nation’s transportation infrastructure
                                                  translates to billions of dollars on contracts for goods and services. Careful
                                                  stewardship of every taxpayer dollar is critical given current fiscal pressures and the
                                                  growing demand for improvements. The Department continues to face management
                                                  challenges to strategically plan and oversee acquisitions and must adequately prepare
                                                  its workforce to ensure each project achieves mission results. Finally, supporting all
                                                  of the Department’s programs and efforts are hundreds of information systems that
                                                  will require resources to ensure security programs mitigate emerging cyber threats
                                                  and vulnerabilities.

                                                  We continue to build a body of work to assist the Department with its critical mission;
                                                  improve the management and execution of programs; and protect the Department’s
                                                  resources from fraud, waste, abuse, and violations of law.

                                                  We considered several criteria in identifying the following nine challenges, including
                                                  their impact on safety, documented vulnerabilities, large dollar implications, and the
                                                  ability of the Department to effect change in these areas:

                                                    • Enhancing the Department’s Oversight of Highway, Bridge, and Transit Safety
                                                    • Ensuring Effective Oversight on Key Initiatives That Can Improve Aviation
                                                      Safety
                                                    • Ensuring Effective Oversight of Hazardous Liquid and Natural Gas Pipeline
                                                      Safety
                                                    • Ensuring Effective Oversight of ARRA Projects and Applying Related Lessons
                                                      Learned To Improve DOT’s Infrastructure Programs
                                                    • Managing the Next Generation Air Transportation System Advancement While
                                                      Controlling Costs
                                                    • Managing DOT Acquisitions in a More Strategic Manner To Maximize Limited
                                                      Resources and Achieve Better Mission Results
                                                    • Improving the Department’s Cyber Security
                                                    • Defining Clear Goals To Guide the Federal Railroad Administration in Its
                                                      Transformation
                                                   • Utilizing Department Credit Programs                  To    Leverage   Limited   Federal
                                                     Transportation Infrastructure Resources




                                                  2012 Top Management Challenges, Department of Transportation                          ii




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                           123




                                                                                            OTHER ACCOMPANYING INFORMATION
We are committed to keeping decision makers informed of emerging and
longstanding issues identified through our audits and investigations. We appreciate
the Department’s responsiveness to our findings and recommendations and the
commitment to taking prompt corrective action.

This report and the Department’s response will be included in the Department’s
Annual Financial Report, as required by law. The Department’s response is included
in its entirety in the appendix to this report. If you have any questions regarding the
issues presented in this report, please contact me at (202) 366-1959. You may also
contact Lou E. Dixon, Principal Assistant Inspector General for Auditing and
Evaluation, at (202) 366-1427.

                                                #

cc: Martin Gertel, M-1




2012 Top Management Challenges, Department of Transportation                      iii




FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
124



                                  The FAA had the lead role in addressing some challenges      Ensuring Effective Oversight of Key
                                  identified by the DOT Inspector General while we             Initiatives That Can Improve Aviation
                                  provided support to the Department in others. There          Safety
                                  were some challenges that were specifically related to
                                                                                               KEY CHALLENGE: Identifying and Addressing the
                                  other DOT modes—the FAA had no required actions. Of
OTHER ACCOMPANYING INFORMATION




                                                                                                 Causes of Recent Increases in Operational Errors
                                  the nine challenges identified in the memo, the FAA was
                                  responsible for addressing the following five in FY 2012:    ISSUE: It is unclear whether the increase of operational
                                   nnEnsuringEffective Oversight of Key Initiatives That Can     errors from FY 2009 and FY 2010 is due to more errors
                                     Improve Aviation Safety                                     taking place or to the improved reporting within the
                                                                                                 agency. Through continued auditing, the OIG believes
                                   nnEnsuring  Effective Oversight of ARRA Projects and
                                                                                                 that other factors are contributing to the increase in
                                     Applying Related Lessons Learned to Improve DOT’s
                                                                                                 operational errors, rather than the Air Traffic Safety
                                     Infrastructure Programs
                                                                                                 Action Program.
                                   nnManaging the Next Generation Air Transportation
                                     System Advancement While Controlling Costs                  Implementing systems and processes that capture
                                   nnManaging  DOT Acquisitions in a Smarter and More            accurate and complete data is critical for the FAA to
                                     Strategic Manner to Maximize Limited Resources and          determine the true magnitude of operational errors,
                                     Achieve Better Mission Results                              assess their potential safety impacts, identify their root
                                                                                                 causes, and develop actions to effectively address and
                                   nnImproving   the Department’s Cyber Security
                                                                                                 mitigate them.
                                  Under each DOT challenge there are separate key
                                                                                               SUMMARY OF ACTIONS TAKEN IN FY 2012:
                                  challenges. For each of these items, the FAA developed
                                                                                                 In January, the FAA implemented new orders and
                                  an Action Plan with specific steps and a timeline for
                                                                                                 tools that support a proactive approach to safety
                                  addressing the challenge. At the end of the fiscal year
                                                                                                 management. These orders addressed the reporting of
                                  an Actions Taken Report was submitted to the IG which
                                                                                                 safety occurrences, quality assurance, quality control,
                                  provided progress made by the agency in addressing
                                                                                                 voluntary safety reporting, and individual performance
                                  each challenge. The DOT Office of Inspector General
                                                                                                 management.
                                  Top Management Challenges Report, as well as detailed
                                  Action Plans and Actions Taken Reports are posted on           Concurrent with these orders, the FAA implemented
                                  the FAA’s website at http://www.faa.gov/about/plans_           Comprehensive Electronic Data Analysis and Reporting
                                  reports/ under the DOT IG Top Management Challenges            (CEDAR), Falcon 3 and Traffic Analysis and Review
                                  section.                                                       Program (TARP). CEDAR provides a transparent data
                                                                                                 repository and Falcon 3 provides replay capabilities
                                                                                                 linked in CEDAR. TARP electronically collects
                                                                                                 airborne RADAR loss of separation alerts in terminal
                                                                                                 airspace. Potential safety occurrences are reported
                                                                                                 by operational personnel through a user interface
                                                                                                 into CEDAR. In addition, TARP alerts are collected
                                                                                                 automatically in CEDAR. This data is reviewed and
                                                                                                 validated by ATO Safety and Technical Training staff in
                                                                                                 FAA service area offices daily.  

                                                                                                 In September, Quality Control Checks and Validations
                                                                                                 were implemented in CEDAR to support Quality
                                                                                                 Control Programs at each service delivery point.
                                                                                                 These processes and associated CEDAR modules use
                                                                                                 available data to identify issues and ensure compliance
                                                                                                 with established quality control processes. 




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                              125



KEY CHALLENGE: Maintaining momentum in addressing               KEY CHALLENGE: Advancing risk-based oversight of
  pilot fatigue                                                   repair stations and aircraft manufacturers

ISSUE: The February 2009 crash of Colgan Air flight             ISSUE: Weaknesses are present in the FAA’s Organization
  3407 underscored the importance of addressing                   Designation Authorization (ODA) program, which is




                                                                                                                               OTHER ACCOMPANYING INFORMATION
  longstanding concerns about pilot training and fatigue.         the FAA program for authorizing organizations to issue
  Since then, the FAA has issued a supplemental                   approvals and certificates on the FAA’s behalf and the
  notice of proposed rulemaking (SNPRM) to revise                 Risk-Based Resource Targeting System (RBRT), which
  crewmember training requirements. The agency also               is a tool used to assess risk and direct resources in
  published a notice of proposed rulemaking (NPRM)                the Aircraft Certification Service. OIG believes the FAA
  to revise flight, duty and rest requirements for                has not adequately trained engineers on enforcement
  commercial carriers. However, the OIG believes the              responsibilities and some offices have not effectively
  FAA still faces challenges tracking pilots with poor            tracked or addressed poorly performing ODA
  performance and training deficiencies, overseeing               personnel. In addition ODA significantly reduced the
  air carrier programs aimed at improving pilot skills            FAA’s role in approving individuals who perform work
  and improving its awareness of the extent of pilot              on the FAA’s behalf.
  commuting and fatigue within the air carrier industry.
                                                                SUMMARY OF ACTIONS TAKEN IN FY 2012:
SUMMARY OF ACTIONS TAKEN IN FY 2012:                              This year, the FAA mandated that personnel review
  This year, the FAA continued to work on its final rule          each ODA unit (those individuals authorized within an
  to revise crewmember training requirements. We                  ODA holders organization) selection decision made
  also issued an NPRM that proposed to revise the                 by an ODA holder for at least two years after an ODA
  requirements to obtain an airline transport pilot (ATP)         holder is appointed. After two years, the ODA holder
  certificate and to require all pilots operating in Part 121     may then select unit members without FAA review
  to have an ATP. The FAA worked in the area of stall             if they have demonstrated satisfactory performance.
  and stick pusher training by issuing an advisory circular       Improvements to the FAA Academy Delegation
  on Stall and Stick Pusher Training and by revising              Management course were incorporated to address
  the Practical Test Standards for the ATP. Additionally,         the mandatory review of selection decisions and the
  the FAA has initiated a rulemaking project to revise            appropriate role of the agency in reviewing selection
  qualification standards for flight simulators to support        decisions.
  stall training in a simulator.
                                                                  Additional focus on ODA regulatory violations,
  In January 2012, the FAA published its final rule on            including participation by headquarters personnel,
  flight, duty and rest requirements for commercial               has been introduced into the FAA’s Compliance and
  air carriers. We drafted four advisory circulars to             Enforcement training to ensure that field personnel
  support the rule which address Fatigue Education                responsible for overseeing ODA organizations are
  and Awareness Training, On-Board Rest Facilities,               familiar with the compliance and enforcement process
  Fitness for Duty and Fatigue Risk Management                    and tools. Increasing numbers of engineers from FAA
  Systems (FRMS). The advisory circulars are in internal          field offices, who have not historically been involved in
  coordination. Additionally, as a result of the FAA              compliance and enforcement, now attend the course.
  Modernization and Reform Act of 2012, the FAA
  initiated rulemaking to include Part 91 operations into a       A learning module for RBRT is now in place and
  flight duty period for Part 121. We approved all fatigue        designed to provide more training to the engineers
  risk management plans for Part 121 air carriers and             and inspectors that are required to use RBRT. All
  continue to review and approve revisions as proposed            required users were identified and the training was
  by the air carriers.                                            added to their learning plans for completion by March
                                                                  31, 2012. Additionally, the business process owner
                                                                  group conducted a series of on-site and computer
                                                                  demonstrations to show engineers and inspectors
                                                                  how the RBRT process works. This includes both a




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
126



                                     presentation on the purpose of the process and a               grants and funding. The system allows greater grant
                                     live demo of the actual IT tool. This on-site training         oversight on those sponsors that pose the highest risk
                                     was used to supplement the material in the learning            for potential improper payments.
                                     module and was completed at all locations in the first
                                     quarter of FY 2012.                                            Finally, the draft AIP handbook is well underway and
OTHER ACCOMPANYING INFORMATION




                                                                                                    includes updates to the grant oversight risk model
                                                                                                    and policy. This re-write gives Airports and FAA field
                                  Ensuring Effective Oversight of ARRA                              personnel the steps that are required to properly
                                  Projects and Applying Related Lessons                             administer the AIP funded projects.
                                  Learned to Improve DOT’s Infrastructure
                                  Programs
                                  KEY CHALLENGE: Strengthening financial oversight of             KEY CHALLENGE: Preventing and detecting
                                    grantees through Single Audits and detecting improper           transportation fraud through proactive measures
                                    payments
                                                                                                  ISSUE: ARRA funding and significant construction activity
                                  ISSUE: The Inspector General has reported that the                emphasize the need for DOT and OIG to continue
                                    approach to AIP grant oversight is inadequate despite           to aggressively pursue counter-fraud efforts so that
                                    corrective actions previously taken. Management’s               limited Federal dollars are not wasted. The Department
                                    attention is continually needed to ensure that accurate         must ensure adequate oversight and accountability.
                                    decisions are made regarding Single Audit findings and          DOT’s Operating Administrations’ role in outreach is
                                    that an appropriate tracking system is in place in order        critical to ensuring recipients of Federal grants and
                                    to effectively prevent or detect improper payments.             contracts have meaningful ethics programs and sound
                                                                                                    internal controls.
                                  SUMMARY OF ACTIONS TAKEN IN FY 2012:
                                    In FY 2012, ARP continued to track OIG findings and           SUMMARY OF ACTIONS TAKEN IN FY 2012:
                                    coordinate with the regional offices to assist in grant         In FY 2012, ARP completed a system for providing
                                    oversight. Additionally, a sample was sent out to the           a more robust method of evaluating airport sponsor
                                    regional offices of those sponsors that expended                risks for managing AIP grants and funding. The system
                                    $500,000 or more a year in federal awards. We                   allows greater grant oversight on those sponsors that
                                    required documentation to show if a sponsor had in              pose the highest risk for potential improper payments.
                                    fact filed with the Federal Audit Clearinghouse.                A policy has been issued and implemented for FY 2013
                                                                                                    that will address these concerns.
                                     The Internal Regional Audit will now include the Single
                                     Audit review. Each regional office is subject to an            ARP also updated its guidance to field offices and
                                     annual review by an analyst from a different region.           airport sponsors regarding the completion of a price
                                     Samples are pulled for the internal audit as well as           cost analysis for AIP procurements. The guidance
                                     the Single Audit. Each grant selected is compared              clarifies the elements of a price or cost analysis and
                                     against a checklist that includes all required information     becomes part of the basis for future project payments.
                                     deemed necessary by ARP’s guidance. At the end of
                                     each regional review, a status report is provided which        Finally, an AIP handbook is well underway and includes
                                     serves as an alert for inadequate findings. ARP is             updates to the grant oversight risk model and policy.
                                     tracking Single Audit findings using a Tiger Report from       The draft has been submitted to AGC for initial review
                                     DOT and following up with the appropriate region for           and is anticipated to be available in draft form for
                                     further action.                                                training purposes in FY 2013.

                                     ARP coordinated with contractors and completed
                                     a system for providing a more robust method of
                                     evaluating airport sponsor risks for managing AIP




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                       127



Managing the Next Generation Air                             We continue to work closely with the safety
Transportation System Advancement While                      organization by performing analyses of potential
Controlling Costs                                            hazards associated with human performance in
                                                             the NextGen mid-term. We completed a Human
KEY CHALLENGE: Setting realistic plans, budgets, and
                                                             Performance Hazard Assessment in February 2012,




                                                                                                                        OTHER ACCOMPANYING INFORMATION
  expectations for NextGen in a fiscally constrained
                                                             and the NextGen Human Error/Safety Database for
  environment
                                                             Off-Nominal NextGen Conditions in June 2012 (an
ISSUE: The Department and the FAA have struggled with        analysis of errors and other human performance issues
  defining NextGen and setting realistic expectations for    in the NAS in off-nominal conditions in the NextGen
  what can be accomplished in the near, mid-, and long       time frame).
  term.
                                                             The FAA conducted low-fidelity simulations to
  The current constrained budget and problems with           determine how to best integrate the environed level
  existing projects are forcing the FAA to rethink the       of automation and reduce risk by exploring the level
  capital investments and NextGen priorities. Therefore,     of service that can be achieved given the introduction
  the FAA will face challenges in sustaining existing        of automation. We completed these in September
  projects and facilities while introducing new NextGen-     2012 and the project has since been terminated due to
  related capabilities.                                      budget constraints.

  The FAA has yet to make critical decisions regarding       Additionally, the Human Factors Branch at the William
  (1) what new capabilities will reside in aircraft or in    J. Hughes Technical Center is supporting program
  FAA’s ground-based automation systems, (2) the level       offices in En Route and Traffic Flow Management
  of automation for controllers that can realistically and   to study automation in air traffic control and to offer
  safely be achieved, and (3) the number and locations       guidance for implementation. This fiscal year, we
  of air traffic facilities needed to support NextGen.       conducted high fidelity Human-in-the-Loop (HITL)
  Finally, (4) the FAA has not identified clear goals        experiments that involved NATCA controllers, delivered
  for performance capabilities or metric for NextGen         technical reports, developed an initial specification,
  initiative.                                                participated in the Future ERAM Computer-Human
                                                             Interface (CHI) Team, and conducted cognitive
SUMMARY OF ACTIONS TAKEN IN FY 2012:                         walkthroughs. In support of Traffic Flow Management,
  (1) The FAA has determined that the ground-based           we conducted analyses of where automation should
  automation system (GBAS) did not provide a strong          be implemented, and designed and developed new
  enough benefits case to proceed with further               automation for traffic managers.
  deployment and acquisition, although FAA support and
  approval for prototypes of non-Federal systems will        (3) The FAA has been working with stakeholders on
  continue to be available. We continue to support the       developing a plan for future facilities.
  early implementers of GBAS within the U.S. in order
                                                             (4) The FAA published its NextGen Performance
  to gain much needed operational experience with the
                                                             Snapshots (NPS) in March 2012. This website
  system.
                                                             is designed to provide reports on operational
  (2) The level of automation for controllers is being       performance as a result of the implementation of
  addressed through on-going human factors research,         NextGen capabilities. The NPS shows both metrics
  and through development work being supported               data, developed in consultation with the aviation
  by external research communities. We completed             community through the NextGen Advisory Committee
  a strategic training needs analysis (STNA), and a          (NAC), as well as anecdotal information about changes
  preliminary analysis was published in June 2012.           in select locations. The NPS is expected to evolve to
  The final STNA is scheduled to be published later in       reflect ongoing progress on implementation as well
  calendar year 2012.                                        as continuing collaboration with industry. The NPS is
                                                             publicly available at www.faa.gov/nextgen/snapshots.




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
128



                                  KEY CHALLENGE: Advancing NextGen’s near-term goals          ERAM contract with the prime vendor for FY 2012
                                    and realizing benefits at already congested airports      and FY 2013 waterfall. This includes new contractor
                                                                                              incentive structure(s), relationships between software
                                  ISSUE: The FAA has not established detailed milestones      milestones and the triggering of those incentive(s),
                                    to complete initiatives at high-activity locations or a   and agency controls to strengthen processes around
OTHER ACCOMPANYING INFORMATION




                                    mechanism to integrate its metroplex initiative with      software acceptance.
                                    other important initiatives, such as improving airport
                                    surface operations. Additionally, the FAA’s plans do      The ERAM program continues to mature the National
                                    not focus on the more advanced required navigation        User Team (NUT) to develop operational requirements
                                    performance (RNP) procedures to achieve maximum           for new software functions, thus improving the
                                    capacity enhancements.                                    operational suitability of software before it is delivered
                                                                                              to the field.
                                  SUMMARY OF ACTIONS TAKEN IN FY 2012:
                                    This year, the FAA continued to evolve the OAPM           The ERAM program has developed a standing work
                                    program. Experienced program management staff             group within the construct of the contract between
                                    and contract support were added to the program            the FAA and National Air Traffic Controller Association
                                    office, a new schedule was developed that reflects        (NATCA), as well as Professional Aviation Safety
                                    other ongoing efforts and more effective utilization of   Specialists (PASS), to collaborate on program strategy,
                                    program resources, and a detailed Operations Plan         software content, site implementation needs, and a
                                    was developed. A systematic, metrics-based process        range of other activities.
                                    reflecting input from the FAA and industry was used
                                    to initially prioritize projects and detailed project     The AIMS system is used by all Air Route Traffic Control
                                    milestones were developed. These milestones are           Centers (ARTCC) facilities to capture operational issues
                                    being tracked by several organizations including the      observed with ERAM. The current process for intake,
                                    White House, the Office of Management and Budget,         analysis, and disposition of those issues has been
                                    the Government Accountability Office, the Department      streamlined, including system enhancements for end-
                                    of Transportation, and the FAA. Internal to the FAA,      user tracking and query of issue status.
                                    OAPM management is well informed and updates are
                                                                                              The ERAM program has improved processes and
                                    provided on a monthly basis to track progress and to
                                                                                              standards for packaging builds using a newly formed
                                    ensure milestones are met.
                                                                                              National Packaging Team (NPT). This enables the
                                  KEY CHALLENGE: Resolving problems with the En               program to provide more transparent and timely
                                    Route Automation Modernization (ERAM) program             communication to facilities about build content, and
                                    that have cost and schedule implications for critical     enhances collaboration across program stakeholders
                                    NextGen initiatives                                       as part of the packaging process.

                                  ISSUE: Originally planned for completion in 2010, the En    The ERAM program has initiated a series of deep-
                                    Route Automation Modernization (ERAM) program has         dive architecture reviews of the system, some to be
                                    experienced delays due to software-related problems.      conducted by the prime contractor (ERAM Architecture
                                    These problems have had a significant impact on           review) and some to involve a third party review
                                    the overall schedule and program budget. The ERAM         (ERAM Independent Verification and Validation (IV&V)
                                    program is working to resolve these issues as cost and    project, led by Volpe). This work focuses on areas of
                                    schedule challenges have an impact on maintenance of      system stability, reliability, and interoperability with
                                    legacy systems and associated resources, workforce        other NextGen systems.
                                    training requirements, other Next Gen program
                                                                                              As a means of proactively managing cost and schedule
                                    schedules.
                                                                                              performance, the ERAM program has expanded its
                                  SUMMARY OF ACTIONS TAKEN IN FY 2012:                        existing earned value management approach to be a
                                    In FY 2012, the ERAM program renegotiated the             program-wide performance reporting tool rather than
                                                                                              solely focusing on the prime vendor activities. This will




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                 129



  improve the ability of the program to comprehensively           through 2015. Portfolio Management Review Teams
  assess cost and schedule performance.                           continued NSIP portfolio execution quarterly reviews.
                                                                  These reviews provide a cross agency forum to review
  ERAM’s safety risk management (SRM) process has                 portfolio accomplishments, identify challenges to
  been reviewed and improvements implemented with                 implementation and develop mitigation strategies, and




                                                                                                                                  OTHER ACCOMPANYING INFORMATION
  a view to a) strengthen upstream safety analysis by             provide updates to the Integrated Master Schedule.
  Air Traffic (AT) subject matter experts, b) increase
  sharing of build content early in the process to facilitate     Finally, the 2012 NextGen Implementation Plan
  SRM planning activities, and c) standardize safety              was published in March and included schedule and
  documentation signature processes for efficiency gains.         programmatic information for NSIP 4.0 Portfolios and
                                                                  NextGen Solution Set Pre-implementation activities.
  A new governance planning board has been
  implemented to establish a mechanism through which
  ERAM leadership can monitor the overall health of the
                                                                KEY CHALLENGE: Controlling operating costs that could
  program from both a long term strategic and shorter
                                                                  crowd out NextGen capital investments
  term operational perspective; and to implement
  practices that will increase efficiencies in managing         ISSUE: In 2009, the FAA entered into a three-year
  change, coordinating schedules and reporting progress.          collective bargaining agreement with the National
                                                                  Air Traffic Controllers Association (NATCA). The FAA
                                                                  estimated that the agreement with NATCA would
KEY CHALLENGE: Completing and integrated master                   cost the FAA $669 million more than it would have
  schedule for NextGen’s transformational programs                cost to extend the 2006 contract for three more
                                                                  years. The 2009 contract also allows the FAA and
ISSUE: The FAA has not yet developed an integrated                NATCA to negotiate local and regional memoranda of
  master schedule for implementing NextGen                        understanding (MOUs).
  Transformational Programs, or established total
  program costs, schedules or performance baselines.              For the first year of the contract (FY10), FAA’s pay and
  Decision makers in Congress and the Department                  benefits costs were $14 million higher than initially
  lack sufficient information to assess progress as               estimated. Also, OIG sited that the FAA has had
  requirements evolve. Without a master schedule the              problems managing its MOUs in the past, resulting
  FAA will continue to be challenged to assess progress           in millions of dollars in cost overruns. Based on these
  with NextGen efforts, establish priorities, and make            factors, OIG is concerned that the NATCA contract
  necessary trade-offs between programs.                          and related MOUs may result in higher than expected
                                                                  costs if established controls are not managed well.
SUMMARY OF ACTIONS TAKEN IN FY 2012:
  The FAA made significant progress this year                   SUMMARY OF ACTIONS TAKEN IN FY 2012:
  implementing the new Idea-to-In Service (i2i) process           This year, in addition to developing and maintaining
  that provides the necessary structure and governance            accurate pay modeling tools, the FAA kept costs in
  to better manage changes to NAS policy, procedures,             line with expectations through successful workforce
  programs, and systems, complimenting the FAA’s                  planning. We utilized multiple resources to develop
  Acquisition Management System. Additionally, both               accurate attrition forecasts and estimates on training
  the NextGen and ATO organizations completed                     times for new controllers. This allowed the FAA to
  organizational changes to improve strategic direction of        develop and execute new hire plans to ensure that new
  NextGen and improve program management in the Air               controllers are placed in the right place at the right time.
  Traffic Organization, both supporting development of
  the NextGen Integrated Master Schedule.                         We also made improvements in compliance with
                                                                  established MOU processes. Briefings and supplemental
  The next release of the NextGen Segment                         training for the labor relations staff, outlining and
  Implementation Plan (NSIP 5.0) was drafted and                  emphasizing the proper procedures to be followed when
  includes updates to Segment Alpha capabilities                  negotiating an MOU and the subsequent updating of




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
130



                                     the MOU database (LERIS), occur on a periodic basis.           Acquisition Management System (AMS); established
                                     In addition, the standard operating procedures (SOP)           three COR certification levels; and performed training
                                     for the MOU database has recently been reissued with           of its contracting officer and COR workforce. We
                                     a reinforced section on the requirement for including          worked with FAI to establish entry level training for
                                     MOUs and supporting documentation.                             new Federal CORs and revise competency levels
OTHER ACCOMPANYING INFORMATION




                                                                                                    for all levels of CORs in the Government. The FAA
                                     Finally, our agency recently signed an extension to            also formed a team consisting of various stakeholder
                                     the 2009 NATCA contract that will run into 2016. As            organizations to analyze and revise AMS COR policy
                                     part of the extension, the FAA and NATCA agreed to             and guidance. The result was the establishment
                                     future pay provisions that will ensure that controller pay     of three COR levels in FAA, which is based on the
                                     increases will be generally the same as those granted          complexity, scope and value of acquisitions and
                                     to other Federal employees. This extension not only            reflect those established by the Office of Federal
                                     helps maintain the collaborative labor-management              Procurement Policy for other Federal agencies. Finally
                                     relationship, but will also ensure FAA costs are               training was provided to the CO and COR workforce
                                     maintained at expected levels in the coming years.             detailing the certification changes and how the new
                                                                                                    FAA polices are to be implemented and administered.
                                  Managing DOT Acquisitions in a Smarter
                                  and More Strategic Manner to Maximize
                                  Limited Resources and Achieve Better                            KEY CHALLENGE: Strengthening the acquisitions
                                  Mission Results                                                   workforce to manage DOT’s contracts for goods and
                                  KEY CHALLENGE: Equipping DOT to perform effective                 services
                                    management oversight of its acquisitions
                                                                                                  ISSUE: Modernizing the complex, highly sophisticated
                                  ISSUE: Oversight weaknesses compounded by poor                    National Airspace System depends on the FAA’s
                                    acquisition data management systems hinder DOT’s                acquisition workforce professionals and requires
                                    ability to strategically manage its contracts and               that they be of the highest caliber. The FAA’s 2011
                                    contract spending; meet reporting and transparency              acquisition workforce plan, which was not considered
                                    requirements; and, ensure the billions of dollars it            in the development of this management challenge,
                                    spends on contracting each year are used efficiently            provides the blueprint for developing a high-performing
                                    and effectively. Sustained focus on developing reliable         acquisition workforce capable of successfully
                                    information and data management systems will                    managing the FAA’s major systems acquisitions. The
                                    position DOT to conduct more strategic acquisitions.            2011 plan emphasizes the need for and the specific
                                                                                                    steps being taken to develop the existing workforce,
                                  SUMMARY OF ACTIONS TAKEN IN FY 2012:                              reflecting the realities of a Federal budget climate
                                    The FAA performed several actions in FY 2012 to                 that constrains the agency’s ability to hire additional
                                    maximize oversight and its ability to effectively acquire       resources. Looming retirements, competition for
                                    mission requirements. The National Acquisition                  acquisition talent inside and outside of government,
                                    Evaluation Program (NAEP) continued its onsite                  and the growing complexity of technology and related
                                    reviews evaluating contract file documentation and              system requirements all contribute to the challenge
                                    data consistency. To improve data quality further, the          of maintaining an adequately staffed, highly capable
                                    Procurement Information & Services Branch continued             acquisition workforce.
                                    to provide contracting office managers reports
                                    detailing errors and exceptions in the acquisition data       SUMMARY OF ACTIONS TAKEN IN FY 2012:
                                    system requiring action.                                        The FAA took several actions in FY 2012 to ensure
                                                                                                    its acquisition workforce was provided the training
                                     To improve the administration and oversight conducted          and tools necessary to effectively and efficiently
                                     by contracting officer’s representatives (COR), the FAA        deliver mission requirements. To ensure management
                                     worked with the Federal Acquisition Institute (FAI) to         and acquisition training personnel can properly
                                     establish new COR training; revised COR policy in the          assess the composition and competency of the




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                          131



  acquisition workforce, the FAA collects and reports         MANAGEMENT RESPONSE
  acquisition workforce gains and losses and measures
                                                              We agree that the FAA faces significant management
  the development and certification of program
                                                              and performance challenges as we continue to enhance
  managers, contract specialists and contracting
                                                              aviation safety in an environmentally responsible way
  officer’s representatives (COR) monthly. The FAA also




                                                                                                                           OTHER ACCOMPANYING INFORMATION
                                                              while simultaneously increasing efficiency in a fiscally
  revalidated the composition and applicability of the
                                                              restrained system. These Management Challenges are
  Program/Project Management profession competency
                                                              not issues that can be easily solved. In many cases
  model and certification program, and developed a pilot
                                                              they require investments or upgrades to technology
  of a certification program for the Test and Evaluation
                                                              or substantial changes in long-standing procedures or
  profession.
                                                              program activities. To completely mitigate a Management
                                                              Challenge may take more than one fiscal year. However,
Improving the Department’s Cyber Security                     the challenges above will be met through the focused
KEY CHALLENGE: Strengthening air traffic control              efforts of our leadership and the commitment of our
  system protections                                          workforce.

ISSUE: The FAA’s planned Next Generation Air
                                                              Looking Ahead to FY 2013
  Transportation System (NextGen) relies on a number of
  new technologies to achieve its goals. NextGen relies       The IG has identified the following Top Management
  on the use of Internet Protocol-based commercial            Challenges for FY 2013. We will report on our progress in
  products and web applications, which are inherently         addressing these in our FY 2013 PAR.
  more vulnerable to security risks than proprietary          nnEnsuringthe Next Generation Air Transportation
  software. The FAA is also outsourcing more of its
                                                                System Advances Safety and Air Travel
  operations to contractors. Because the FAA only owns
                                                              nnEnhancing  the FAA’s Oversight and Use of Data to
  the data, not the system, it may have little control over
                                                                Identify and Mitigate Safety Risks
  security challenges that could arise.
                                                              nnStrengthening  Financial Management Over Grants
SUMMARY OF ACTIONS TAKEN IN FY 2012:                            to Better Use Funds, Create Jobs and Improve
  This year, ATO established a formal security policy for       Infrastructure
  NextGen outsourced NAS systems/services. The new            nnAssuringEffective Management of DOT’s Acquisitions
  policy defines security control requirements for both
                                                                to Maximize Value and Program Performance
  FAA owned NAS data/systems and contractor owned
                                                              nnManaging    and Securing Information Systems to
  NAS systems/services. Additionally, ATO implemented
                                                                Efficiently Modernize Technology Infrastructure and
  a layered NAS security architecture to provide
                                                                Protect Sensitive Data from Compromise
  protection, detection, and response for NAS, Internet
  Protocol (IP)-based services and systems.




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
132




                                  SUMMARY OF FINANCIAL STATEMENT AUDIT AND
                                  MANAGEMENT ASSURANCES
OTHER ACCOMPANYING INFORMATION




                                  Financial Audit Summary
                                  Table 1 is a summary of the results of the independent audit of the FAA’s consolidated financial statements by the FAA’s
                                  auditors in connection with the FY 2012 audit.


                                   TABLE 1:   SUMMARY OF FINANCIAL STATEMENT AUDIT
                                                                         FY 2012-unqualified
                                   Audit Opinion
                                                                         FY 2011-unqualified
                                   Restatement                           No
                                   Material Weakness                       Beginning Balance              New                Resolved                Consolidated           Ending Balance
                                                                                     0                      0                   0                            0                       0
                                   Total Material Weaknesses                         0                      0                   0                            0                       0



                                  Management Assurances Summary
                                  Table 2 is a summary of management assurances related to the effectiveness of internal control over the FAA’s financial
                                  reporting and operations, and its conformance with financial management system requirements under Sections 2 and 4,
                                  respectively, if the Federal Mangers’ Financial Integrity Act of 1982 (FMFIA). The last portion of Table 2 is a summary of
                                  the FAA’s compliance with the Federal Financial Management Improvement Act (FFMIA).


                                   TABLE 2:   SUMMARY OF MANAGEMENT ASSURANCES
                                   EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
                                   Statement of Assurance                                                                    Unqualified statement of assurance
                                                                                                        Beginning                                                                         Ending
                                                                                                         Balance       New          Resolved     Consolidated       Reassessed           Balance
                                                                                                            0            0              0                0              0                   0
                                    Total Material Weaknesses                                               0            0              0                0              0                   0

                                   EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
                                   Statement of Assurance                                                                    Unqualified statement of assurance
                                                                                                        Beginning                                                                        Ending
                                                                                                         Balance       New          Resolved     Consolidated       Reassessed           Balance
                                                                                                            0            0              0                0              0                   0
                                    Total Material Weaknesses                                               0            0              0                0              0                   0

                                   CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA § 4)
                                   Statement of Assurance                                                       Systems conform to financial management system requirements
                                                                                                        Beginning                                                                        Ending
                                                                                                         Balance       New          Resolved     Consolidated       Reassessed           Balance
                                    Conformance of FAA’s core financial management system, Delphi, is       0            0              0                0              0                   0
                                    assessed and reported by the U.S. Department of Transportation.

                                   COMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                                                                                                                            Agency                           Auditor
                                   Overall Substantial Compliance                                                                              Yes                             Yes
                                    1. System Requirements                                                                                                       Yes
                                    2. Accounting Standards                                                                                                      Yes
                                    3. USSL at Transaction Level                                                                                                 Yes




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                              133




SUMMARY OF IMPROPER PAYMENTS

I.	 Risk Assessment. As part of the FY 2012 Improper           The IPERA sampling methodology involved a multi-
    Payments Review, conducted in compliance with the          staged statistical approach that included the selection




                                                                                                                               OTHER ACCOMPANYING INFORMATION
    Improper Payments Elimination and Recovery Act             of 73 Federal disbursements totaling approximately
    (IPERA) and OMB Circular A-123, Appendix C, the            $113 million and 142 line items from supporting
    DOT and the FAA performed a Programmatic Improper          invoices totaling $11.3 million. A statistician designed
    Payment Risk Assessment to determine which FAA             the sample to extrapolate a nationwide estimate
    programs require a statistically valid extrapolated        of improper payments. While this sample provides
    improper payment estimate.                                 an improper payment estimate for the AIP as a
                                                               whole, this sample does not support an estimate for
   The FAA’s Programmatic Improper Payment Risk                individual states or airport sponsors.
   Assessment leverages the Assessable Unit (AU) Risk
   Profiles compiled as part of ongoing compliance with        Improper payments totaling $839.74 were found
   the Federal Managers’ Financial Integrity Act of 1982       in the sample. The projection of known improper
   (FMFIA).                                                    payments to the population of program payments for
                                                               the 12-month period results in an improper payment
   The AU Risk Profiles rate the internal control risk of      estimate of $2.2 million. This estimated improper
   various areas as either “high,” “medium,” or “low.”         payment rate is less than 0.065 percent; therefore, it
   After assigning numerical values to these three risk        does not meet the definition of significant improper
   ratings, the FAA determined that programs with AU           payments ($10 million and 2.5 percent of total
   Risk Profiles that reported average internal control        program payments) used by OMB.
   risk ratings of “low” or “medium” did not warrant
   additional review, except for the Airport Improvement
                                                            III.	 Corrective Actions.
   Program (AIP).
                                                                  a.	Fund Stewardship. In order to maintain these
                                                                     low rates of improper payments, the FAA stresses
   In the case of the FAA’s AIP, none of the AU risk
                                                                     the importance of proper fund stewardship with
   averages identified a “high” level of internal control
                                                                     its grant recipients via various grantee review
   risk. However, the FAA determined that the volume
                                                                     programs. FAA promotes proper fund stewardship
   of payments made annually, approximately $4 billion
                                                                     through a continuous grant and sponsor oversight
   for the FAA AIP, coupled with the fact that Federal
                                                                     process throughout the duration of the grant life
   funds within these programs are further administered
                                                                     cycle. The FAA receives quarterly reports on each
   outside the agency by local governments or airport
                                                                     grant to assess sponsor performance under every
   sponsors, warranted an improper payment analysis.
                                                                     grant agreement. On a broader level, the FAA uses
                                                                     a risk-based approach that increases the level of
II.	 Statistical Sampling. To adhere to IPERA
                                                                     review of sponsor documentation depending on the
     requirements, the DOT and the FAA engaged a
                                                                     risk level of the grantee and their prior performance.
     contractor to develop nationwide sampling plans,
     test sampled invoice line items for improprieties,        b.	System Capabilities. To further reduce and
     and extrapolate nationwide improper payments                 minimize the currently low rate of improper
     estimates for the AIP grant program. The FY 2012             payments, the FAA stresses the need to review
     sample of tested line items originated from Federal          system capabilities to ensure their (the grantee’s)
     disbursements to grantees for the twelve-month               grant management system complies with Federal
     period of April 1, 2011, through March 31, 2012.             grants standards.




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
134



                                     c.	Document Retention. The FAA continues to                                                                    d.	Contract Amendments. To minimize the potential
                                        place emphasis on grantees implementing proper                                                                 of an improper payment, contracts should be
                                        document retention policies. The FAA encourages                                                                properly amended and documented. The FAA
                                        grantees to maintain supporting documentation for                                                              recommends that grantees amend contracts
                                        all payments using Federal funds or to have access                                                             when key or essential components are changed.
OTHER ACCOMPANYING INFORMATION




                                        to the documentation, especially when performed                                                                Examples of these changes are changes in rates,
                                        by a third party. The AIP Handbook provides the                                                                job classes, budgeted hours, pricing schedule,
                                        requirements for record retention, which include                                                               vendor, subcontractor, scope and duration. FAA
                                        maintaining the documents related to a grant for                                                               continues to place increasing emphasis on
                                        at least seven years after the last grant payment is                                                           maintaining supporting documentation for all
                                        received.                                                                                                      payments using Federal funds.


                                  IV.	Improper Payment Reporting.

                                   IMPROPER PAYMENT REDUCTION OUTLOOK




                                                                                                                                                                   CY+1 IP$ ($M)




                                                                                                                                                                                                                 CY+2 IP$ ($M)




                                                                                                                                                                                                                                                               CY+3 IP$ ($M)
                                                                                                                                     Outlays ($M)




                                                                                                                                                                                   Outlays ($M)




                                                                                                                                                                                                                                 Outlays ($M)
                                                                              PY IP$ ($M)




                                                                                                                       CY IP$ ($M)
                                                    PY Outlays




                                                                                            CY Outlays




                                                                                                                                                      CY+1 IP%




                                                                                                                                                                                                    CY+2 IP%




                                                                                                                                                                                                                                                  CY+3 IP%
                                                                                                                                     CY+1 Est.




                                                                                                                                                                                   CY+2 Est.




                                                                                                                                                                                                                                 CY+3 Est.
                                                                   PY IP%




                                                                                                             CY IP%
                                                    ($M)




                                                                                            ($M)




                                   Program
                                   FAA Airport     $3,906        0.89%      $34.6           $3,459       0.065%       $2.2           $3,619         0.50%        $18.1             $3,446         0.50%        $17.2             $3,412         0.50%        $17.1
                                   Improvement
                                   Program



                                  V.	 Recapture of Improper Payments Reporting. The                                                                 accountable for improper payments. The FAA uses
                                      DOT’s contract recovery auditors worked to recover                                                            a vast network of regional offices to ensure that it
                                      any FAA overpayments and identify payment process                                                             maintains regular communication with grantees, as
                                      weaknesses. The recovery auditors did not identify                                                            well as with state and local officials. This constant
                                      any systemic payment process weaknesses. The                                                                  communication, along with the assistance of grantee
                                      overpayments were of such immaterial amounts that                                                             staff, has allowed us not only to maintain a low rate
                                      it was not considered cost-effective to break them                                                            of improper payments, but also to achieve success in
                                      down by agency and therefore they were reported at                                                            recapturing payments identified as both improper and
                                      the departmental level (in the DOT’s Performance and                                                          recoverable.
                                      Accountability Report).
                                                                                                                                            VII.	Agency information systems and other
                                  VI.	Accountability. The DOT and the FAA have                                                                    infrastructure. The FAA currently possesses the
                                      implemented various grantee review programs, as                                                             internal controls, human capital, and information
                                      highlighted in PART III of this Summary of Improper                                                         systems necessary to maintain improper payments
                                      Payments section, to hold states and local agencies                                                         levels at the targeted programmatic rates.




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                          135




ADMINISTRATIVE SERVICES FRANCHISE FUND

Background                                                  nnInformation Technology-hosting, telecommunications,




                                                                                                                           OTHER ACCOMPANYING INFORMATION
Public Law 104-205, “Department of Transportation and         information system security, and end user support
Related Agencies Appropriation Act, 1997,” authorized the     services
FAA to establish an Administrative Services Franchise
                                                            During FY 2005, OMB selected ESC as a Financial
Fund (Franchise Fund). The Franchise Fund is designed
                                                            Management Center of Excellence (COE). As a COE, the
to create competition within the public sector in the
                                                            ESC now has the ability to compete to provide financial
performance of a wide variety of support services.
                                                            management services for other government agencies.
It allows for the establishment of an environment to
                                                            The ESC currently provides financial management
maximize the use of internal resources through the
                                                            services to all DOT agencies, the National Endowment
consolidation and joint-use of like functions and the
                                                            for the Arts, Commodity Futures Trading Commission,
recognition of economies of scale and efficiencies
                                                            Institute of Museum and Library Services, and the United
associated with the competitive offering of services to
                                                            States Government Accountability Office and also has
other government agencies.
                                                            several proposals out to other agencies.
The FAA’s Franchise Fund is composed of several
                                                            In addition to being selected as a COE, the ESC was
programs, within which it offers a wide variety of
                                                            chosen by the FAA Administrator to serve as the
services. These services include accounting, travel,
                                                            consolidated provider of all financial management
duplicating, multi-media, information technology,
                                                            services for all FAA organizations. The ESC committed to
logistics and material management, aircraft maintenance,
                                                            providing an improved level of service, meeting all Joint
international training and management training. The
                                                            Financial Management Improvement Program (JFMIP)
Franchise Fund’s major customers are FAA Lines of
                                                            requirements.
Business programs. Other customers include U.S.
Department of Transportation (DOT) entities, non-DOT        The Franchise Fund also includes the following program
government agencies, and international government           areas:
entities.
                                                            The Aircraft Maintenance and Engineering Group
                                                            in the office of Aviation System Standards is located at
Description of Programs and Services                        the Mike Monroney Aeronautical Center (Aeronautical
Several programs within the Franchise Fund are organized    Center) in Oklahoma City. It provides total aircraft
around an Enterprise Services Center (ESC) concept,         support including maintenance, quality assurance, and
designed to integrate the key components necessary          overall program management. This service includes
to be a full service financial management provider.         preventative as well as repair/overhaul and/or modification
The efficiencies and economies of scale created by          requirements and reliability and maintainability studies.
this integration offer the opportunity to compete for       The Aircraft Maintenance and Engineering Group can
customers seeking a provider of financial management        provide full or partial support depending on customer
services. As new customers come on board, this further      requirements, from short-term preventative maintenance
reduces the cost of providing the services by spreading     or one time engineering tasks to more involved activities
the fixed cost of operations over a larger customer base.   such as a full complement of maintenance services with
There are three components of the ESC, all falling within   quality assurance and engineering support.
the single Franchise Fund:
                                                            The Center for Management and Executive Leadership
nnEnterprise System-configuration and support of
                                                            (CMEL), located at Palm Coast, FL, provides non-technical
  application software and databases
                                                            training in support of the FAA mission. The center designs
nnFinancialOperations-transaction processing, financial     and delivers face-to-face centralized training both onsite
  reporting, and analysis services                          and at field locations. Students also complete more than
                                                            5,000 distance learning programs each year. CMEL is




                 FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
136



                                  fully accredited with commendations by the Commission          The FAA Logistics Center also located at the
                                  on Occupational Education, and the American Council on         Aeronautical Center provides comprehensive logistics
                                  Education has determined that CMEL courses are worthy          support and a highly sophisticated level of maintenance
                                  of upper division college credit. The Federal, professional,   and repair services to ensure the safety of the flying
                                  and local communities also recognize CMEL as a premier         public and to satisfy the critical needs of the national
OTHER ACCOMPANYING INFORMATION




                                  resource for leadership and teambuilding training.             airspace system and related requirements. Services
                                                                                                 include materiel management (e.g., provisioning,
                                  The International Training Division (ITD) in the FAA           cataloging, acquisition, inventory management, inventory
                                  Academy at the Aeronautical Center in Oklahoma City            supply), reliable and cost-effective depot-level repair of
                                  delivers technical assistance and training to enhance          line replaceable units, life cycle and performance cost
                                  international aviation safety and security while promoting     analysis, logistics automation, distribution services,
                                  U.S. aviation system technologies, products, and services      disposal of items no longer required, and technical
                                  overseas. The products and services of the ITD include         support in the repair and maintenance of national airspace
                                  training program management, instructional services,           and related equipment.
                                  training design/development/revision, technical training
                                  evaluations, and consulting services tailored to meet
                                  specifically defined needs of the FAA and its international
                                  customers.




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                    137



                                            U. S. Department of Transportation
                                        FEDERAL AVIATION ADMINISTRATION
                                               FRANCHISE FUND
                                                  Condensed Information
                             ASSETS, LIABILITIES, AND NET POSITION




                                                                                                                     OTHER ACCOMPANYING INFORMATION
                                                  (Dollars in Thousands)
                                                        Unaudited


                                                                                     As of September 30
                                                                                   2012                     2011
Assets
    Fund balance with Treasury                                             $     271,519              $   257,152
    Accounts receivable, net                                                         316                      573
    Inventory and related property, net                                          568,077                  543,867
    General property, plant, and equipment, net                                   22,950                   24,705
    Other                                                                          1,477                      939
    Total assets                                                           $     864,339              $   827,236
Liabilities
     Accounts payable                                                      $      30,478              $    30,990
     Advances from others                                                        155,770                  153,416
     Employee related                                                             20,785                   19,955
     Other                                                                         1,294                    1,929
     Total liabilities                                                           208,327                  206,290
Net position
     Cumulative results of operations                                            656,012                  620,946
     Total net position                                                          656,012                  620,946
Total liabilities and net position                                         $     864,339              $   827,236




         FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
138



                                                                                 U. S. Department of Transportation
                                                                           FEDERAL AVIATION ADMINISTRATION
                                                                                    FRANCHISE FUND
                                                                                    Condensed Information
                                                                             REVENUES AND EXPENSES
OTHER ACCOMPANYING INFORMATION




                                                                                      (Dollars in Thousands)
                                                                                            Unaudited


                                                                                                                          For the years ended September 30
                                                                                                                                2012                           2011
                                    Enterprise Services Center                        Revenues                        $     148,957              $      145,781
                                                                                      Expenses                              170,843                     172,708
                                                                                      Profit (loss)                         (21,886)                    (26,927)


                                    Aircraft Maintenance and Engineering Group        Revenues                               53,288                      54,396
                                                                                      Expenses                               57,939                      60,482
                                                                                      Profit (loss)                          (4,651)                     (6,086)


                                    FAA Academy                                       Revenues                               13,314                      14,886
                                                                                      Expenses                               15,466                          17,358
                                                                                      Profit (loss)                          (2,152)                     (2,472)


                                    FAA Logistics Center                              Revenues                              289,570                     343,783
                                                                                      Expenses                              273,458                     334,480
                                                                                      Profit (loss)                          16,112                          9,303


                                    Acquisitions                                      Revenues                                8,063                          8,706
                                                                                      Expenses                               11,704                      11,254
                                                                                      Profit (loss)                          (3,641)                     (2,548)


                                    Total Consolidated                                Revenues                              513,192                     567,552
                                                                                      Expenses                              529,410                     596,282
                                                                                      Profit (loss)                   $     (16,218)             $      (28,730)




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                139



                                                U.S. Department of Transportation
                                        FEDERAL AVIATION ADMINISTRATION
                                                  FRANCHISE FUND
                                                   Condensed Information
                                 FINANCING SOURCES AND NET POSITION




                                                                                                                                 OTHER ACCOMPANYING INFORMATION
                                                     (Dollars in Thousands)
                                                           Unaudited



                                                                                    Cumulative results of operations
                                                                                       2012                             2011


Beginning balance, net position                                            $        620,946              $         598,660

Financing sources
       Transfers-in/out without reimbursement                                       (11,850)                       (16,760)
       Imputed financing from costs absorbed by others                               63,134                            67,776

       Total financing sources                                                       51,284                            51,016

Profit (loss)                                                                       (16,218)                       (28,730)

Ending balance, net position                                               $        656,012              $         620,946




                FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
140




                                  SCHEDULE OF SPENDING
                                  The Schedule of Spending presents an overview of the major spending categories for FAA during FY 2012. The data
                                  used to populate this schedule is the same underlying data reported on the Statement of Budgetary Resources. This
OTHER ACCOMPANYING INFORMATION




                                  accompanying schedule is new for FY 2012.



                                                                                       U.S. Department of Transportation
                                                                               FEDERAL AVIATION ADMINISTRATION
                                                                          OTHER ACCOMPANYING INFORMATION
                                                                               SCHEDULE OF SPENDING
                                                                                          As of September 30, 2012
                                                                                                  Unaudited




                                            Total resources available to spend                                                $     25,725,509
                                               Less amount available but not agreed to be spent                                      1,430,914
                                               Less amount not available to be spent                                                 2,088,764
                                            Total amounts agreed to be spent                                                  $     22,205,831


                                            Major spending categories
                                               Personnel compensation and benefits                                            $      7,534,257
                                               Contractual services and supplies                                                     5,639,734
                                               Acquisition of assets                                                                  479,138
                                               Grants and fixed charges                                                              3,053,590
                                               Other                                                                                 5,059,582
                                            Total spending                                                                          21,766,301
                                               Amounts remaining to be spent                                                          439,530
                                            Total amounts agreed to be spent                                                  $     22,205,831




                                 PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
                                                                                                                                      141




                                                                                    GLOSSARY OF
                                                                                      ACRONYMS




                                                                                                                                       GLOSSARY OF ACRONYMS
ACRONYM   NAME                               ACRONYM   NAME                              ACRONYM   NAME

AATF      Airport and Airway Trust Fund      CHI       Computer-Human Interface          GA        General Aviation
ADS-B     Automatic Dependent                CIO       Chief Information Officer         GBAS      Ground-Based Automation
          Surveillance-Broadcast             CIP       Capital Investment Program                  System
AFN       Finance and Management             CLEEN                                       GAJSC     General Aviation Joint
                                                       Continuous Lower Energy,
          Staff Office                                 Emissions and Noise                         Steering Committee
AIP       Airport Improvement Program        COE                                         GAO       Government Accountability
                                                       Center of Excellence
AIO       Office of Information Services                                                           Office
                                             COR       Contracting Officer’s
AMS                                                                                      GPS       Global Positioning System
          Acquisition Management                       Representatives
          System                             COTS                                        HITL      Human-in-the-Loop
                                                       Commercial off-the-shelf
ANG       NextGen Staff Office               CSRS                                        HCAAF     Human Capital Assessment
                                                       Civil Service Retirement
APB       Acquisition Program Baseline                 System                                      and Accountability Framework

ARP                                          DOL                                         ICAO      International Civil Aviation
          Airports (FAA Line of Business)              U.S. Department of Labor
                                                                                                   Organization
ARRA      American Recovery and              DOT       U.S. Department of
                                                                                         IG        Inspector General
          Reinvestment Act                             Transportation
ARTCC                                        ERAM                                        ILS       Instrument Landing System
          Air Route Traffic Control Center             En Route Automation
AST                                                    Modernization                     IOC       Initial Operating Capability
          Commercial Space
          Transportation (FAA Line of        ESC       Enterprise Services Center        IPERA     Improper Payments Elimination
          Business)                          EVS       Employee Viewpoint Survey                   and Recovery Act
ATC       Air Traffic Control                F&E                                         IPIA      Improper Payments
                                                       Facilities and Equipment
ATO       Air Traffic Organization (FAA                                                            Information Act
                                             FAA       Federal Aviation
          Line of Business)                                                              ISS       International Space Station
                                                       Administration
ATP       Airline Transport Pilot            FAI                                         IT        Information Technology
                                                       Federal Acquisition Institute
AU        Assessable Unit                    FASAB                                       ITD       International Training Division
                                                       Federal Accounting Standards
AVS       Aviation Safety (FAA Line of                 Advisory Board                    JFMIP     Joint Financial Management
          Business)                          FBWT      Fund Balance with Treasury                  Improvement Program
BPTW      Best Places to Work                FEA                                         LCGS      Low Cost Ground Surveillance
                                                       Federal Enterprise Architecture
CAA       Civil Aeronautics Authority        FECA                                        LP        Localizer Performance
                                                       Federal Employees’
CAAFI     Commercial Aviation                          Compensation Act                  LPV       Localizer Performance with
          Alternative Fuels Initiative       FEMA      Federal Emergency                           Vertical Navigation
CAS       Cost Accounting System                       Management Agency                 MOU       Memorandum of
CAST      Commercial Aviation Safety         FERS      Federal Employees Retirement                Understanding
          Team                                         System                            NAEP      National Acquisition
CEAR      Certificate of Excellence in       FFMIA     Federal Financial Management                Evaluation Program
          Accountability Reporting                     Improvement Act                   NAS       National Airspace System
CEDAR     Comprehensive Electronic           FIT       Financial Information             NASA      National Aeronautics and
          Data Analysis and Reporting                  Transformation                              Space Administration
CMEL      Center for Management and          FMFIA     Federal Managers’ Financial       NATCA     National Air Traffic Controllers
          Executive Leadership                         Integrity Act of 1982                       Association
CFO       Chief Financial Officer            FRMS      Fatigue Risk Management           NAVAIDS   Ground-based Navigational
CFO Act   Chief Financial Officers Act                 Systems                                     Aids
          of 1990                            FY        Fiscal Year




                  FEDERAL AVIATION ADMINISTRATION • FISCAL YEAR 2012 • PERFORMANCE & ACCOUNTABILITY REPORT
142



                         ACRONYM   NAME                              ACRONYM    NAME                             ACRONYM    NAME

                         NextGen   Next Generation Air               PURE       Platform for Unified Reporting   STNT       Strategic Training Needs
                                   Transportation System             Q-routes   En Route Cruising at High                   Analysis
                         NPRM      Notice of Proposed                           Altitudes                        SNPRM      Supplemental Notice of
                                   Rulemaking                                                                               Proposed Rulemaking
GLOSSARY OF ACRONYMS




                                                                     RBRT       Risk-Based Resource Targeting
                         NPT       National Packaging Team                      System                           SOP        Standard Operating
                         NTSB      National Transportation Safety    R,E,&D     Research, Engineering, and                  Procedures
                                   Board                                        Development                      SpaceX     Space Exploration
                         NUT       National User Team                RNAV       Area Navigation                             Technologies

                         ODA                                         RNP                                         SRER       System Risk Event Rate
                                   Organization Designation                     Required Navigation
                                   Authorization                                Performance                      SRM        Safety Risk Management
                         OIG       Office of the Inspector General   RSA        Runway Safety Area               STAR       Standard Terminal Arrival
                         OMB       Office of Management and          RSAT       Runway Safety Action Teams                  Routes
                                   Budget                            RSSI                                        SWAP       Severe Weather Avoidance
                                                                                Required Supplementary
                         OPD       Optimized Profile Descents                   Stewardship Information                     Plan

                         OPM                                         SASO                                        SWIM       System Wide Information
                                   Office of Personnel                          System Approach to Safety
                                   Management                                   Oversight                                   Management

                         OTA                                         SAVES                                       T-routes   En Route Cruising at Lower
                                   Office of Tax Analysis                       Strategic Sourcing for the
                                                                                Acquisition of Various                      Altitudes Around Terminal
                         PAR       Performance and                                                                          Areas
                                   Accountability Report                        Equipment and Supplies
                                                                     SEATAC                                      TARP       Traffic Analysis and Review
                         PASS      Professional Aviation Safety                 Seattle Takoma International
                                                                                Airport                                     Program
                                   Specialists
                                                                                                                 TBD        To Be Determined
                         PBN       Performance-Based Navigation
                                                                     SFFAS      Statement of Federal Financial
                                                                                Accounting Standards             UAS        Unmanned Aircraft Systems
                         PP&E      Property, Plant, and Equipment
                                                                     SRV        Sub-orbital Reusible Vehicle     WAAS       Wide-Area Augmentation
                         PPS       The Partnership for Public                                                               System
                                   Service




                       PERFORMANCE & ACCOUNTABILITY REPORT • FISCAL YEAR 2012 • FEDERAL AVIATION ADMINISTRATION
WE WELCOME
YOUR COMMENTS
Thank you for your interest in the FAA’s FY 2012
Performance and Accountability Report. We
welcome your comments on how we can make
this report more informative for our readers.

Please send your comments to
   Mail: Office of Financial Reporting and
         Accountability
          Federal Aviation Administration
          800 Independence Avenue, SW
          Room 612
          Washington, DC 20591


Phone: 202–267–3018
 Email: Allison .Ritman@faa .gov
   Fax: 202–493–4191

This report and reports from prior years
are available on the FAA Web site at
www.faa.gov/about/plans_reports .

For a printed copy, call 202–267–3018
or email Allison.Ritman@faa.gov .
800 Independence Avenue, SW
   Washington, DC 20591

     www.faa.gov
